 Office of Inspector General
     Audit Report


   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
    FISCAL YEARS 2013 AND 2012
      Federal Aviation Administration

       Report Number: QC-2014-014
      Date Issued: December 13, 2013
           U.S. Department of
                                                          Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review of                               Date:    November 14, 2012
           Audited Financial Statements for Fiscal Years
           2012 and 2011, Federal Aviation Administration
           Report Number: QC-2013-013

  From:    Calvin L. Scovel III                                              Reply to
                                                                             Attn. of:   JA-20
           Inspector General

    To:    The Secretary
           Federal Aviation Administrator

           I respectfully submit our report on the quality control review (QCR) of the Federal
           Aviation Administration’s (FAA) audited financial statements for fiscal
           years 2012 and 2011.

           The audit of FAA’s financial statements, as of and for the year ended
           September 30, 2012, was completed by KPMG LLP (see Attachment) under
           contract to the Office of Inspector General. The contract required the audit to be
           performed in accordance with generally accepted Government auditing standards
           and Office of Management and Budget Bulletin 07-04, “Audit Requirements for
           Federal Financial Statements,” as amended.

           KPMG LLP concluded that the consolidated financial statements present fairly, in
           all material respects, FAA’s financial position as of September 30, 2012, and its
           net costs, changes in net position, and budgetary resources for the year then ended,
           in conformity with U.S. generally accepted accounting principles.
           Clifton Gunderson LLP, under contract to the Office of Inspector General, audited
           FAA’s fiscal year 2011 consolidated financial statements, and expressed an
           unqualified opinion on those statements. 1




           1
               Quality Control Review of Audited Financial Statements for Fiscal Years 2011 and 2010, Federal
               Aviation Administration, Report Number QC-2012-008, November 14, 2011. OIG reports and testimony
               can be found on our Web site at: www.oig.dot.gov.
                                                                                   2


KPMG LLP’s Fiscal Year 2012 Audit Report

KPMG LLP reported the following two significant deficiencies in internal control
over financial reporting:

   1. Insufficient Validation of Grant Accrual Estimates – FAA has not been
      validating the accuracy of its Airport Improvement Program grant accrual
      estimates by comparing them to actual data. In addition, FAA does not have
      a process to collect the grantee data it needs to refine or develop future
      grant accrual estimation methodologies. As a result, there is a risk that these
      estimates will result in material misstatements in FAA’s financial
      statements.
   2. Improvements Needed in the Financial Statement Review Process –
      FAA’s interim financial statements and notes contained material
      misstatements as a result of inadequately designed controls over the review
      process. Without the proper controls, there is a risk that material
      misstatements may occur and remain undetected.

We performed a QCR of KPMG LLP’s report and related documentation. Our
QCR, as differentiated from an audit performed in accordance with generally
accepted Government auditing standards, was not intended for us to express, and
we do not express, an opinion on FAA’s financial statements or conclusions about
the effectiveness of internal controls or compliance with laws and regulations.
KPMG LLP is responsible for its report dated November 9, 2012, and the
conclusions expressed in that report. However, our QCR disclosed no instances in
which KPMG LLP did not comply, in all material respects, with generally
accepted Government auditing standards.

KPMG LLP made five recommendations to strengthen FAA’s financial,
accounting, and system controls. FAA officials concurred with KPMG LLP’s
findings on the significant deficiencies. FAA also committed to submitting to
OIG, by December 31, 2012, a detailed action plan to address the findings
contained in the audit report. In accordance with DOT Order 8000.1C, the
corrective actions taken in response to the findings are subject to follow up.

We appreciate the cooperation and assistance of FAA representatives, the Office
of Financial Management, and KPMG LLP. If we can answer any questions,
please call me at 202-366-1959, or Lou E. Dixon, Principal Assistant Inspector
General for Auditing and Evaluation, at 202-366-1427.

Attachment

                                          #
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                        Independent Auditors' Report


Administrator, Federal Aviation Administration
U.S. Department of Transportation:


Report on the Financial Statements

We have audited the accompanying consolidated financial statements of the U.S. Department of
Transportation (DOT), Federal Aviation Administration (FAA), which comprise the consolidated balance
sheets as of September 30, 2013 and 2012 and the related consolidated statements of net cost, and changes
in net position, and combined statements of budgetary reso urces for the years then ended, and the related
notes to the consolidated financial statements.

Management's Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these consolidated financial
statements in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of
consolidated financial statements that are free from material misstatement, whether due to fraud or error.

Auditors' Responsibili(V

Our responsibility is to express an opinion on these consolidated financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
consolidated financial statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
consolidated financial statements . The procedures selected depend on the auditors' judgment, including the
assessment of the risks of material misstatement of the consolidated financial statements, whether due to
fraud or error. In making those risk assessments, the auditor considers internal control relevant to the
entity 's preparation and fair presentation of the consolidated financial statements in order to design audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of the entity's internal control. Accordingly, we express no such opinion. An audit also
includes evaluating the appropriateness of accounting policies used and the reasonableness of significant
accounting estimates made by management, as well as evaluating the overall presentation of the
consolidated financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.




                                KPMG LLP is a Delaware limited liabihty partnership,
                                the US. member firm of KPMG International Cooperative
                                ("K PMG International"). a Swiss entity.
Opinion on the Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the Federal Aviation Administration as of September 30,2013 and 2012,
and its net costs, changes in net pos ition, and budgetary resources for the years then ended in accordance
with U.S. generally accepted accounting principles.

Emphasis ofMalter

As discussed in Notes I and 12, the consolidated financial statements reflect actual excise tax revenues
deposited in the Airport and Airway Trust Fund through June 30, 2013, and excise tax receipts estimated
by the Department of Treasury' s Office of Tax Analysis for the quat1er ended September 30, 2013. Our
opinion is not modified with respect to this matter.

Other Matters

Required Supplementwy Information

U.S. generally accepted accounting principles require that the information in the Management' s Discussion
and Analysis, Required Supplementary Information, and Required Supplementary Stewardship
Information sections be presented to supplement the basic consolidated financial statements. Such
information, although not a part of the basic consolidated financial statements, is required by the Federal
Accounting Standards Advisory Board who considers it to be an essential part of financial reporting for
placing the bas ic consolidated financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the infom1ation
for consistency with management's responses to our inquiries, the basic consolidated financial statements,
and other knowledge we obtained during our audits of the bas ic consolidated financial statements. We do
not express an opinion or provide any assurance on the inform ation because the limited procedures do not
provide us with sufficient evidence to express an opinion or provide any assurance.

Other Information

Our audits were conducted for the purpose of forming an opinion on the basic consolidated financial
statements as a whole. The information in the Other Information, FAA at a Glance, Forward, Messages
from the Administrator and Chief Financial Officer, and Performance Results sections as listed in the Table
of Contents of the FAA Perfonnance and Accountability Report is presented for purposes of additional
analysis and is not a required part of the basic consolidated financial statements. Such information has not
been subjected to the auditing procedures applied in the audits of the basic consolidated financial
statements, and accordingly, we do not express an opinion or provide any assurance on it.

Other Reporting Required by Government Auditing Standards
Internal Control Over Financial Reporting
In planning and performing our audit of the consolidated financial statements, we considered the FAA ' s
internal control over financial reporting (internal control) to determine the audit procedures that are
appropriate in the circumstances for the purpose of expressing our opinion on the consolidated financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the FAA 's internal
control. Accordingly, we do not express an opinion on the effectiveness of the FAA's internal control. We
did not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers ' Financial Integrity Act of 1982.



                                                     2
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable poss ibility that a material misstatement of
the entity's financial statements will not be prevented, or detected and corrected on a timely basis. A
s ignificant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies and therefore, material weaknesses or significant deficiencies may
exist that were not identified. Given these limitations, during our audit we did not identify any deficiencies
in internal control that we consider to be material weaknesses. However, we did identify certain
deficiencies in internal control, described in the accompanying schedule of findings in Exhibit I, that we
consider to be significant deficiencies.

Compliance ami Other Matters

As part of obtaining reasonable assurance about whether the FAA ' s consolidated financial statements are
free from material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain provis ions of other laws and
regulations specified in OMB Bulletin No. 14-02. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such an opinion.
The results of our tests disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards or OMB Bulletin No. 14-02.

FAA's Response to Findings

The FAA 's response to the findings identified in our audit is described in the accompanying schedule of
findings in Exhibit I. The FAA ' s response was not subjected to the auditing procedures applied in the
audit of the consolidated financial statements and, accordingly, we express no opinion on the response.

Purpose ofthe Other Reporting Required by Government Auditing Standards

The purpose of the communication described in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compliance and the
result of that testing, and not to provide an opinion on the effectiveness of the FAA's internal control or
compliance. Accordingly, this communication is not suitable for any other purpose.




December 9, 2013




                                                        3
Federal Aviation Administration
Independent Auditors' Report
Internal Control Over Financial Reporting                                                   EXHIBIT I
                                                                            SIGNIFICANT DEFICIENCIES


Improvements Needed in Management Review Controls
Criteria
The Government Accountability Office 's (GAO) Standard for Internal Control in the Federal Government
(the Standards) states that, " ... control acti vities help to ensure that all transactions are completely and
accurately recorded."
T he Standards further define internal control as "an integral component of an organizatio n's management
that provides reasonable assurance that the following objectives are being achieved : effectiveness and
effici ency of o perati ons, reliability of financial reporti ng, and compliance with app licable laws and
regulations." Furthermore, the Standards list exam ples of control activities that include ( I) top-level
reviews of actual performance, (2) reviews by management at the functional or activity level ...
(4) controls over information processing . .. (6) Establishment and review of performance measures and
indicators, (7) segregati on of duties, (8) proper execution of transactions and events, (9) acc urate and
timely recording of transactions and events, ( I 0) access restrictio ns to and accountability for reso urces and
records, and ( II ) appropriate documentation of transactions and internal control.
The Standards also state, " Inte rnal control should generally be designed to ass ure that o ngoi ng monitoring
occurs in the course of normal operations. It is performed continually and is ingrained in the agency's
o perations. It includes regular management and supervisory activities, comparisons, reconc iliat ions, and
other actio ns people take in performing their duties."
Appendix A, Section I, of the Office of Management and Budget (OMB) Circular No. A-1 23,
Management's Responsibility for Internal Controls, states that " Internal control over financial reporting is
a process desig ned to provide reasonable assurance regard ing the reliability of financial reporting.
Reliability of financia l re porting means that management can reasonably make the following assertions:
           All reported transactions actually occurred during the reporting period and all assets and liabilities
           exist as of the reporting date (existence and occurrence);
           All assets, li abilities, and transactions that should be reported have been inc luded and no
           unauthorized transactions or balances are included (completeness); and,
           All assets and liabi lities have been properly valued, and where applicable, all costs have been
           properly allocated (valuation)."
Conditions
During the fiscal year (FY) 2013 aud it, we noted several instances whereby the FAA did not have adequate
controls in place to ensure that all transactions were properly recorded in the general ledger, including
s uffic ient review controls to validate the completeness and accuracy of key inputs and assumptions of
certain estimated amounts. For example, we identified errors to taling over $ 100 million in three of eight
overflight fee revenue transactions tested for the period July I, 20 13 through September 30, 20 13.
One error was identified and corrected by management; however, the correctio n was not made timely.
Two errors were identified by us.
Federal Aviation Administration
Independent Auditors' Report
Internal Control Over Financial Reporting                                                EXHIBIT l
                                                                         SIGNIFICANT DEFICIENCIES


In addition, our testing of the grant accrual as of September 30, 2013 revealed the following errors in key
inputs and assumptions used in the calculation of the estimate:
    •   The grant disbursement data used in the calculation of the grant accrual was incomplete, as two
        months of data was erroneously excluded from the accrual calculation.
    •   The grant accrual calcul at ion erro neous ly did not include an accrual for costs associated with one
        g rant that was award ed in A ugust 2013.
The errors above were not detected by management in the review of these accruals at year-end.
Cause/Effect
The errors above rel ated to overflight fee revenue first occurred after personnel at the Enterprise Service
Center implemented a Dataloader tool in June 2013 to post overflight fee reven ue transactions to the
general ledger. The Dataloader did not always properly capture overflig ht fee revenue and, as a result,
posted incorrect transactions to the general ledger. A manual review of the transactions posted by the
Dataloader tool was not consistently performed to ens ure the recorded amounts were cons istent with the
related source documentation and general ledger inputs.
The conditions above related to the grant accrual occurred because personnel within the O ffi ce of Financial
Reporting and Accountability did not perform proced ures to validate the completeness and accuracy of key
inputs provided by other organizations within FAA for use in calculating year-end accruals. As a res ult,
Grants Payable and Expenses were overstated by $80 million as a result of the error related to incomplete
disbursements, and understated by $65 million as a result of the exclusion of one g rant from the accrual.
The net impact was an overstatement to Grants Payable and Expenses of $ 15 million. The draft FY 20 13
Performance and Accountability Report provided to us contained errors caused by the conditions described
above.
Fa ilure to perform s ufficient review controls over key general ledger inputs and outputs increases the ri sk
and the likelihood that material differences will not be detected or corrected timely.
Recommendations
We recommend that FAA design and implement policies and procedures I) to ensure transactions are
recorded properly in the general ledge r and 2) to validate the completeness and accuracy of key inputs and
assumptions that are the basis for transactions recorded to the general ledger.
Federal Aviation Administration
Independent Auditors' Report
Internal Control Over Financial Reporting                                                   EXHIBIT I
                                                                            SIGNIFICANT DEFICIENCIES


Improvements Needed in Management Review Controls
Criteria
The Government Accountability Office 's (GAO) Standard for Internal Control in the Federal Government
(the Standards) states that, " ... control acti vities help to ensure that all transactions are completely and
accurately recorded."
T he Standards further define internal control as "an integral component of an organizatio n's management
that provides reasonable assurance that the following objectives are being achieved : effectiveness and
effici ency of o perati ons, reliability of financial reporti ng, and compliance with app licable laws and
regulations." Furthermore, the Standards list exam ples of control activities that include ( I) top-level
reviews of actual performance, (2) reviews by management at the functional or activity level ...
(4) controls over information processing . .. (6) Establishment and review of performance measures and
indicators, (7) segregati on of duties, (8) proper execution of transactions and events, (9) acc urate and
timely recording of transactions and events, ( I 0) access restrictio ns to and accountability for reso urces and
records, and ( II ) appropriate documentation of transactions and internal control.
The Standards also state, " Inte rnal control should generally be designed to ass ure that o ngoi ng monitoring
occurs in the course of normal operations. It is performed continually and is ingrained in the agency's
o perations. It includes regular management and supervisory activities, comparisons, reconc iliat ions, and
other actio ns people take in performing their duties."
Appendix A, Section I, of the Office of Management and Budget (OMB) Circular No. A-1 23,
Management's Responsibility for Internal Controls, states that " Internal control over financial reporting is
a process desig ned to provide reasonable assurance regard ing the reliability of financial reporting.
Reliability of financia l re porting means that management can reasonably make the following assertions:
           All reported transactions actually occurred during the reporting period and all assets and liabilities
           exist as of the reporting date (existence and occurrence);
           All assets, li abilities, and transactions that should be reported have been inc luded and no
           unauthorized transactions or balances are included (completeness); and,
           All assets and liabi lities have been properly valued, and where applicable, all costs have been
           properly allocated (valuation)."
Conditions
During the fiscal year (FY) 2013 aud it, we noted several instances whereby the FAA did not have adequate
controls in place to ensure that all transactions were properly recorded in the general ledger, including
s uffic ient review controls to validate the completeness and accuracy of key inputs and assumptions of
certain estimated amounts. For example, we identified errors to taling over $ 100 million in three of eight
overflight fee revenue transactions tested for the period July I, 20 13 through September 30, 20 13.
One error was identified and corrected by management; however, the correctio n was not made timely.
Two errors were identified by us.
Federal Aviation Administration
Independent Auditors' Report
Internal Control Over Financial Reporting                                                EXHIBIT l
                                                                         SIGNIFICANT DEFICIENCIES


In addition, our testing of the grant accrual as of September 30, 2013 revealed the following errors in key
inputs and assumptions used in the calculation of the estimate:
    •   The grant disbursement data used in the calculation of the grant accrual was incomplete, as two
        months of data was erroneously excluded from the accrual calculation.
    •   The grant accrual calcul at ion erro neous ly did not include an accrual for costs associated with one
        g rant that was award ed in A ugust 2013.
The errors above were not detected by management in the review of these accruals at year-end.
Cause/Effect
The errors above rel ated to overflight fee revenue first occurred after personnel at the Enterprise Service
Center implemented a Dataloader tool in June 2013 to post overflight fee reven ue transactions to the
general ledger. The Dataloader did not always properly capture overflig ht fee revenue and, as a result,
posted incorrect transactions to the general ledger. A manual review of the transactions posted by the
Dataloader tool was not consistently performed to ens ure the recorded amounts were cons istent with the
related source documentation and general ledger inputs.
The conditions above related to the grant accrual occurred because personnel within the O ffi ce of Financial
Reporting and Accountability did not perform proced ures to validate the completeness and accuracy of key
inputs provided by other organizations within FAA for use in calculating year-end accruals. As a res ult,
Grants Payable and Expenses were overstated by $80 million as a result of the error related to incomplete
disbursements, and understated by $65 million as a result of the exclusion of one g rant from the accrual.
The net impact was an overstatement to Grants Payable and Expenses of $ 15 million. The draft FY 20 13
Performance and Accountability Report provided to us contained errors caused by the conditions described
above.
Fa ilure to perform s ufficient review controls over key general ledger inputs and outputs increases the ri sk
and the likelihood that material differences will not be detected or corrected timely.
Recommendations
We recommend that FAA design and implement policies and procedures I) to ensure transactions are
recorded properly in the general ledge r and 2) to validate the completeness and accuracy of key inputs and
assumptions that are the basis for transactions recorded to the general ledger.
FISCAL YEAR 2013   | PERFORMANCE a n d ACCOUNTABILITY REPORT




                                The FAA. Evolving Technology. Advancing Aviation.
          OUR MISSION                                    OUR VISION
To provide the safest, most efficient        Transform the aviation system to reflect
  aerospace system in the world.          the highest standards of safety and efficiency
                                            and be a model for the world. The FAA will
                                           bring about this transformation by fostering
                                        innovation in our workforce and in how we serve
                                           our stakeholders and the American people.
                                                             FISCAL YEAR 2013
                                                             PERFORMANCE a n d
                                                             ACCOUNTABILITY REPORT
                                                                            The FAA. Evolving Technology. Advancing Aviation.




                                                              Our FY 2013 Performance and Accountability Report is dedicated to all the people
                                                              who make aviation safe, efficient, and pleasant: from the mechanics to the air traffic
                                                              controllers, from the aviation inspectors to the baggage and cargo handlers, from the
                                                              scientists to the pilots, and so many more. To all of them we say: Thank you!



                                                                 OUR VALUES
  Safety is our Passion.      Excellence is our Promise.   Integrity is our Touchstone.     People are our Strength.       Innovation is our Signature.
We work so that all air and      We seek results that        We perform our duties            Our success depends            We foster creativity and
    space travelers            embody professionalism,        honestly, with moral               on the respect,                vision to provide
  arrive safely at their          transparency, and         soundness, and with the          diversity, collaboration,         solutions beyond
      destinations.                 accountability.          highest level of ethics.          and commitment of              today’s boundaries.
                                                                                                 our workforce.
    THE FAA AT A GLANCE
                                                                 Established                                             ¢    1958

                                                                 Headquarters                                            ¢    800 Independence Avenue, SW
                                                                                                                              Washington, DC 20591
                                                                                                                              www.faa.gov

                                                                 FY 2013 Budget (sequester)                              ¢    $15.3 billion

                                                                 Total Employees                                         ¢    46,027 employees

                                                                 Headquarters                                            ¢    3,706 employees

                                                                 Regional and Field Offices                              ¢    37,362 employees

                                                                 William J. Hughes Technical Center                      ¢    1,427 employees
                                                                 Atlantic City, NJ

                                                                 Mike Monroney Aeronautical Center                       ¢    3,532 employees
                                                                 Oklahoma City, OK

                                                                 FY 2013 Passengers on U.S. Carriers                     ¢    More than 736 million (estimate)

                                                                 FY 2013 Tower Operations and Overflights                ¢    53.1 million arrivals, departures, and
                                                                                                                              overflights




    FOREWORD
    The Federal Aviation Administration (FAA) is part of the U.S.                                   Last year, we were proud to receive our ninth prestigious
    Department of Transportation (DOT). By directives, the Office of                                Certificate of Excellence in Accountability Reporting award
    Management and Budget (OMB), which implements the Chief                                         for our PAR from the Association of Government Accountants
    Financial Officers Act of 1990 (CFO Act), requires us to prepare                                (AGA). This award is indicative of the progress we have made
    financial statements separate from those of the DOT. We                                         in reporting financial and program performance and in candidly
    consolidate key FAA data and information and provide this to the                                assessing our results. Last year, the AGA also honored 10 federal
    DOT to incorporate into their corresponding reports. Although we                                agencies with “Best in Class” awards for demonstrating specific
    are not required to prepare a separate Annual Financial Report                                  points of excellence within their PAR. Our PAR was recognized
    or Performance and Accountability Report (PAR), we recognize                                    as the “most representative of editorial excellence” across
    that we can better demonstrate our agency’s accountability by                                   government.
    presenting performance, management, and financial information
    using the same statutory and guidance framework as that used                                    We strive to continue to raise the bar with our performance and
    by the DOT. For this reason, the FAA has produced its own PAR                                   financial accountability and do our part to help the DOT and the
    since fiscal year (FY) 2002.                                                                    federal government excel in providing high-quality services and
                                                                                                    products to the taxpayers we serve.



                                              This report and reports from prior years are available on the FAA website at
                                                                www.faa.gov/about/plans_reports




2   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
CONTENTS
    Mission, Vision, and Values Statements (inside front cover)
    2	 The FAA at a Glance
    2	Foreword
    4	 A Message from the Administrator


10	 MANAGEMENT’S DISCUSSION AND ANALYSIS
    11	 History of Aviation
    12	 Our Organization
    16	 The Year in Highlights
    17	 Major Accomplishments
    17	NextGen
    19	     Other Major Accomplishments
    22	 Performance Highlights
    29	 Alignment of FAA Costs and Goals
    30	 Financial Highlights
    35	 Management Control Highlights
    38	 Management Assurances
    39	 Financial Management Systems Strategy and Actions


42	 PERFORMANCE RESULTS
    43	 Performance Measures Overview
    44	    Next Level of Safety
    54	    Workplace of Choice
    57	
    62	
           Delivering Aviation Access Through Innovation
           Sustaining Our Future                                                                       SIDEBARS
    66	    Improved Global Performance through Collaboration
    69	 Quality Assurance                                                                              13	 The FAA and Sequestration
                                                                                                       14	 NextGen Progress Today Ensures
70	 FINANCIAL RESULTS                                                                                      a Viable Future for Aviation
    71	    A Message from the Chief Financial Officer                                                      Tomorrow
    73	    Office of the Inspector General (OIG) Quality Control Review                                18	 Unmanned Aircraft: A New FAA
    75	    Independent Auditors’ Report                                                                    Frontier
    80	    Management’s Response to the FY 2013 Independent Auditors’ Report
                                                                                                       20	 Improving the Safety of General
    83	    Financial Statements
                                                                                                           Aviation
    87	    Notes to the Financial Statements
    113	   Required Supplementary Stewardship Information                                              23	 Commercial Space Transportation:
    117	   Required Supplementary Information                                                              A Booming Market
                                                                                                                                                                  AT A GLANCE / FOREWORD

                                                                                                       28	 The FAA Responds to Natural
120	 OTHER INFORMATION                                                                                     Disasters
                                                                                                                                                                         CONTENT S


    121	 Summary of Inspector General’s Top Management Challenges                                      65	 The FAA Intensifies Its Study of
    133	 Summary of Financial Statement Audit and Management Assurances                                    Alternative Fuels
    134	 Summary of Improper Payments
    138	 Administrative Services Franchise Fund
    143	 Other Information
    144	Glossary
	   We Welcome Your Comments (inside back cover)




                                                             Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   3
    M i c h a e l P. H u e r ta
                                         a   MESSAGE f r o m
          A d m i n i s t r at o r   t h e ADMINISTRATOR




4
A
                   s we celebrate our 55th year, I am pleased to submit the Federal Aviation Administration’s (FAA) Fiscal Year
                   2013 Performance and Accountability Report (PAR), the first PAR since I had the honor of being confirmed as
                   Administrator last January. Our FY 2013 PAR discusses the challenges, accomplishments, and performance
                   results of our agency as we delivered on a promise that we make every day—to provide the safest, most
                   efficient aerospace system in the world. This report shows how we went about making good on our promise in
                   the past fiscal year.

The effective operation of FAA programs requires stability and predictability in funding. The agency’s many authorization
extensions over the past few years inevitably took a toll on the FAA’s work in certain areas until the Federal Aviation
Reauthorization Modernization and Reform Act of 2012 restored some of the stability essential to our agency’s ability to deliver
both air traffic management and aviation safety. It is unfortunate that just as the era of protracted uncertainty caused by temporary
reauthorizations ended, the new reality of budget sequestration caused even more dire uncertainty. Halfway through FY 2013,
more than $600 million was cut from our budget, which is affecting our operations and our future. The FAA urgently needs a
longer-term solution to provide the financial certainty essential to our move toward modernization.

Our goal areas of the past year are based on the framework of Destination 2025, which was our strategic plan published in 2011.
These goals are discussed further in this letter and throughout the PAR. Beginning in 2014, I have established a revised strategic
framework where we will focus our efforts during my five-year term as Administrator. These priorities are to:
      ¢¢   Make aviation safer and smarter
      ¢¢   Deliver benefits through technology and infrastructure
      ¢¢   Enhance the FAA’s global leadership
      ¢¢   Empower and innovate with the FAA’s people

During FY 2014, we will identify specific initiatives for each of these areas.




SAFETY
The FAA’s number one priority is safety. We focus on this priority 24 hours a day, 7 days a week. The Asiana Airlines crash in
San Francisco in July serves as a somber reminder of how valuable our employees’ efforts are in keeping our skies safe for the
approximately 70,000 flights that pass through our national airspace each and every day. It is also a sign of the technological
progress we are making in aircraft safety, including fire retardant materials aboard aircraft, to keep passengers safe. We continue
to work with the National Transportation Safety Board on the investigation of this accident.

In the past few years, Congress has given us significant guidance on how to advance aviation safety. We accomplished a great
                                                                                                                                                                      the




deal on this front in 2013, including issuing a final rule that increased the qualification requirements for first officers who fly for
                                                                                                                                                                              a
                                                                                                                                                                      ME SSAGE f r o m
                                                                                                                                                                      ADMINISTRATOR



U.S. passenger and cargo airlines.

This rule requires first officers, also known as co-pilots, to hold an Airline Transport Pilot (ATP) certificate, which mandates 1,500
hours total time of flight experience, including time in a simulator. Previously, first officers were required to have only a commercial
pilot certificate, which required just 250 hours of flight time as a pilot. The rule further requires first officers to have an aircraft-
type rating, which involves additional training and testing specific to the airplanes they fly. The rule gives first officers a stronger
foundation of aeronautical knowledge and experience before they fly for an air carrier.




                                                                 Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   5
       These new regulations address a congressional mandate in the Airline Safety and Federal Aviation Administration Extension Act of
       2010 requiring that both pilots and co-pilots receive the ATP certification.

       This is one of several rulemakings required by that Act. Others include new flight duty and rest requirements for pilots that were
       finalized in December 2011 and new training requirements. These requirements, which ensure that pilots know how to react
       properly in difficult operating environments, will eventually be included in all air carrier training programs.

       We have put new safety data collection programs in place for air traffic controllers and aviation technicians to report a problem
       or even a mistake they may have made, without fear of retribution. This makes the system even safer because we can learn from
       mistakes.

       This year we took actions to address safety issues that were prompted by incidents involving lithium ion batteries. Failures of
       these batteries resulted in release of flammable electrolytes, heat damage, and smoke on two Boeing 787-8 airplanes. The FAA
       issued an emergency airworthiness directive in January 2013, requiring battery system modifications before further flight. Our
       agency then worked closely with Boeing and the National Transportation Safety Board (NTSB) to understand what prompted the
       failures and how best to mitigate the safety issues. This included an in depth review of the certification activities, manufacturing
       processes and supply chain, and a non-advocate review by internationally recognized battery experts. In April 2013, we added
       requirements to install new battery enclosures and environmental control system ducts; replace the main and auxiliary power
       unit batteries and their respective battery chargers; and revised the maintenance program. This work involved unprecedented
       coordination with Boeing, NTSB and our international partners and enabled successful resumption of 787 operations in May 2013.

       We are taking many other actions to enhance safety across the board, including promoting safety management systems and
       fostering the sharing of more data between our agency and the airline industry. By analyzing this data, we are able to identify
       trends and hazards across the airspace system and mitigate risks before emergencies occur.

       Although we operate in one of the safest periods in aviation history, we continually strive to improve. As we undergo the difficult
       process of implementing the deep cuts required by the sequester, we refuse to sacrifice safety, even if this means that operations
       may at times be less efficient.




       NEXTGEN
       We continue to make progress with the Next Generation Air Transportation System, known simply as NextGen. We’re moving
       from a primarily ground-based system to satellite-based operations and an air-ground communication system that relies on digital
       data exchange, as well as voice. These changes will make flying more efficient and more environmentally-friendly. We remain
       committed to implementing the technologies that comprise NextGen, even if we may have to shift some of our priorities and alter
       some of our deployment timeframes.

       NextGen tools and procedures are changing the way we fly. By 2020, we project that NextGen will provide $38 billion in savings.
       We also project a 41 percent reduction in delays compared to what would happen if we did nothing, a reduction of 16 million
       metric tons in carbon emissions, and a 1.6 billion gallon cumulative reduction of fuel use.

       This year we continued with the installation of Automatic Dependent Surveillance Broadcast (ADS-B), which makes use of
       satellite-based technology to determine and share precise aircraft location information. Early next year we expect to complete the
       installation of 642 ADS-B ground radio stations.




6   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
We also began work on Data Communications (Data Comm) trials. Data Comm supplements today’s analog, voice-only, air-to-
ground communications system with a digital message system. The sending and receiving of digital instructions to and from pilots
will increase overall system efficiency, while reducing the likelihood of hearback and readback errors. We plan to start initial
operations of Data Comm in equipped control towers beginning in 2016.

We also continue to make progress with implementation of the En Route Automation Modernization (ERAM) system, which
replaces the 1970s era En Route Host computer and backup system used at 20 FAA Air Route Traffic Control Centers nationwide.
ERAM is one of the most complex, challenging, and ambitious systems deployed by the FAA in recent times. In effect, the
transition to ERAM represents a live transplant of the “heart” of today’s air traffic control system while continuing safe and
efficient flight operations for the flying public. As ERAM evolves, it will provide benefits for users and the flying public by
increasing air traffic flow and improving automated navigation and conflict detection services, all of which are vital to meeting
future demand and preventing gridlock and delays. Our goal was to have ERAM in initial operation at all 20 locations by the end of
2013. However, due to sequestration, this will not occur until 2014.

As part of the financial flexibility that Congress gave us earlier this year to mitigate the worst impacts of the sequester (namely,
employee furloughs for our entire workforce), we were able to restart the Metroplex work that had been put on hold. Our
Metroplex initiative involves optimizing aircraft routes in major metropolitan areas that have one or more airports. The airspace
above these airports is among the most congested nationwide. Our individual Metroplex projects are highly collaborative and must
include our operational air traffic control personnel. Prior to the congressional action, the planned furloughs under the sequester
required us to postpone new design and development efforts, and recall air traffic controllers and managers back to their duty
stations. Air traffic controllers have now returned and are applying their needed airspace expertise to all Metroplex efforts. In
addition, we have restarted the collaborative process with airlines and the many other stakeholders who are all working together
to improve congested airspace over busy cities that have multiple major airports. We were able to do this in the following seven
Metroplex areas where the work will continue, including: Washington, D.C., Northern Texas, Charlotte, Northern and Southern
California, Houston and Atlanta.

There is much more to NextGen. For more information, go to www.faa.gov/nextgen. Additionally, NextGen accomplishments and
highlights also appear on pages 14–15 and 17–19 of this document.




FY 2013 PERFORMANCE HIGHLIGHTS
NEXT LEVEL OF SAFETY. This year we met our domestic commercial aviation fatal accident safety goal. Although we met our
goal with our U.S. registered carriers, the Asiana crash in San Francisco in July, which involved a foreign carrier, is a somber
reminder of the importance of constant vigilance in the area of aviation safety world-wide. Reducing general aviation (GA)
fatalities continues to be a challenge. More than three-quarters of GA fatal accidents are related to human factors. In addition,
many GA accidents occur in Alaska, where the state’s topography and extreme weather present unique safety challenges to pilots.
                                                                                                                                                                    the




In the area of commercial space safety, we maintained our outstanding record, with no fatalities, serious injuries, or significant
                                                                                                                                                                            a
                                                                                                                                                                    ME SSAGE f r o m
                                                                                                                                                                    ADMINISTRATOR



property damage from launches.

A summary of these performance results is presented in the Management’s Discussion and Analysis on page 26. Detailed
information about each of our safety performance metrics begins on page 44 of the Performance Results section.




                                                               Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   7
       Workplace of Choice. Our employees are our biggest asset. The vital work they do each and every day makes it possible for us
       to deliver on our mission of safety. Their talent and ideas are what will move us into the future. In order to reach this future, we
       must create an environment marked by innovation and excellence. We must continue to attract the best-qualified employees and
       to develop, motivate, and retain them. One of our strategic objectives is for the FAA to be widely recognized as a federal employer
       of choice.

       A summary of both performance results is presented on page 26 of the Management’s Discussion and Analysis. Detailed
       information about each of the workplace performance metrics begins on page 54 of the Performance Results section.

       Delivering Aviation Access Through Innovation. A complex challenge that we face today is ensuring that airport and airspace
       services are more efficient, predictable, and cost-effective, and that capacity matches demand. These are important factors that
       contribute to our goal of meeting the present and future needs of the flying public.

       A summary of these performance results is presented on page 27 of the Management’s Discussion and Analysis. Detailed
       information about each of these performance metrics begins on page 57 of the Performance Results section.

       Sustaining Our Future. Mitigating noise pollution and improving fuel efficiency are essential to increasing aviation capacity,
       efficiency, and sustainability. This year, we achieved partial success in meeting our performance targets for these measures.

       A summary of these performance results is presented on page 27 of the Management’s Discussion and Analysis. Detailed
       information about each of these metrics begins on page 62 of the Performance Results section.

       Improved Global Performance Through Collaboration. As the United States rolls out the improvements of NextGen, we seek
       to partner more with the International Civil Aviation Organization and other countries and regions. We continue to make strides
       in global stewardship by working with governments and industries around the world to encourage the alignment with NextGen of
       concepts, systems, and procedures under development internationally. By doing so, we will enhance safety around the world.

       A summary of this performance result is presented on page 27 of the Management’s Discussion and Analysis. Detailed
       information about this metric begins on page 66 of the Performance Results section.


       ACCOUNTABILITY
       For the sixth consecutive year, independent auditors gave the FAA’s financial statements an unmodified opinion with no material
       weaknesses. We issued an unqualified statement of assurance, shown under “Management Assurances” on page 38, and can
       state that the financial and performance data are reliable and complete.

       We are committed to ensuring transparency and accountability to the public while achieving our mission. Working in a difficult
       budgetary environment means that we must continue to refine and adjust our priorities as we move forward. We will select and
       deliver the technologies and programs that will help us achieve the greatest improvements in safety. We will continue to be
       careful stewards of the tax dollars we receive. This report is a clear indication that we take this responsibility very seriously.

       Our FY 2013 Performance and Accountability Report (www.faa.gov/about/plans_reports) provides a detailed accounting of
       our performance and financial management. A Summary of Performance and Financial Information presents the information in a
       condensed form. A summary is available at www.faa.gov/about/plans_reports. Our strategic plan—Destination 2025—focuses
       our performance on the top agency targets that position us to meet the future successfully. The plan can be found at www.faa.
       gov/about/plans_reports/media/Destination2025.pdf.




8   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
CONCLUSION
From its beginnings, aviation has expanded beyond all known technological boundaries. For more than five decades, the FAA
has compiled a proven track record of safely introducing new technology and new aircraft. The new technologies and process
improvements that we deliver over the next several years will again change the course of aviation history—both here and around
the world—for decades to come. I and the FAA’s capable and dedicated staff, including our new deputy administrator, Michael
Whitaker, look forward to working with the President, the Congress, industry partners, and stakeholders to ensure that the United
States continues to set the world standard for aviation safety and efficiency.




Michael P. Huerta
Administrator
December 9, 2013




                                                                                                                                                                  the
                                                                                                                                                                          a
                                                                                                                                                                  ME SSAGE f r o m
                                                                                                                                                                  ADMINISTRATOR




                                                             Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   9
     MANAGEMENT’S DISCUSSION
                 a n d ANALYSIS




10
    HISTORY OF AVIATION
    Orville Wright made the first sustained, powered flight on                   end of World War II, little had been done to mitigate the risk of
    December 17, 1903, in a plane that he and his brother Wilbur                 midair collisions.
    built. This 12-second flight led to the development of the first
    practical airplane in 1905. The early twentieth century witnessed            Accidents like these spurred passage of the Federal Aviation
    countless aviation developments as new planes and technologies               Act of 1958, which transferred Civil Aeronautics Administration
    entered service. During World War I, the airplane also proved                functions to a new independent body, the Federal Aviation
    its effectiveness as a military tool and, with the advent of                 Agency. On April 1, 1967, the Federal Aviation Agency became
    early airmail service, showed great promise for commercial                   one of several organizations within the U.S. Department of
    applications.                                                                Transportation (DOT) and was named the Federal Aviation
                                                                                 Administration (FAA).
    The first lighted airway was a 72-mile strip between Dayton
    and Columbus, OH, constructed by the Army in 1921, using                     Today, the FAA’s air traffic control system is one piece of
    rotating beacons, field floodlights, and flashing markers. As air            the national airspace system which consists of a complex
    travel increased, some airport operators, hoping to improve                  network of systems and aircraft, combined with the people
    safety, began providing an early form of air traffic control. Early          who certify, operate, and maintain them. The network includes
    controllers stood on the field and waved flags to communicate                more than 19,455 airports, 568 air traffic control facilities,
    with pilots. Development of radio navigation in the 1920s was                and approximately 65,000 other facilities, including radar,
    conducted by the Post Office Department, the Navy, the Army,                 communications nodes, ground-based navigation aids, computer
    and the Bureau of Standards, using radio transmitters on the                 displays, and radios, that operate unceasingly to provide safe
    ground and aircraft receivers with directional antennas on board.            and efficient flight services for users. Over 46,000 FAA personnel
    Based on ideas from the Bureau of Standards, the Army, and                   and approximately 608,000 pilots operate more than 228,000
    other sources, a radio system was developed during the course                aircraft within the national airspace system. American air traffic
    of the 1920s that would guide an aircraft along a chosen course              controllers can be responsible for up to 2,850 flights at any given
    and require only simple airborne equipment. With the placement               moment, half of the world’s air traffic.
    of radio beacons along the airways, air commerce in the United
                                                                                 The system operates non-stop, 24 hours a day, every day of the
    States grew, even during the Great Depression of the 1930s.
                                                                                 year, providing safe air transportation for millions of passengers.
    On June 30, 1956, a Trans World Airlines Super Constellation                 Under agreement with the International Civil Aviation
    and a United Air Lines DC-7 collided in Arizona, over the Grand              Organization (ICAO), a specialized United Nations agency
    Canyon, killing all 128 people on board the two airplanes. The               dedicated to air transportation and navigation, the national air
    collision occurred while the aircraft were flying under visual flight        space system not only spans the country, but extends across
    rules in uncongested airspace. The accident dramatized the fact              the Atlantic, Pacific, and Arctic oceans. It also interfaces with
    that, even though U.S. air traffic had more than doubled since the           neighboring countries’ air traffic control systems for international
                                                                                 flights.



                                                                                                                                                                              MANAGE MENT’S DI SCUSSI ON
                                                                                                                                                                                   a n d ANALYSI S




Passengers boarding a plane on a rainy day at the municipal airport in      An airlines hostess. Municipal airport, Washington, D.C. From the Farm
Washington, D.C. From the Farm Security Administration—Office of War        Security Administration—Office of War Information Photograph Collection,
Information Photograph Collection, Library of Congress.                     Library of Congress.

                                                                         Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   11
     OUR ORGANIZATION
     The FAA fulfills its mission through four lines of business that                                      for the safe operation of commercial service airports; and
     work collaboratively to create, operate, and maintain the national                                    inspects airports for compliance.
     airspace system.                                                                                 ¢¢   Aviation Safety (AVS). Oversees the safety of aircraft and
      ¢¢   Air Traffic Organization (ATO). Moves air traffic safely                                        the credentials and competencies of pilots and mechanics,
           and efficiently. The customers of the world’s largest air                                       develops mandatory safety rules, and sets the standards
           navigation service provider are commercial, private, and                                        that have helped make air travel one of the safest modes of
           military aviation. Approximately 33,000 ATO employees                                           transportation in history.
           provide services to these customers.                                                       ¢¢   Commercial Space Transportation (AST). Oversees
      ¢¢   Airports (ARP). Provides leadership in planning and                                             the safety of commercial space transportation activities;
           developing a safe, secure, and efficient airport system;                                        regulates the U.S. commercial space transportation industry,
           manages the Airport Improvement Program (AIP), which                                            including human space flight; and encourages, facilitates,
           provides grants to public agencies and, in some cases,                                          and promotes U.S. commercial space transportation.
           to private owners and entities, for the planning and
           development of public-use airports that are included in                                   The FAA has 10 staff offices that support these lines of business
           the National Plan of Integrated Airport Systems (NPIAS);                                  and accomplishment of the agency’s mission. Key among these
           enhances environmental quality related to airport                                         staff offices are:
           development; develops standards for the design and                                         ¢¢   Finance and Management (AFN). Consolidates support
           construction of airport facilities; establishes regulations                                     services and provides a centralized focus for finance,
                                                                                                           acquisition, information services, and region and center




                                                                                            ADMINISTRATOR




           LINES OF                     Air Traffic                              Airports                          Aviation                Commercial Space
           BUSINESS                    Organization                                ARP                              Safety                   Transportation
                                           ATO                                                                       AVS                          AST




           STAFF                                Civil Rights                                    Finance & Management                          Mike Monroney
           OFFICES                                 ACR                                                   AFN                                Aeronautical Center
                                                                                                                                                  MMAC
                                               Chief Counsel                                Government & Industry Affairs
                                                   AGC                                                 AGI

                                  Human Resource Management                                 NextGen & Operations Planning                    William J. Hughes
                                             AHR                                                       ANG                                   Technical Center
                                                                                                                                                   WJHTC
                                             Communications                                   Policy, International Affairs,
                                                 AOC                                                 & Environment
                                                                                                           APL
                                           Security & Hazardous
                                             Materials Safety                                       Audit & Evaluation
                                                    ASH                                                    AAE




12   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
    operations. The streamlining of agency functions enables us                 ¢¢   NextGen (ANG). The NextGen Office provides leadership
    to be more responsible stewards of FAA resources. AFN is                         in planning and developing the Next Generation Air
    comprised of the following offices:                                              Transportation System. This office coordinates NextGen
        Financial Services                                                           initiatives, programs and policy development across the FAA.

        Acquisitions and Business Services                                               Technical Center. The William J. Hughes Technical
                                                                                         Center, located in Atlantic City, NJ, supports the NextGen
        Information Services                                                             office and serves as the national scientific test base
        Regions and Center Operations                                                    for the FAA. The Technical Center focuses on research
        ¢¢   Aeronautical Center. The Mike Monroney                                      and development, including long-range development of
             Aeronautical Center in Oklahoma City, OK, provides                          innovative aviation systems and concepts; development
             logistics, enterprise business services, software                           of new air traffic control equipment and software; and
             design, training, course design, and acquisition                            modification of existing systems and procedures. The
             services. The Aeronautical Center also trains the                           Technical Center also verifies and validates air traffic
             air traffic control workforce and the technician                            control, communications, navigation, airports, aircraft
             workforce, as well as provides technological training,                      safety, and security systems.
             national partnerships, logistics support, simulation,            Go to www.faa.gov/about/office_org for more details about
             and medical research—all to move the NextGen                     our organization.
             transformation forward.




THE FAA AND SEQUESTRATION
The Budget Control Act of 2011 established enforcement                        technicians, and inspectors were included in the furlough. Flight
mechanisms to reduce federal budget deficits by at least $2.1 trillion        delays began occurring almost immediately.
over 10 years. The act mandated automatic spending cuts for most
                                                                              Congress responded to the crisis by enacting special legislation,
federal government departments and agencies, if the Congress
                                                                              the Reducing Flight Delays Act of 2013, which granted the FAA the
failed to enact balanced deficit reduction legislation. These budget
                                                                              flexibility to transfer up to $253 million from the Grants-in-Aid for
reductions, known as sequestration, began on March 1, 2013, and
                                                                              Airports program (which had been exempt from sequestration) to
are slated to last 10 years.
                                                                              the Operations and Facilities & Equipment accounts. This funding
While exempting most mandatory programs such as Social Security,              transfer enabled the FAA to immediately stop employee furloughs
Medicaid, federal pensions, and veterans benefits from cuts, the              and a proposal to close low-traffic towers. But other cutbacks have
2013 sequester reduced most discretionary budget accounts by                  remained in place.
approximately five percent, or $85 billion for the government as
                                                                              The special legislation only addressed the funding shortfall in
a whole. Sequestration reduced the FAA’s FY 2013 budget by
                                                                              FY 2013. The FY 2014 continuing resolution that funds government
$637 million.
                                                                              operations through
With sequestration looming, the FAA implemented cost-saving                   January 15, 2014, includes
strategies, including a partial hiring freeze and elimination of              additional funding to
employee bonus awards, early in the fiscal year. These were in                avoid FAA furloughs
                                                                                                                                                                           MANAGE MENT’S DI SCUSSI ON
addition to ongoing spending restrictions on items such as travel,            during this time period.
training, IT, conferences, office supplies, and contracts. When the           The final FY 2014 funding
sequestration became effective on March 1, the FAA initiated severe           level, however, remains
                                                                                                                                                                                a n d ANALYSI S




hiring restrictions.                                                          uncertain. And for as long
                                                                              as the sequestration law
Given the large percentage of the operations budget devoted to
                                                                              remains in effect, the FAA
payroll, however, the FAA was also forced to implement across-
                                                                              will continue to face the
the-board employee furloughs, or unpaid time off. Controllers,
                                                                              prospect of reductions to
                                                                              aviation services.




                                                                      Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   13
                                                                               PROGRESS TODAY ENSURES A VIABLE
                                                                               FUTURE FOR AVIATION TOMORROW
                                                                               The Next Generation Air Transportation System, called NextGen—mandated
                                                                               by Congress in its 2003 reauthorization of the FAA—is in the midst of
                                                                               transforming our nation’s airspace system by increasing safety, saving time,
                                                                               and reducing fuel use and environmentally undesirable emissions, all while
                                                                               fostering the flow of commerce. Our latest estimates for the benefits to
                                                                               aviation efficiency indicate that by 2020, NextGen improvements will reduce
                                                                               current delays by 41 percent.

                                                                               The movement to NextGen is being enabled by a shift to smarter satellite-
                                                                               based and digital technologies and new procedures. NextGen is already
                                                                               being deployed and used today. Three main NextGen areas that have seen
                                                                               steady advances are infrastructure, controller decision support tools, and
                                                                               performance-based navigation.


     Infrastructure
     Automatic Dependent Surveillance—Broadcast                                                           (Next-Generation Radar), winds aloft, and pilot reports. FIS-B also
     (ADS-B)                                                                                              includes information on temporary flight restrictions and airspace
     Although NextGen is fundamentally satellite-based, its ADS-B                                         reserved for special use.
     program works with a network of ground-based stations. This fiscal
     year has seen a steady increase in deployment of these stations.                                     Data Communications (Data Comm)
     As of October 2013, the FAA had installed more than 578 ADS-B                                        Data Comm will add a digital data exchange capability to air-to-
     ground stations, of which 550 were operational. Ground stations                                      ground communications, enhancing safety by reducing potential
     help provide traffic and weather information both directly to aircraft                               errors in voice transmission. Controllers will still talk to pilots,
     equipped with ADS-B technology and to air traffic control separation                                 but the need to talk will be reduced by the ability to exchange
     services at 45 Terminal Radar Approach Control (TRACON) facilities                                   digital messages. With Data Comm, controllers will be able to
     and 11 en route facilities across the country.                                                       push a button and send routine information—such as clearances,
                                                                                                          instructions, and advisories—to many pilots at the same time.
     A great benefit of ADS-B then is that it can provide precise aircraft                                Flight crews will be able to transmit requests this way too. With
     location information not only to controllers, but directly to pilots’                                this capability, radio frequency congestion will be reduced and
     instrument panels. In the future, aircraft equipped with the now                                     controllers will safely be able to handle more traffic. Data Comm is
     optional ADS-B In reception capability—in addition to the currently                                  expected to reduce flight times by improving traffic flow.
     mandated ADS-B Out transmission capability—will be able to “see”
     the location of nearby ADS-B Out-equipped aircraft via air-to-air                                    Through active collaboration and agreements with multiple air
     reception or by relay from the ground. In addition, ADS-B In can                                     carriers, the FAA has already started field testing a major component
     display the location of aircraft equipped solely with transponders,                                  of Data Comm at Memphis International Airport and Newark Liberty
     even if they lack ADS-B Out technology, thus providing fully                                         International Airport.
     equipped pilots with awareness of all nearby aircraft.
                                                                                                          En Route Automation Modernization (ERAM)
     ADS-B In is also providing another service to equipped operators
                                                                                                          ERAM is the new automation platform for the centers which control
     in the airspace where it is operational: Flight Information
                                                                                                          high-altitude traffic, allowing faster processing of route requests
     System-Broadcast (FIS-B). The FIS-B data stream is packed with
                                                                                                          and in-flight route changes. ERAM deployment is nearly complete,
     information from the National Weather Service, including NEXRAD




14   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
with 17 of 20 sites having achieved initial operating
capability this year and the remaining three
                                                         Performance-Based Navigation (PBN)
expected to do so in early 2014. Eleven sites are        PBN is a NextGen framework for defining the performance requirements an aircraft
fully operational. All ERAM sites should reach this      must meet in order to use applicable air traffic routes, instrument procedures, or
status in FY 2015. Further software development          defined airspace. The two main components of the PBN framework are Area Navigation
will make ERAM a foundation for important                (RNAV) and Required Navigation Performance (RNP). RNP is RNAV with the addition of
NextGen capabilities, such as Data Comm and              an onboard performance monitoring and alerting capability, meaning that the crew is
Time-Based Flow Management (TBFM). TBFM will             informed if a required performance level is not met during an operation.
help optimize the flow of aircraft into capacity-
constrained areas, decrease delays by enhancing
                                                         Area Navigation Procedures with Authorization Required (RNP ARs) with
                                                         Defined Turn-to-Final
the predictability of airspace use, and improve fuel
                                                         Certain RNP operations require advanced features of the onboard navigation function
efficiency.
                                                         and approved training and crew procedures. These operations must receive approvals
                                                         that are characterized as Authorization Required (AR). As of March 2013, the FAA
Controller Decision Support Tools                        had published 359 RNP AR approaches across the national airspace system. Major
                                                         components of the authorized traffic patterns in the RNP AR include 229 Radius-to-Fix
Wake Recategorization (RECAT)                            (RF) turns, and 172 defined turns-to-final. Such advanced RNP procedures optimize
Since November 2012, controllers at the Memphis          terminal arrival operations, resulting in shorter flight times, an improvement that is being
International Airport air traffic control tower have     made today. The FAA is encouraging the use of such procedures whenever possible in
been using new wake-spacing criteria (called             order to achieve these benefits.
RECATs, short for recategorizations) to manage
separations between aircraft as they approach and        Optimized Profile Descents (OPDs)
depart from the airport. Wake turbulence is a trail      OPDs reduce fuel consumption and noise by maintaining a constant and optimal
of disrupted air that is left behind an aircraft and     descent angle during landing (instead of the traditional “step-down” and “level off”
that can be dangerous to aircraft that follow. The       descent pattern). The key benefit of OPDs is flight efficiency, but they can also deconflict
strength of this turbulence is primarily determined      terminal air traffic and improve safety. The FAA is including OPDs as part of PBN arrival
by the weight, wingspan, and speed of the aircraft.      procedures whenever possible.
In order to address this phenomenon, the FAA has
developed wake categories to safely manage the           By August 2013, the FAA had published 69 PBN arrival procedures with OPDs. Benefits
separation between different sizes of aircraft.          vary from one location to another, depending on such factors as proximity of other
                                                         airports, terrain, airspace restrictions, and typical weather conditions,
Compared to the traditional wake categories, the
RECATs being used in Memphis provide for more            At Reagan National and Dulles International airports, for instance, the new procedures
consistency among similar-sized aircraft. As a           provide shorter routes for arrivals from the west and facilitate more efficient vertical
result, separation standards between successive          arrivals. A vertical arrival is one that is continuous from the beginning of the descent to
aircraft can now be safely reduced for many of           touchdown, without any leveling-off segments, and with aircraft engines set to nearly
the same aircraft-pair combinations. Aircraft flight     idle throttle. Vertical profiles also help keep arriving aircraft at a safe distance from each
sequences at Memphis are now tighter—arrivals            other, resulting in fewer aircraft interactions.
are about 7.5 percent and departures 5 percent           At Memphis International Airport, OPDs, together with the new RECAT wake- spacing
closer to each other on average. Consequently,           criteria, improved terminal flows and yielded more than a 50 percent reduction in                                 MANAGE MENT’S DI SCUSSI ON
aircraft flows are more efficient, resulting in flight   airborne holding time.
reduction times of almost a minute for arrivals and
                                                                                                                                                                                a n d ANALYSI S




of 2.8 minutes for departures.                           At Denver International, one airline estimates saving 100-200 pounds of fuel on each
                                                         arrival. With an average of 120 flights per day, that equates to an estimated annual
One Memphis air carrier is reporting significant         reduction of 4.4 – 8.8 million pounds of fuel and 13.8 – 27.6 million pounds of carbon
capacity increases since the reduced separation          dioxide emissions.
standards have been in place, adding nine flight
operations per hour, an increase of 17 percent.          The FAA updates the NextGen Implementation Plan annually. The plan provides a
                                                         comprehensive overview of implementation activities and benefits.

For more information on these and other NextGen achievements, see http://www.faa.gov/nextgen.



                                                                      Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   15
     THE YEAR IN HIGHLIGHTS
     The FAA Serves the Flying Public                                                                The FAA Provides:
     by Operating a System that:
                                                                                                     ÊÊ
                                                                                                      A workforce of more than 46,000 personnel who operate,
     ÊÊ
      Operates 24 hours a day, 7 days a week, 365 days a year.                                            maintain, oversee, and support the most complex aerospace
     ÊÊ
      Provides more than 65,000 facilities with related equipment.                                        system in the world.

     ÊÊ
      Maintains FAA-operated or FAA-contracted towers at more                                        ÊÊ
                                                                                                      An array of services and programs within an annual budget
          than 500 airports.                                                                              of approximately $15.3 billion.

     ÊÊ
      Inspects and certifies approximately 228,000 aircraft and                                      ÊÊ
                                                                                                      Almost 14,500 controllers who manage and ensure ever-
          608,000 pilots.                                                                                 increasing levels of safety in the busiest air traffic system in
                                                                                                          the world.
     ÊÊ
      Facilitates more than 5,700 takeoffs and landings per hour.
                                                                                                     ÊÊ
                                                                                                      Almost 6,000 system specialists who maintain the
     ÊÊ
      Transports more than 736 million passengers annually.                                               equipment in the national airspace system to extremely high
     ÊÊ
      Safely guides approximately 25 million flights every year.                                          levels of operability.
     ÊÊ
      Generates more than 10 million jobs, with earnings of $394                                     ÊÊ
                                                                                                      Research to improve aviation safety and efficiency.
          billion.                                                                                   ÊÊ
                                                                                                      Grants to improve up to 3,330 eligible public-use airports in
     ÊÊ
      Contributes $1.3 trillion annually to the national economy                                          the United States.
          and constitutes 5.2 percent of the gross domestic product.                                 ÊÊ
                                                                                                      Protection of the public, property, and the national security
                                                                                                          and foreign policy interests of the United States during
                                                                                                          commercial space launch and reentry activities.




16   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
MAJOR ACCOMPLISHMENTS
In FY 2013, as the FAA celebrated its 55th year, the agency                 Automatic Dependent Surveillance-
continued to meet its most important goal—safety—and                        Broadcast (ADS-B)
achieved one of the safest years in aviation history. With                  ADS-B is a system for air traffic surveillance that brings the
more than 70,000 flights on any given day, the agency ensured               added precision and reliability of satellite-based surveillance
that more than 736 million passengers safely reached their                  to the nation’s skies. With ADS-B, each aircraft broadcasts its
destinations over the course of the year. This year also saw other          identification, position, altitude, velocity, and other information.
major accomplishments, particularly in the area of NextGen, with            Aircraft that broadcast this information are considered to be
its wealth of technological improvements.                                   equipped with “ADS-B Out.” Radio stations on the ground receive
                                                                            this information and relay it to automation system displays at
                                                                            FAA facilities. The use of this data by controllers will allow
NEXTGEN                                                                     improved separation services, along with other applications such
NextGen provides a comprehensive overhaul of the nation’s                   as continuous descent approaches.
airspace to make air travel more convenient and dependable,
while ensuring that flight is as safe, efficient, and environmentally-      The same radio stations on the ground also process traffic and
friendly as possible. Our agency remains committed to                       weather information and broadcast it to displays in the cockpit.
implementing NextGen’s 21st century aviation system, which                  Aircraft that can receive and display this information are “ADS-B
includes integrating satellite-based and digital technologies               In”-equipped. The use of ADS-B information in the cockpit will
largely unheard of not long ago.                                            allow for better situational awareness and traffic avoidance
                                                                            along with future applications.
As demand for our nation’s increasingly congested airspace
continues to grow, NextGen improvements are enabling the FAA                Current ADS-B technology significantly improves controllers’
to guide and track aircraft more precisely on more direct routes.           situational awareness by allowing them to “see” aircraft data
NextGen efficiency reduces delays, saves fuel, and reduces                  with satellite-based precision, a precision that radar-based
aircraft exhaust emissions. NextGen is also vital to preserving             technology cannot provide. The displays update in real time and
aviation’s significant contributions to our national economy.               do not degrade with distance or terrain. Pilots will be able to
                                                                            fly more direct routes between point A and point B by means of
While the agency has had to shift some of its priorities and                new procedures, such as enhanced merging and tighter aircraft
alter some of its NextGen deployment timeframes, we remain                  spacing, and they can fly at more fuel-efficient altitudes. The
committed to delivering the NextGen capabilities outlined over              system also gives pilots in equipped aircraft direct access right
the past several years.                                                     on their flight decks to weather and flight information.

Just as important as proper funding is effective collaboration.             ADS-B technology is crucial to turning the NextGen vision into
Industry, government, and labor, working in concert, will enable            a reality. After years of research, development, and operational
us to deliver the NextGen transformation of our airspace and                use by General Aviation (GA) pilots in Alaska and air transport
realize maximum benefits for everyone.                                      carriers in the Ohio River Valley, the FAA determined in 2005 that
                                                                            ADS-B was ready to be implemented throughout the national
To see the impact of today’s NextGen improvements, please                   airspace system. The gains in safety, capacity, and efficiency as                            MANAGE MENT’S DI SCUSSI ON
visit the NextGen Performance Snapshots website (www.faa.                   a result of moving from a radar-based system to a satellite-based
gov/nextgen/snapshots), which tracks NextGen performance                    system will enable the FAA to meet the expected growth in air
                                                                                                                                                                              a n d ANALYSI S




metrics and highlights success stories.                                     traffic predicted for coming decades. Because ADS-B is flexible
                                                                            and expandable, it can change and grow with the evolving
                                                                            aviation system.

                                                                            As of FY 2013, 550 ADS-B ground radios have been deployed
                                                                            throughout the United States and the program is on track to




                                                                    Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   17
     complete deployment of 642 ADS-B ground radio stations                                          gains. PBN helps reduce fuel burn and emissions through more
     in FY 2014. As more aircraft equip with ADS-B receivers, we will                                continuous climbs and descents that eliminate the need for
     be able to realize its benefits more fully throughout the national                              gradually “stepping up” to ascend or gradually “stepping down”
     airspace system.                                                                                to descend. The FAA is supporting the use of PBN to provide
                                                                                                     greater flexibility in the management of air traffic. This year, the
                                                                                                     FAA produced 677 PBN routes and procedures.
     Performance-Based Navigation (PBN)
     Another cornerstone of NextGen is PBN. It allows for navigation                                 In May 2013, we launched the PBN Dashboard at www.faa.
     routes and procedures that use the satellite-based global                                       gov/nextgen/pbn/dashboard. The website provides PBN
     positioning system (GPS) to determine and share precise aircraft                                implementation and usage statistics for all major airports in
     location information.                                                                           the national airspace system that have had PBN procedures
                                                                                                     published for them. The data is captured on a periodic basis and
     PBN routes and instrument procedures enable aircraft to fly
                                                                                                     displayed in an easy-to-interpret format for interested parties.
     more direct routes, thereby increasing efficiency and capacity




      UNMANNED AIRCRAFT: A NEW FAA FRONTIER
      NextGen transformations are not the only major innovation in the                               in humanitarian search and rescue operations, such as finding
      offing at the FAA. In the FAA Modernization and Reform Act of                                  stranded climbers or a missing child.
      2012 (FMRA), Congress directed the agency to integrate Unmanned
                                                                                                     In February 2013, in accordance with the requirements of FMRA, the
      Aircraft Systems (UAS) into the evolving national airspace safely and
                                                                                                     FAA kicked off a process to select six test sites to conduct research
      efficiently by 2015.
                                                                                                     and development to assist in the integration of UAS into the national
      UAS are unmanned vehicles that can be the size of toy aircraft and                             airspace system. To address public concerns about privacy related
      fly at low altitudes, or have the equivalent wingspan of a Boeing 737                          to the UAS test sites, the FAA held a public engagement session in
      and fly above 60,000 feet. For many UAS operations, an observer                                April to help determine the required privacy approach for the test
      on the ground or an accompanying manned “chase” aircraft is                                    sites. The final, approved privacy approach will be included in the
      required to maintain visual contact with the UAS vehicle at all times,                         contractual agreement between the FAA and test site operators. In
      providing the pilot-in-command who is controlling the UAS with                                 addition, the agency is consulting with other government agencies
     “sense and avoid” capabilities in relation to other aircraft.                                   about the privacy policies that will shape UAS implementation more
                                                                                                     broadly beyond UAS test sites.
      UAS have been deployed mainly for “public interest” military and
      border patrol purposes since 1990. But in July 2013, for the first time,                      (Editorial note: On November 7, 2013, the FAA published the UAS
      the FAA certified two small UAS for commercial use.                                           Roadmap, Comprehensive Plan, and Final Privacy Policy for the UAS
                                                                                                    Test Sites. All three may be found at http://www.faa.gov/about/
     These initial commercial UAS operations in Arctic locations will be                            initiatives/uas/.)
     cost effective and environmentally friendly, and because of the lack
     of dense air traffic, they will reduce the risk to manned aviation. The
     Scan Eagle, manufactured by Boeing subsidiary Insitu, will survey
     ocean ice floes and migrating whales in Arctic oil exploration areas.
     AeroVironment’s PUMA will support emergency response crews in
     oil-spill monitoring and wildlife surveillance over the Beaufort Sea.

      UAS are less expensive to operate than manned aircraft and may
      be used for a wide variety of purposes, including monitoring natural
      disasters, such as forest fires; tracking dangerous weather patterns,
      such as hurricanes; conducting crop monitoring; performing scientific
      research for National Aeronautics and Space Administration (NASA)
      and National Oceanic and Atmospheric Administration (NOAA), as
      well as for universities; supporting law enforcement; and assisting                            NASA’s Global Hawk UAS aircraft flies above the equatorial Pacific, collecting
                                                                                                     data that will help researchers identify how changes in humidity in the upper
                                                                                                     atmosphere may affect climate. Photo: NASA, March 2013.




18   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
Optimized Profile Descents (OPDs)                                         Equivalent Lateral Spacing Operations
During the past six years, we have completed 59 Standard                  (ELSO)
Terminal Arrival Routes with Optimized Profile Descent (OPD)              Another NextGen area in which progress is being made is in the
capability. OPD allows pilots to set aircraft engines at near idle        greater use of equivalent lateral spacing operations, or ELSO. The
throttle while they descend. Traditional arrival procedures involve       enhanced precision of NextGen navigation means that aircraft
multiple segments of flight at different levels during descent,           can safely access runways that are slightly closer together. This
and each “step-down” requires a change in power settings, like            tighter use of space has been used in Atlanta, resulting in an
walking down the stairs. It is the aviation equivalent of stop-           increase of 8 to 12 departures per hour. We estimate that this
and-go driving along the highway. The OPD procedures enable               saved customers 700,000 minutes, the equivalent of 1.3 years,
arriving aircraft to descend from cruise altitude to final approach       of waiting in line for take-off in Atlanta last year. ELSO is better
with few, if any, level-offs; it is like sliding down the bannister.      for the environment too, because aircraft spend less time waiting
With OPD, aircraft reduce fuel consumption, emissions, and                on the ground with their engines running. As a result, less fuel is
noise.                                                                    burned and pollution is decreased.

                                                                          We want other major airports to be able to use ELSO, so we
The Benefits of the Wide-Area                                             are changing our air traffic control handbook, which sets the
Augmentation System (WAAS)                                                standards that controllers use to ensure safe separation between
GPS signals must be enhanced or augmented before they can                 aircraft. Since this change has saved airlines approximately $20
meet the FAA’s stringent requirements for accuracy, integrity, and        million per year at Atlanta, it could bring large savings when
availability for navigation. The Wide-Area Augmentation System            used across the nation.
(WAAS) corrects for GPS signal errors caused by atmospheric
disturbances, clock drift, and errors in satellite orbit. It also
provides vital information about the health of each GPS satellite.        OTHER MAJOR ACCOMPLISHMENTS
The system consists of multiple ground reference stations
positioned across the United States that monitor GPS satellite            Partnership with Industry, Labor Unions,
data and three geostationary satellites that broadcast correction         and National Transportation Safety Board
signals to aircraft.                                                      (NTSB) to Help Prevent Accidents
                                                                          This year, the FAA, the airlines, and the aviation labor unions
In the general aviation (GA) community, tens of thousands of
                                                                          announced a partnership with the NTSB to share summarized
aircraft are already equipped with WAAS receivers, which can
                                                                          safety information in order to help prevent accidents. This would
improve GPS signal accuracy to within three feet laterally and
                                                                          include summarized safety data from accidents and incidents,
six feet vertically. Pilots of WAAS-equipped GA aircraft are the
                                                                          including that from the Asiana accident in July.
primary users of Localizer Performance with Vertical Guidance
(LPV) and Localizer Performance (LP) approach procedures. LPV
and LP procedures enable pilots to descend to heights as low as
200 feet in low visibility before having to see the runway to land.

The FAA must develop new approach procedures for each
airport to take advantage of WAAS. By September 2013, the
FAA had published 3,822 WAAS-enabled LPV and LP procedures                                                                                                             MANAGE MENT’S DI SCUSSI ON
at more than 1,800 airports. The agency plans to provide for as
many as 5,218 LPV and LP facilitated runways in the national
                                                                                                                                                                            a n d ANALYSI S




airspace system by 2018. The latest information can be found
on FAA’s Satellite Navigation Program website: www.faa.gov/
about/office_org/headquarters_offices/ato/service_units/
techops/navservices/gnss/approaches/index.cfm.



                                                                          Data collection and control room at the National Airport Pavement Test
                                                                          Facility, located at the FAA’s William J. Hughes Technical Center. Photo: FAA.


                                                                  Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   19
     The nation’s impressive safety record is in part due to an                                      (ASIAS) Executive Board, will help determine if an accident is a
     unwavering commitment by government and industry to work                                        unique event or an indication of systemic risks.
     together to monitor data and identify trends to prevent accidents.
     More than 90 percent of air carriers use voluntary reporting                                    ASIAS uses aggregate, protected data from industry and
     programs to report trend data. The data are shared with the FAA                                 government voluntary reporting programs, without identifying
     to help identify trends. This data-sharing has led to significant                               the source of the data, to proactively find safety issues,
     safety improvements in training, operations, and maintenance.                                   identify safety enhancements, and measure the effectiveness
                                                                                                     of solutions. Begun in 2007, ASIAS now has 44 members and
     The information, which will now be shared with the NTSB                                         receives voluntary data representing 95 percent of all commercial
     through the Aviation Safety Information Analysis and Sharing                                    air carrier operations. It connects 131 data and information




     IMPROVING THE SAFETY OF GENERAL AVIATION
     General Aviation (GA) refers to flights not conducted by the regularly                               phases of flight, including precision approaches to airports.
     scheduled airlines or the military. GA aircraft include gliders,                                     GPS signal errors are caused by such things as atmospheric
     helicopters, air taxis, and small, privately-owned planes, as well                                   disturbances, clock drift, and errors in satellite orbit. Tens of
     as high-performance business jets. GA aircraft also provide aerial                                   thousands of GA aircraft are already equipped with WAAS
     firefighting, disaster relief, aeromedical rescue, law enforcement,                                  receivers.
     rush-hour traffic monitoring, and access to remote communities.                                •	 Localizer Performance with Vertical Guidance (LPV). LPV
     Most of the world’s air traffic is GA traffic, including in the United                            approach procedures enable pilots of WAAS-equipped aircraft to
     States, where some 3,700 airports are used primarily by GA aircraft,                              descend to as low as 200 feet in poor weather before having to
     while scheduled commercial flights operate from approximately                                     see the runway. The availability of LPVs has improved safety and
     378 primary airports. GA activities and products are vital to the                                 access at more than 1,500 small and medium-sized airports used
     U.S. economy. They generate more than one percent of our gross                                    by GA.
     domestic product and account for some 1.3 million professional                                 •	 Automatic Dependent Surveillance-Broadcast (ADS-B).
     services and manufacturing jobs. General aviation is also a principal                             ADS-B enhances safety by making an aircraft’s position visible,
     training ground for commercial airline pilots.                                                    in real time, to air traffic controllers and to other appropriately
                                                                                                       equipped ADS-B aircraft. The ADS-B Traffic Advisory System
     Five-Year Safety Plan for GA                                                                      (ATAS) is being developed for the GA community, to provide traffic
     Because the fatal accident rate has been slow to improve,                                         situational awareness for small aircraft to use while en route and
     the FAA has undertaken a five-year plan to improve GA                                             when landing at small airports.
     safety. Recommendations are forthcoming on improving the
     aeronautical training and testing materials used for GA pilot
     and instructor certification. And in July, recommendations came
     out for streamlining the GA aircraft certification process, so that
     manufacturers can incorporate safety improvements in new planes
     more easily and inexpensively. The recommendations will also
     facilitate upgrades to the existing GA fleet and provide greater
     flexibility to incorporate future technological advances.

     GA and NextGen
     NextGen, which transitions the national airspace to satellite-based
     navigation, offers technology and procedures especially conducive
     to GA safety:
     •	 Wide-Area Augmentation System (WAAS). WAAS improves
        the accuracy, integrity, and availability of Global Positioning
        System (GPS) signals, enabling aircraft to rely on GPS for all
                                                                                                     Small business aircraft at an airport. Photo: FAA.




20   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
sources across the industry and is integrated into the Commercial              The Department of Transportation (DOT) requires that U.S.
Aviation Safety Team (CAST) process, which uses a data-driven                  airlines and foreign air carriers flying into the U.S. allow
strategy to reduce the commercial aviation fatality risk in the                passengers to use portable oxygen concentrators approved
United States and promote safety initiatives throughout the                    by the FAA during all phases of a flight if the unit displays a
world. CAST’s work, along with new aircraft, regulations, and                  manufacturer’s label that indicates it meets FAA requirements
other activities, reduced the fatality risk for commercial aviation            for portable medical electronic devices. Moreover, the DOT
in our country by 83 percent from 1998 to 2008.                                strongly encourages airlines to voluntarily allow the in-flight
                                                                               use of oxygen concentrators even if they are not labeled as
Seven of CAST’s 76 safety enhancements have been derived                       FAA-approved because they pose no safety danger.
from forward-looking data analysis in ASIAS. Additionally,
ASIAS stays connected to CAST’s safety enhancements to track                   Passengers must ensure that the unit is in good working order
the effectiveness of those interventions. The databases used                   and must be able to respond to the unit’s warning alarms. They
to identify trends include Flight Operations Quality Assurance                 must protect extra batteries in carry-on baggage from short
(FOQA) programs, the Aviation Safety Action Partnership (ASAP),                circuits and physical damage. The unit must be properly stowed
the Air Traffic Safety Action Program (ATSAP), FAA surveillance                when not in use. Carriers also must allow passengers to operate
data, and many others.                                                         these FAA-approved concentrators while moving about the cabin
                                                                               whenever the captain turns off the “Fasten Seat Belt” sign.
The agreement outlines the procedures, guidelines, and roles
and responsibilities to be used by the ASIAS Executive Board to
address specific written NTSB requests for ASIAS information.                  Alternative Aviation Fuels Partnership
The agreement does not allow any of the parties to use aggregate               with Spain
FOQA, ASAP, ATSAP or other non-publicly available data to                      While we maintain the largest airspace in the world, we cannot
measure individual performance or safety.                                      be fully successful without working hand-in-hand with our
                                                                               foreign counterparts. The growth in international traffic makes
The NTSB will initiate written requests for ASIAS information                  ongoing collaboration with our foreign partners essential. Our
related to aircraft accidents involving U.S. air carriers that occur           agency continues to work closely with other countries and
in the U.S. and address safety issues that both the NTSB and                   regions as we all develop new technologies, share ideas, and
the ASIAS board determine are significant and non-routine                      harmonize programs.
or reoccurring. The NTSB will not publicly disclose ASIAS
information it receives via the process unless the ASIAS                       In February of 2013, the FAA and the Spanish Aviation
Executive Board agrees.                                                        Safety and Security Agency (AESA) signed a Declaration
                                                                               of Cooperation to promote the development and use of
The NTSB will share with ASIAS its archived air carrier accident               sustainable alternative aviation fuels in the U.S. and Spain.
and incident flight data recorder information related to a request.
                                                                               The declaration calls for the United States and Spain to
                                                                               exchange ideas, information, skills, and techniques, and to
Approval of Additional Oxygen Concentrator
                                                                               collaborate on problems and projects of mutual interest in the
Models
                                                                               development and use of sustainable alternative aviation fuels.
Early in the fiscal year, the FAA approved seven additional                    The specific areas of cooperation include exchanging information
portable oxygen concentrator models for use aboard airplanes,                  about research results, publications, funded research, and
bringing the total number of approved units to 21. This is good                                                                                                             MANAGE MENT’S DI SCUSSI ON
                                                                               development activities. The parties will also share best practices
news for passengers who may need to use medical oxygen.                        in alternative jet fuel conversion research, development, and
                                                                                                                                                                                 a n d ANALYSI S




Portable oxygen concentrators are small, portable devices that                 deployment. The declaration also enables the FAA’s Office of
separate oxygen from nitrogen and other gases in the air and                   Environment and Energy and the AESA to conduct research
provide oxygen to users at greater than 90 percent concentration.              leading to reductions in the cost of producing alternative
                                                                               aviation fuels.
They do not use compressed or liquid oxygen, which the
government classifies as hazardous materials.




                                                                       Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   21
     PERFORMANCE HIGHLIGHTS
     Although we take pride in our accomplishments to date on                                        (i.e., reasonable expectations for progress), and what else (i.e.,
     various fronts, we remain vigilant in scrutinizing our performance.                             alternative approaches) the FAA could implement to achieve
                                                                                                     its stated objectives. One of the basic objectives of the budget
     At the FAA, we are charged with promoting the safety and                                        formulation process is to ensure that decision-makers have
     efficiency of the nation’s aviation system. We maintain the                                     the information they need to determine how best to allocate
     system’s integrity and reliability through our broad authority to                               resources to achieve goals.
     enforce safety regulations and conduct oversight of the civil
     aviation industry. Our strategic plans, annual business plans,                                  Our complete FY 2013 Congressional Justification can be found
     human capital plans, program evaluations, annual PARs, and                                      at: http://www.dot.gov/sites/dot.dev/files/docs/faa_%20
     constant reevaluation of our efforts create a recurring cycle of                                fy_%202013_budget_estimate.pdf. The FAA also has a section
     planning, program execution, measurement, verification, and                                     in the DOT- prepared Budget Highlights Fiscal Year 2013. This
     reporting. We have created a strong link between resources and                                  document can be found at: http://www.dot.gov/sites/dot.
     performance that focuses us on accomplishing defined priorities                                 dev/files/docs/dot_budget_highlights_fy_2013_5MB.pdf.
     in the context of their costs.                                                                  In addition, our strategic plan and FY 2013 business plans for
                                                                                                     all FAA organizations are available at www.faa.gov/about/
                                                                                                     plans_reports.
     MANAGING PERFORMANCE
     We manage organizational performance through a four-step                                        Monitor Work
     process that is based on best practices borrowed from several                                   Monitoring occurs in the course of the various performance
     private and public-sector organizations:                                                        management activities in which our executives and employees
      ¢¢   Set Goals                                                                                 participate each month.
      ¢¢   Plan, Work, and Budget                                                                    The agency’s overall governance model was revised this year to
      ¢¢   Monitor Work                                                                              streamline decision-making at the executive level. The revised
                                                                                                     model includes two new groups—an Executive Council and a
      ¢¢   Assess Results
                                                                                                     Business Council.
     Each year we improve on this strategy through adaptation and
                                                                                                     The Executive Council, headed by the Administrator and including
     enhancements of technologies that support the process.
                                                                                                     a select number of FAA executives, is charged with making major
                                                                                                     strategic externally-facing decisions. The Business Council,
     Set Goals                                                                                       headed by the Deputy Administrator and including the leaders
     The first step in the performance management process includes                                   of all FAA organizations, is charged with making major internal
     consulting with management, employees, and stakeholders to                                      decisions. Both councils are chartered and follow a formal
     identify areas to target for improvement. These areas include                                   decision-making process, which includes:
     near-term priorities and long-standing management challenges.                                    ¢¢   Identifying council decisions
     Goals, performance measures, targets, and initiatives are laid out
     in our strategic plan.
                                                                                                      ¢¢   Developing options and alternatives
                                                                                                      ¢¢   Debating and making decisions

     Plan, Work, and Budget                                                                           ¢¢   Communicating and monitoring execution.
     The second step in evaluating our performance focuses on
                                                                                                     The new councils were established to: create a more transparent
     planning, which begins with reviewing the critical activities and
                                                                                                     decision-making process, one with clear roles; clarify decisions
     resources required to achieve our goals. Budget formulation
                                                                                                     across the FAA; clearly communicate decisions by means of
     involves a series of steps that the FAA takes to determine
                                                                                                     decision memos; and retire the previous governance structure,
     where a program or activity stands at present, where it is going
                                                                                                     which included the former Strategy, Budget and Performance




22   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
(SBP) Committee and the Governance Roundtable. The Joint                       Assess Results
Resources Council and NextGen Management Board will                            This is the final, but critically important step in the performance
continue to operate.                                                           management process. Using performance information, the
                                                                               agency looks for ways to learn from past performance and
However, the Performance Subcommittee from the former
                                                                               improve outcomes.
SBP continues to meet monthly to review goals and related
performance targets so as to identify areas in special need                    Performance measures and targets support our mission to provide
of management’s attention. These sessions also result in                       the American public with a safe and efficient global aviation
decisions about resource allocation to support priorities. The                 system. The table on page 27 summarizes how well we are doing
subcommittee will continue to meet and provide information and                 year-to-year in achieving our performance goals. As the table
recommendations to the Business Council until a new structure is               indicates, we have streamlined our strategic focus over the past
established for this purpose.



COMMERCIAL SPACE TRANSPORTATION: A BOOMING MARKET
Just three licensed or permitted commercial space launches took                •	 Transporting Space Tourists
place in all of FY 2012. In FY 2013, that number climbed to 18                    Virgin Galactic will take space tourists on suborbital flights with
licensed or permitted launches. Some of the ongoing activities                    SpaceShipTwo, which began conducting powered test flights
include:                                                                          in 2013. Departures from Spaceport America in New Mexico
                                                                                  may occur as soon as 2014, with more than 600 advance tickets
•	 Transporting Supplies to the International Space Station
                                                                                  already sold. During what will probably be about a two-hour flight
   (ISS)
                                                                                  offered by Virgin Galactic and other companies, tourists will fly
   In October 2012, Space Exploration Technologies (SpaceX), using
                                                                                  62 miles up, experience weightlessness, and enjoy breathtaking
   its Dragon spacecraft, made history as the first private company
                                                                                  views of the earth.
   to bring supplies to the ISS. The mission followed SpaceX’s
   successful ISS resupply “demonstration” in FY 2012. Also in                 All commercial space launches are regulated and licensed by
   FY 2013, again with NASA support, Orbital Sciences became the               the FAA’s Office of Commercial Space Transportation (AST). The
   second company to demonstrate an ISS cargo resupply capability.             significant increase in demand for such missions occurs at a time
   Having multiple companies capable of flying these missions will             when sequestration limits AST’s ability to process applications for
   help keep pace with commercial space demand and provide                     new licenses and permits.
   flexibility in the event of a delay in one company’s program.
•	 Ferrying Crews to the ISS
   NASA is partnering with SpaceX, Boeing, and Sierra Nevada
   Corporation to develop vehicles to take astronauts to and from
   the ISS. Sierra Nevada’s Dream Chaser spacecraft passed
   several key tests in August 2013, including evaluation of its
   flight computer, guidance systems, navigation systems, landing
   gear, and nose skid capabilities. Developing a manned American
   transportation capability is critical because NASA currently pays
   the Russian space program $70 million per person per trip, twice
   a year, to ferry our astronauts to the ISS.
                                                                                                                                                                            MANAGE MENT’S DI SCUSSI ON
•	 Reusing Space Vehicles
   With the “Grasshopper,” SpaceX is now performing multiple tests
                                                                                                                                                                                 a n d ANALYSI S




   of its reusable take-off and landing design, bringing rocket stages
   directly back to the launch pad for repeat missions. Currently
   rocket pieces land in the ocean or burn up upon reentry. Reusable
   space vehicles will radically reduce the cost of commercial space
   travel.                                                                     SpaceX-2 Mission Launch: Space Exploration Technologies’ Falcon 9 rocket
                                                                               lifts off on March 1, 2013, carrying a Dragon capsule filled with cargo for
                                                                               the International Space Station. Photo: NASA.




                                                                       Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   23
     seven years. As our strategic management processes continue                                     all workplace measures and performance results for FY 2012, as
     to mature and the focus becomes sharper, the number and mix of                                  well as next steps, see page 54.
     performance targets will shift. This plan is reviewed on a yearly
     basis to ensure that we are on track to meet future challenges.                                 Delivering Aviation Access through Innovation. Our goal is
                                                                                                     to enhance the experience of the traveling public and other users
                                                                                                     by improving access to and increasing the capacity of the nation’s
     PERFORMANCE GOALS                                                                               aviation system. We will ensure that airport and airspace
                                                                                                     capacity are matched to public needs and are more efficient,
     When we began reporting against Destination 2025 goals in                                       predictable, and cost-effective.
     FY 2012, we streamlined and thereby reduced the number of
     performance measures supporting our strategic goals from                                        In FY 2013, we met one of three aviation access measures. For a
     31 to 14. These are the same measures we report on in the                                       more complete discussion of these measures and performance
     FY 2013 PAR. We also continue to track other detailed measures                                  results for FY 2013, as well as next steps, see page 57.
     internally. As part of our work monitoring, we report on the
     status of all measures in our monthly performance meetings and                                  Sustaining Our Future. Our goal is to develop and operate
     on our monthly performance scorecards.                                                          an aviation system that is a model of sustainability: reducing
                                                                                                     aviation’s environmental and energy impacts, yet not constraining
                                                                                                     growth. In FY 2013, we met one of our two environmental goals.
     Strategic Goals                                                                                 For a complete discussion of all sustainability measures and
     Our strategic goals are:                                                                        performance results for FY 2013, as well as next steps, see
      ¢¢   Next Level of Safety                                                                      page 62.

      ¢¢   Workplace of Choice                                                                       Improved Global Performance through Collaboration. Our
      ¢¢   Delivering Aviation Access through Innovation                                             goal is to achieve enhanced safety, efficiency, and sustainability
                                                                                                     of aviation world-wide. We aim to provide leadership in
      ¢¢   Sustaining Our Future
                                                                                                     collaborative standard-setting and help with the creation of a
      ¢¢   Improved Global Performance through Collaboration.                                        seamless global aviation system. In FY 2013, we met our one
                                                                                                     global performance goal. For a complete discussion of this global
     Next Level of Safety. Achieving the lowest possible accident                                    performance measure and performance result for FY 2013, as
     rate and always striving to improve safety ensure the highest                                   well as next steps, see page 66.
     possible level of safety for the public.

     In FY 2013, we met five of six safety goals, missing our target
     for General Aviation Fatal Accident Rate. For a more complete
     discussion of all safety measures and performance results for
     FY 2013, as well as next steps, see page 44.

     Workplace of Choice. FAA employees are our most valuable
     resource. We aim to create a workplace of choice marked
     by integrity, fairness, diversity, accountability, safety, and
     innovation. Our workforce will have the skills, abilities, and
     support systems needed to achieve and sustain NextGen.

     We operate the largest and safest aerospace system in the
     world. To do this efficiently, we must continually strive for
     stronger leadership, a better-trained and more safety-conscious
     workforce, and improved decision-making. We will not have the
     FY 2013 results for the two workplace of choice performance
     measures until early FY 2014. For a more detailed discussion of

                                                                                                     Aviation meteorologists studying weather patterns to provide
                                                                                                     information for planning safe and efficient flight routes. Photo: FAA.


24   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
PERFORMANCE AT A GLANCE
The following tables summarize our performance on our FY 2013 performance measures to date. The measures are listed in terms of the
strategic goals and objectives that appear in our strategic plan. The Performance Results section, beginning on page 42, contains full
discussions of the FAA’s FY 2013 performance and results for each of these measures.

 YEAR TO YEAR PERFORMANCE GOALS ACHIEVED
                                                         FY 2007        FY 2008         FY 2009           FY 2010        FY 2011          FY 2012        FY 2013
 Number of Performance Targets Met                       24 of 30       26 of 29        28 of 31          28 of 31       27 of 29         13 of 14        8 of 12

 Percentage of Performance Targets Met                    80%             90%             90%               90%              93%            93%            67%


The results of two of the fourteen FY 2013 targets are                      performance data, please visit: www.dot.gov/budget/
not yet available as of the date of publication. Therefore,                 dot-budget-and-performance. For archived performance
only targets with known results are reported. The FY 2013                   information, visit: www.dot.gov/mission/budget/
percentage is computed based on the twelve FY 2013 targets                  dot-annual-budget-and-performance-archive.
for which results are available. To view the full array of




                                                                                                                                                                         MANAGE MENT’S DI SCUSSI ON
                                                                                                                                                                              a n d ANALYSI S




Aircraft Rescue and Fire Fighting vehicle. Photo: FAA.




                                                                    Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   25
      STRATEGIC GOAL: NEXT LEVEL OF SAFETY
                                                                                                           FY 2013      FY 2013      FY 2013       FY 2014
      Performance Measure                                                                                   Target      Results      Status         Target
      STRATEGIC OBJECTIVE: No Accident-Related Fatalities on Commercial Service Aircraft in the U.S.
      Commercial Air Carrier Fatality Rate*                                                                  7.4             1.11      ✓             7.2
       In FY 2013, the commercial air carrier fatality rate will not exceed 7.4 fatalities per 100
       million people on board.
      STRATEGIC OBJECTIVE: Aviation Risk Is Reduced through All Phases of Flight (Gate-to-Gate)
      Serious Runway Incursions Rate*                                                                       0.395           0.2002     ✓            0.395
       Reduce Category A & B (most serious) runway incursions to a rate of no more than .395
       per million operations.
      System Risk Event Rate                                                                                 20             5.662      ✓              20
       Limit the rate of the most serious losses of standard separation to 20 or fewer for every
       thousand (.02) losses of standard separation within the National Airspace System.
      Information Security                                                                                    0               0        ✓              0
       Ensure no cyber security event significantly degrades or disables a mission-critical FAA
       system.
      General Aviation Fatal Accident Rate*                                                                 1.057           1.0613     ✘             1.05
       Reduce the general aviation fatal accident rate to no more than 1.057 fatal accidents per
       100,000 flight hours.

      STRATEGIC OBJECTIVE: There Are No Fatalities Resulting from Commercial Space Launches
      Commercial Space Launch Accidents                                                                       0               0        ✓              0
       No fatalities, serious injuries, or significant property damage to the uninvolved public
       during licensed or permitted space launch and reentry activities.



      STRATEGIC GOAL: WORKPLACE OF CHOICE
                                                                                                           FY 2013      FY 2013      FY 2013       FY 2014
      Performance Measure                                                                                   Target      Results4     Status         Target
      STRATEGIC OBJECTIVE: The FAA Is Widely Recognized as an Employer of Choice
      FAA Ratings                                                                                           75%             TBD       TBD            61%
      Top 75 percent rating on the Best Places to Work (BPTW) Index for Federal Agencies
      Subcomponents.
      Outside Ratings                                                                                        90%            TBD       TBD           90%
      Achieve a 90 percent success rate in the areas of financial management and human                     success                                success
      resources management.5                                                                                 rate                                   rate
      *This performance measure supports a DOT Agency Priority Goal.                                         ✓ Target met              ✘ Target not met
      1 Preliminary estimate until final result can be confirmed by NTSB in March 2015. We do not expect
        any change in the result to be significant enough to change the year-end status of achieving the
        target.
      2 Preliminary estimate until the final result becomes available in January 2014. We do not expect
        any change in the result to be significant enough to change the year-end status of achieving the
        target.
      3 Preliminary estimate until the final result becomes available in March 2015. We do not expect
        any change in the result to be significant enough to change the year-end status of achieving the
        target. This target was previously displayed rounded to two decimal places as 1.06. For clarity
        in demonstrating that the target was not achieved, it is now displayed rounded to three decimal
        places.
      4 Results are not available at this time.
      5 For an explanation of “success rate,” see page 56.




26   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
STRATEGIC GOAL: DELIVERING AVIATION ACCESS THROUGH INNOVATION
                                                                                                          FY 2013             FY 2013            FY 2013         FY 2014
Performance Measure                                                                                        Target             Results            Status           Target
STRATEGIC OBJECTIVE: NextGen Capabilities Are Fully Implemented and Utilized Based on U.S. Aviation Community System Needs
Air traffic control systems improve the efficiency of airspace*                                                11                 8                 ✘               N/A
 By September 30, 2013, replace a 40-year old computer system serving 20 air traffic
 control centers with a modern, automated system that tracks and displays information on
 high altitude planes.
Major System Investments                                                                                       90%              90%                 ✓               90%
 In FY 2013, maintain 90 percent of major system investments within 10 percent variance
 of current acquisition program baseline at completion.
STRATEGIC OBJECTIVE: Safety, Airport Infrastructure and Environmental Issues Are Advanced and Leveraged by Full Utilization of NextGen
                      Capabilities
LPV or LP Procedures                                                                                           500              469                 ✘               400
 Publish 500 LPV or LP procedures in FY 2013 to ensure Localizer Performance (LP) or
 Localizer Performance w/Vertical (LPV) procedures are available at 3,800 runways in the
 national airspace system.



STRATEGIC GOAL: SUSTAINING OUR FUTURE
                                                                                                          FY 2013            FY 2013             FY 2013         FY 2014
Performance Measure                                                                                        Target            Results             Status           Target
STRATEGIC OBJECTIVE: Community Noise Concerns Are Not a Significant Constraint on Growth
Noise Exposure                                                                                            371,000             321,000               ✓             356,000
 Reduce the number of people exposed to significant aircraft noise to less than 371,000 in
 calendar year 2013.
STRATEGIC OBJECTIVE: Improve the Energy Efficiency of the National Airspace System
National Airspace System Energy Efficiency                                                                -16.00%              -15.61               ✘            -18.00%
 Improve aviation fuel efficiency by 16 percent, as measured by the calendar year 2010
 fuel burned per revenue mile flown, relative to the calendar year 2000 baseline.



STRATEGIC GOAL: IMPROVED GLOBAL PERFORMANCE THROUGH COLLABORATION
                                                                                                          FY 2013            FY 2013             FY 2013         FY 2014
Performance Measure                                                                                        Target            Results6            Status           Target
STRATEGIC OBJECTIVE: Reduce Aviation Accidents and Fatalities World-wide
World-Wide Fatal Aviation Accidents                                                                            20                12                 ✓                21
 In FY 2013, limit world-wide fatal accidents in Part 121-like operations to no more than
 20 fatal accidents per million revenue aircraft departures.
*This performance measure supports a DOT Priority Goal.                                                        ✓ Target met                         ✘ Target not met              MANAGE MENT’S DI SCUSSI ON
6 Preliminary estimate until final result becomes available in July 2014 when the International
  Civil Aviation Organization (ICAO) updates their world-wide departure data. We do not expect
  any change in the result to be significant enough to change the year-end status of achieving
                                                                                                                                                                                       a n d ANALYSI S




  the target.




                                                                             Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   27
     THE FAA RESPONDS TO NATURAL DISASTERS
     Natural disasters made FY 2013 exceptionally challenging for both                               The Disaster Relief Appropriations Act of 2013, passed in January,
     the FAA and the American public. On October 29, 2012, Hurricane                                 provided the FAA with $28.5 million to complete work on the
     Sandy brutalized the Caribbean and the U.S. East Coast, killing some                            systems destroyed by the megastorm. The funding is being used
     159 people in the United States alone. New York and New Jersey                                  to decontaminate and repair or replace navigation, power, and
     were among the areas hardest hit. Streets, tunnels, and subway                                  communications systems, as well as manned and unmanned
     lines in and around New York City lay under water. The three airports                           structures and facilities.
     in the New York City metropolitan area were inundated. Then, on
                                                                                                     The teamwork demonstrated during these efforts garnered two
     May 19, 20, and 31, 2013, a mere seven months later, deadly
                                                                                                     awards for FAA personnel. The FAA’s Technical Operations group
     tornadoes devastated towns in Oklahoma. The heavy rains and high
                                                                                                     won both the New York City Federal Executive Board Award for
     winds accompanying the twisters also significantly damaged the
                                                                                                     Teamwork and the FAA Eastern Region Regional Administrator’s
     Mike Monroney Aeronautical Center (MMAC) in Oklahoma City. FAA
                                                                                                     Award for Team Excellence.
     personnel at the center repaired the damage to their own facility
     and turned out in force to help their neighbors.                                               Tornadoes in Oklahoma: People Pulled Together
                                                                                                     Over a 12-day period this past May, three monster tornadoes ravaged
     Hurricane Sandy in New York and New Jersey: Teamwork
                                                                                                     Oklahoma. The last of them, on May 31, also inflicted severe damage
     Saved the Day
                                                                                                     on the MMAC in Oklahoma City. The FAA facility provides consulting,
     The megastorm that hit the New York area on October 29, 2012,
                                                                                                     engineering, repair services, technical support, and training for air
     resulted in record flooding of runways at LaGuardia, John F. Kennedy,
                                                                                                     traffic control and aviation safety activities in the United States and
     and Newark airports. In addition, silt and salt water invasion of
                                                                                                     44 other countries.
     electrical equipment resulted in unparalleled damage to essential
     flight navigational aids, radio transmitters that make possible                                 The storm destroyed power at the facility, toppled a 70-foot-wide,
     communications between air traffic controllers and pilots, airport                              20-foot-high radar antenna onto one building, flooded an air traffic
     lighting, and airport surface pumping stations.                                                 building with nearly 100,000 gallons of water, and tore part of the
                                                                                                     roof off an air traffic training building. Of the 128 campus buildings,
     The hurricane caused passenger delays at airports all over the
                                                                                                     at least a quarter sustained water damage.
     country and around the world. But the grounding of planes not only
     affected passengers; it threatened the recovery. Airplanes were                                 The homes of more than 100 FAA employees were severely damaged
     needed for delivery of the tons of emergency replacement equipment                              or destroyed. One FAA employee survived the tornado that struck
     and the numerous emergency workers critical to the recovery effort.                             Moore, OK, by sheltering with others in a bank vault. The thick walls
     Although many had suffered damage to their own homes, teams of                                  of the vault just barely kept out the storm, but the bank building was
     FAA employees immediately transitioned to the task of assessing                                 demolished around them. Another FAA employee was among the 24
     and restoring the destroyed FAA equipment at the airports. The                                  identified men, women, and children killed in the tornado that laid
     mission of serving the flying public was paramount.                                             waste to Moore.
     When many of the parts needed for repair or replacement were                                    The disasters generated immense support from people living in
     unavailable, team members, working 14-hour shifts, used their                                   other states. An automation system support center manager at the
     engineering expertise, esprit de corps, and sheer creativity to                                 Dallas/Fort Worth Terminal Radar Approach Control facility who had
     rebuild or reconfigure the destroyed facilities and equipment. Three                            formerly served as an instructor at the FAA Academy on the MMAC
     days later, on the morning of November 1, 2012, all three airports                              campus used a week of her annual leave to join Team Rubicon, a
     reopened for business.                                                                          disaster recovery organization that traveled to Moore to provide
                                                                                                     assistance. In the words of one tornado survivor, the turnout showed
                                                                                                     that “Americans understand that people matter more than politics,
                                                                                                     economics, and many other things that we tend to argue about.”
                                                                                                     Many people working at the MMAC performed double duty, both
                                                                                                     responding to the crisis at their workplace and joining search and
                                                                                                     rescue missions in the surrounding neighborhoods. All in the space
                                                                                                     of a few days, for example, one FAA employee, a supervisory lead for
                                                                                                     the center’s AeroNav Products instrument flight procedures review
                                                                                                     team, joined search and rescue operations for a neighborhood hit
                                                                                                     hard by the first tornado, deployed to Moore as part of the Cleveland
                                                                                                     County Task Force after the second tornado, and managed recovery for
     293 mph winds toppled a long-range radar antenna onto a building at the
                                                                                                     the MMAC operations center after the third tornado.
     MMAC. Photo: FAA.




28   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
ALIGNMENT OF FAA COSTS AND GOALS
We use our Cost Accounting System to track and summarize our                    Workplace of Choice. Approximately $585 million supported
costs in a matrix format by organizational unit and project. This               our workplace of choice goal, to which nearly all the lines of
enables the FAA to monitor that our spending is in alignment                    business and staff offices contributed.
with our strategic goals. At the beginning of each project, we
determine the degree to which the project will contribute to one or             Delivering Aviation Access Through Innovation.
more of our strategic goal areas: Next Level of Safety, Workplace               Approximately $5.7 billion—or about 35 percent of total net
of Choice, Delivering Aviation Access through Innovation,                       costs—was assigned to support our goal of expanding the
Sustaining our Future, and Improved Global Performance through                  capacity of the national airspace system, particularly through the
Collaboration. We allocate actual project costs to the strategic                pursuit of programs contributing to the NextGen initiative.
goal areas supported by the project. Because we also routinely                    ¢¢   The ATO spent approximately $4.1 billion, largely to finance
accumulate costs by organizational unit, we are then able to                           its facilities and equipment projects.
assign total net costs among our four lines of business and our                   ¢¢   The ARP spent over $1.7 billion to enhance the capacity of
combined staff offices, by strategic goal area.                                        the country’s airports through runway projects and other
The FAA total net cost of $16.2 billion was allocated to our                           efforts.
strategic goal areas as described below and as shown in Note 11                   ¢¢   The AST contributed nearly $5 million to improve commercial
of the financial statements on page 102.                                               space launch capabilities through its spaceport grant
                                                                                       program.
Next Level of Safety. More than $9.9 billion, or approximately
60 percent, of our total net cost was devoted to our primary goal               Sustaining Our Future. As a whole, we committed
of ensuring the safety of the national airspace system.                         approximately $66.7 million to support environmental
 ¢¢   The Office of Airports (ARP) directed $1.9 billion to establish           sustainability. This funding included support for research
      safe airport infrastructure.                                              programs in alternative fuels and increases in aircraft energy
                                                                                efficiency. AIP grants were also targeted toward reducing
 ¢¢   The Air Traffic Organization (ATO) spent approximately $6.3
                                                                                aviation noise near large airports.
      billion, largely to maintain the safe separation of aircraft in
      the air and on the ground.                                                Improved Global Performance Through Collaboration.
 ¢¢   The Aviation Safety Organization (AVS) spent just under $1.4              As a whole, we committed approximately $3.5 million to
      billion on its programs to regulate and certify aircraft, pilots,         strengthening our international leadership role. These efforts
      and airlines, directly supporting the safety of commercial and            included programs aimed at reducing fatal accidents around
      general aviation.                                                         the world. Funding for training and technical assistance helped
 ¢¢   The Office of Commercial Space Transportation (AST), the other            promote safety standards as well.
      FAA staff offices, and other programs spent slightly less than
      $14 million to further support the agency’s safety mission.



                                                                                                                                                                             MANAGE MENT’S DI SCUSSI ON
                                                                                                                                                                                  a n d ANALYSI S




Passenger jets at the international terminal of the Miami International Airport. Photo: BigStock.com.




                                                                        Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   29
     FINANCIAL HIGHLIGHTS
     DISCUSSION AND ANALYSIS OF THE                                                                  monitor the implementation of audit recommendations. The
                                                                                                     committee is chaired by the Director of the Office of Financial
     FINANCIAL STATEMENTS                                                                            Management and includes representatives from the OIG; DOT’s
     FAA prepares annual financial statements in conformity with                                     Office of Financial Management; FAA’s Assistant Administrator
     accounting principles generally accepted in the United States.                                  for Regions and Center Operations; and ATO’s Chief Operating
     The financial statements are subject to an independent audit to                                 Officer. In 2006, committee participation was expanded to include
     ensure that they are free from material misstatement and that                                   representatives from the Chief Counsel’s Office, the Assistant
     they can be used to assess FAA performance.                                                     Administrator for Human Resources Management, Information
                                                                                                     Services, and Airports.
     FY 2013 Financial Statement Audit                                                               KPMG LLP has rendered an unmodified opinion on FAA’s FY 2013
     The Chief Financial Officers Act of 1990 (Public Law 101–576),                                  financial statements.
     as amended by the Government Management Reform Act
     of 1994, requires that financial statements be prepared by
     certain agencies and commercial-like activities of the federal
                                                                                                     Understanding the Financial Statements
     government and that the statements be audited in accordance                                     FAA’s Consolidated Balance Sheets, Statements of Net Cost,
     with government auditing standards. FAA is required to prepare                                  Changes in Net Position, and Combined Statements of Budgetary
     its own financial statements under OMB Bulletin No. 14–02,                                      Resources, have been prepared to report the financial position
     Audit Requirements for Federal Financial Statements. DOT’s                                      and results of operations of FAA, pursuant to the requirements
     Office of Inspector General (OIG) is statutorily responsible for                                of the Chief Financial Officers Act of 1990 and the Government
     the manner in which the audit of FAA’s financial statements                                     Management Reform Act of 1994. The following section provides
     is conducted. The OIG selected KPMG LLP, an independent                                         a brief description of (a) the nature of each financial statement
     certified public accounting firm, to audit FAA’s FY 2013 financial                              and its relevance to FAA, (b) significant fluctuations from FY 2012
     statements.                                                                                     to FY 2013, and (c) certain significant balances, where necessary,
                                                                                                     to help clarify their link to FAA operations.
     In 2002, DOT’s OIG and Chief Financial Officer, along with
     FAA’s Chief Financial Officer, established an Audit Coordination
                                                                                                     Balance Sheet
     Committee to promote and encourage open communication
                                                                                                     The balance sheet presents the amounts available for use by FAA
     among the OIG, FAA management, and the independent
                                                                                                     (assets) against the amounts owed (liabilities) and amounts that
     auditors to resolve issues that arise during the audit and to
                                                                                                     comprise the difference (net position).


                                Composition of Assets                                                                                Assets Comparison
                                 as of September 30, 2013                                                                            (Dollars in Thousands)



                                                                           10%                             Fund balance
                                                                                                           with Treasury


                   43%                                                                                      Investments
                                                                           44%

                                                                                                          Property, plant
                                                                                                          and equipment
                    3%
                                                                                                                   Other

                                                                                                          $ THOUSANDS       0    3,000,000   6,000,000   9,000,000 12,000,000 15,000,000
           n Fund Balance with Treasury           n Other
           n Investments                          n Property, plant and equipment                                           n 2013    n 2012




30   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
                      Composition of Liabilities                                                              Liabilities Comparison
                         as of September 30, 2013                                                               (Dollars in Thousands)



           22%                                          9%                         Employee related
                                                                                 and other liabilities
                                                                                   Federal employee
                                                        18%                                 benefits
                                                                                       Environmental
                                                                                            liabilities
           34%
                                                        17%                           Grants payable

                                                                                   Accounts payable

    n Accounts payable                 n Employee related and other               $ THOUSANDS             0          400,000         800,000     1,200,000   1,600,000
    n Grants payable                     liabilities
    n Environmental liabilities        n Federal employee benefits                                        n 2013       n 2012




Assets                                                                        assets, and capitalized real and personal property. There was
Total assets were $31.4 billion as of September 30, 2013. The                 a decrease of $21.8 million in the total composition of PP&E as
FAA’s assets are the resources available to pay liabilities or                purchases of equipment and additions to construction-in-progress
satisfy future service needs. The Composition of Assets chart                 through the normal course of business were less than the offsets
depicts major categories of assets as a percentage of total                   by retirements, disposals, and depreciation.
assets.
                                                                              Liabilities
The Assets Comparison chart presents comparisons of major
                                                                              As of September 30, 2013, FAA reported liabilities of $4.4
asset balances as of September 30, 2012 and 2013.
                                                                              billion. Liabilities are probable and measurable future outflows
Fund balance with Treasury (FBWT) represents 10 percent of the                of resources arising from past transactions or events. The
FAA’s current period assets and consists of funding available                 Composition of Liabilities chart depicts the FAA’s major
through the Department of Treasury accounts from which the                    categories of liabilities as a percentage of total liabilities.
FAA is authorized to make expenditures to pay liabilities. It also
                                                                              The Liabilities Comparison chart presents comparisons of major
includes passenger ticket and other excise taxes deposited to the
                                                                              liability balances between September 30, 2012 and September
Airport and Airway Trust Fund (AATF), but not yet invested. Fund
                                                                              30, 2013. Below is a discussion of the major categories.
balance with Treasury increased from $3.1 billion to $3.3 billion.
                                                                              At $1.5 billion, Employee related and other liabilities represent
At $13.8 billion, Investments represent 44 percent of the FAA’s
                                                                              34 percent of FAA’s total liabilities. These liabilities decreased by
current period assets, and are derived from passenger ticket and
                                                                              $64.1 million as of September 30, 2013 and are comprised mainly
other excise taxes deposited to the AATF and premiums collected
                                                                              of $175.2 million in advances received, $201.3 million in Federal
from the Aviation Insurance Program. These amounts are used to
                                                                              Employee’s Compensation Act payable, $452.2 million in accrued
finance the FAA’s operations to the extent authorized by Congress
                                                                              payroll and benefits, $526.6 million in accrued leave and benefits,
and to pay potential insurance claims. Investments increased by
                                                                              $2.7 million in legal claims liability and $78.0 million in capital
$1.5 billion due to an increase in excise tax revenues of $317.2
                                                                              lease liability.                                                                               MANAGE MENT’S DI SCUSSI ON
million, coupled with yearly War Risk premiums of $164.2 million,
and earned interest of $248.0 million. Additionally, investments              At $973.0 million, Federal employee benefits represent 22
                                                                                                                                                                                  a n d ANALYSI S




are not liquidated until needed to fund expenses which accounts               percent of the FAA’s current year liabilities, and consist of the
for the remaining increase on a comparative basis.                            FAA’s expected liability for death, disability, and medical costs
                                                                              for approved workers compensation cases, plus a component
At $13.4 billion, General property, plant, and equipment, net
                                                                              for incurred but not reported claims. The Department of Labor
(PP&E) represents 43 percent of the FAA’s assets as of September
                                                                              (DOL) calculates the liability for the DOT, and the DOT attributes
30, 2013, and primarily comprises construction-in-progress
                                                                              a proportionate amount to the FAA based upon actual workers’
related to the development of the national airspace system
                                                                              compensation payments to the FAA employees over the




                                                                      Federal Aviation Administration     |   Fiscal Year 2013   |   Performance and Accountability Report   31
                               Composition of Net Cost                                                                                 Net Cost Comparison
                                 as of September 30, 2013                                                                              (Dollars in Thousands)



                                                                                                                     Air Traffic
                        2%                                                                                         Organization

                                                                               67%                                      Airports
                       22%
                                                                                                                 Aviation Safety

                        9%                                                                                  Regions and Center
                                                                                                          Operations & All Other
               n Air Traffic Organization             n Airports                                          $ THOUSANDS              0    2,000,000 4,000,000 6,000,000 8,000,000 10,000,000 12,000,000
               n Aviation Safety                      n Regions and Center
                                                        Operations & All Other                                                     n 2013      n 2012




     preceding four years. This liability is updated on an annual basis                              net costs. The Air Traffic Organization’s net costs decreased by
     at year end.                                                                                    $292.2 million, on a comparative basis, primarily from decreases
     Environmental liabilities represent 17 percent of FAA’s total                                   in contractor services, labor costs, and travel expenses offset by
     liabilities and were $751.7 million as of September 30, 2013,                                   increases in property related activities, telecommunications and
     compared with $810.4 million a year earlier. Environmental                                      utilities costs.
     liabilities include a component for remediation of known                                        The FAA’s second largest line of business is Airports with a net
     contaminated sites and the estimated environmental cost to                                      cost of $3.6 billion as of September 30, 2013, which is 22 percent
     decommission assets presently in service.                                                       of the FAA’s total net costs. Net costs increased by $463.3 million
     The FAA’s Grants payable are estimated amounts incurred but                                     from the prior year primarily due to an increase in the Airport
     not yet claimed by Airport Improvement Program (AIP) grant                                      Improvement Program grant disbursements and accruals on a
     recipients and represent 18 percent of liabilities. Grants payable                              comparative basis.
     increased by $132.2 million. Accounts payable decreased $57.8                                   The net cost of Aviation Safety represents 9 percent of the FAA’s
     million and are amounts the FAA owes to other entities for                                      total net costs, while Regions and Center Operations and All
     unpaid goods and services.                                                                      Other comprise 2 percent of total net costs.

     Statement of Net Cost                                                                           Statement of Changes in Net Position
     The Statement of Net Cost presents the cost of operating the                                    The Statement of Changes in Net Position presents those
     FAA programs. The gross expense less any earned revenue for                                     accounting items that caused the net position section of the
     each FAA program represents the net cost of specific program                                    balance sheet to change from the beginning to the end of the
     operations. The FAA has used its cost accounting system to                                      reporting period. Various financing sources increase net position.
     prepare the annual Statement of Net Cost since FY 1999.                                         These financing sources include appropriations received and non-
     As of September 30, 2013, and September 30, 2012 FAA’s net                                      exchange revenue, such as excise taxes and imputed financing
     costs were $16.2 billion and $16.1 billion, respectively. The                                   from costs absorbed on the FAA’s behalf by other federal
     Composition of Net Cost chart illustrates the distribution of costs                             agencies. The agency’s net cost of operations and net transfers
     among the FAA’s lines of business.                                                              to other federal agencies serve to reduce net position.

     The Net Cost Comparison chart compares September 30, 2012,                                      The FAA’s Cumulative Results of Operations for the period ending
     and September 30, 2013 net costs.                                                               September 30, 2013, increased by $1.8 billion due primarily
                                                                                                     to a combination of financing sources of $4.4 billion from
     With a net cost of $10.9 billion, the Air Traffic Organization is                               appropriations used, non-exchange revenue of $13.1 billion,
     FAA’s largest line of business, comprising 67 percent of total                                  imputed financing of $571.0 million, and donations of property




32   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
         Statement of Budgetary Resources Comparison                                                               FAA Enacted Budget – FY 2013
                             (Dollars in Thousands)                                                                       (Dollars in Thousands)



                                                                                                  $3,343,300
         Budget
 authority, gross
                                                                                                   $158,792                                                     $9,395,665
     Obligations
       incurred
                                                                                                  $2,622,197
   Gross outlays


 $ THOUSANDS        0    5,000,000 10,000,000 15,000,000 20,000,000 25,000,000                  n Operations                               n Research, Engineering &
                                                                                                n Facilities & Equipment (F&E)               Development (R,E&D)
                    n 2013    n 2012                                                                                                       n Grants-in-Aid for Airports (AIP)




of $78.6 million offset by transfers out of $147.7 million and net                       last five years. These are disclosures of Airport Improvement
costs of $16.2 billion. Unexpended appropriations decreased                              Program grants by State/territory, and research and development
slightly by $106.6 million.                                                              investments. The FAA recognizes the grants expense as the
                                                                                         recipient accomplishes the improvement work.
Statement of Budgetary Resources                                                         The FAA’s research and development expenses decreased slightly
This statement provides information on the budgetary                                     in FY 2013 by $9.4 million. Two areas of focus this year included
resources available to the FAA as of September 30, 2013,                                 lithium battery testing for cargo aircraft to help ensure the safe
and September 30, 2012, and the status of those budgetary                                transport of lithium batteries in quantity and wind study research
resources.                                                                               using NextGen operational performance simulations to help
                                                                                         sync the reporting of accurate wind conditions in the NextGen
Budget authority, gross is the authority provided to the FAA by
                                                                                         operational environment.
law to enter into obligations that will result in outlays of federal
funds. Obligations incurred result from an order placed, contract
awarded, service received, or similar transaction, which will                            Limitations of the Financial Statements
require payments during the same or a future period. Obligations                         The FAA has prepared its financial statements to report its
incurred are sourced from current year budget authority and                              financial position and results of operations, pursuant to the
unobligated balances carried forward. Gross outlays reflect the                          requirements of the Chief Financial Officers Act of 1990 and the
actual cash disbursed by the Treasury for the FAA obligations.                           Government Management Reform Act of 1994.
The FAA reported gross budget authority of $21.2 billion as of
September 30, 2013, compared to $21.9 billion as of September                            While the FAA statements have been prepared from its books
30, 2012. Obligations incurred decreased $825.7 million to $21.4                         and records in accordance with the formats prescribed by the
billion. Gross outlays decreased by $284.9 million to $21.5 billion.                     OMB, the statements are in addition to the financial reports used
                                                                                         to monitor and control budgetary resources, which are prepared
                                                                                         from the same books and records.
Stewardship Investments                                                                                                                                                                MANAGE MENT’S DI SCUSSI ON
Stewardship investments are substantial investments made by                              These statements should be read with the understanding that
the FAA for the benefit of the nation, but do not result in physical
                                                                                                                                                                                            a n d ANALYSI S




                                                                                         they are for a component of the United States Government, a
ownership of assets by the FAA. When incurred, these amounts                             sovereign entity. Liabilities not covered by budgetary resources
are treated as expenses in the Consolidated Statements of Net                            cannot be liquidated without the enactment of an appropriation
Cost. Our Required Supplementary Stewardship Information                                 by Congress, and payment of all liabilities, other than for
(RSSI) includes disclosure of stewardship investments over the                           contracts, can be abrogated by the federal government.




                                                                                 Federal Aviation Administration    |   Fiscal Year 2013   |   Performance and Accountability Report   33
     Budgetary Integrity: FAA Resources and                                                          international, medical, engineering, and development programs,
     How They Are Used                                                                               as well as for policy oversight and overall management functions.
     In FY 2013, the AATF provided approximately 71 percent of our                                   The FY 2013 Operations appropriation was $9.2 billion, which
     enacted budgetary authority. Created by the Airport and Airway                                  was augmented by a $.2 billion transfer from AIP, for a total
     Revenue Act of 1970, the AATF derives its funding from excise                                   funding level of $9.4 billion, approximately 3 percent less
     taxes and earned interest. It provides a source of revenue to                                   than in FY 2012. This decrease is primarily attributable to the
     finance investments in the airport and airway system, and covers                                sequestration resulting from the Budget Control Act of 2011,
     a portion of the FAA operating costs.                                                           offset by the transfer into Operations enabled by the Reducing
                                                                                                     Flight Delays Act.1
     Aviation excise taxes, which include taxes on domestic
     passenger tickets, freight waybills, general and commercial                                     AIP. The Secretary of Transportation is authorized to award
     aviation fuel, and international departures and arrivals, are                                   grants for planning and development to maintain a safe and
     deposited into the AATF. The U.S. Department of the Treasury                                    efficient nationwide system of public airports. These grants fund
     maintains the AATF and invests in government securities.                                        approximately one third of all capital development at the nation’s
                                                                                                     public airports. Grants are issued to maintain and enhance airport
     Interest earned is deposited into the AATF. Funding is withdrawn
                                                                                                     safety, preserve existing infrastructure, and expand capacity and
     as needed and transferred to each FAA appropriation budget line
                                                                                                     efficiency throughout the system. The program also supports
     to cover obligations.
                                                                                                     noise compatibility and planning, the military airport program,
     We are financed through annual and multiyear appropriations                                     reliever airports, and airport program administration.
     authorized by Congress. The FY 2013 enacted budget of $15.3
                                                                                                     FY 2013 funding for AIP was $3.343 billion. Funding for the Small
     billion was a decrease from the FY 2012 enacted level of $15.9
                                                                                                     Community Air Service Development program was $5.9 million.
     billion. This included $10.9 billion from the AATF and $4.4 billion
     from the General Fund, as enacted by the Consolidated and                                       F&E. The programs funded by the F&E appropriation are our
     Further Continuing Appropriations Act, 2013.                                                    principal means of modernizing and improving air traffic control
                                                                                                     and airway facilities, particularly through programs supporting
     The FAA has four appropriations. The largest, Operations, is
                                                                                                     NextGen. The account finances major capital investments to
     funded by both the Treasury’s General Fund and the AATF. In
                                                                                                     enhance the safety and capacity of the nation’s airspace. F&E
     FY 2013, the AATF provided 53.7 percent of the revenue for
                                                                                                     was funded at $2.62 billion in FY 2013, a 4 percent decrease from
     Operations. The AATF is the sole revenue source for our three
                                                                                                     FY 2012. This funding included $28.5 million from the Hurricane
     capital investment appropriations:
                                                                                                     Sandy Supplemental Bill and a transfer of $5.8 million into
      ¢¢   Grants-in-Aid for Airports (AIP)                                                          F&E enabled by the Reducing Flight Delays Act. Several major
      ¢¢   Facilities and Equipment (F&E)                                                            systems that contribute to the NextGen effort reached significant
                                                                                                     milestones in FY 2013.These include: Automatic Dependent
      ¢¢   Research, Engineering, and Development (R,E,&D).
                                                                                                     Surveillance-Broadcast (ADS-B), Data Communications for
     Operations. The Operations appropriation finances operating                                     Trajectory-Based Operations (Data Comm), and En Route
     costs, maintenance, communications, and logistical support                                      Automation Modernization (ERAM).
     for the air traffic control and air navigation systems. It also
                                                                                                     R,E,&D. The FY 2013 appropriation for R,E,&D of $158.79 million
     funds the salaries and costs associated with carrying out our
                                                                                                     was about 5 percent lower than the FY 2012 level. The reduction
     safety inspection and regulatory responsibilities. In addition,
                                                                                                     for FY 2013, was again primarily attributable to the sequester.
     the account covers administrative and managerial costs for our




                                                                                                     1	 FY 2013’s Reducing Flight Delays Act (P.L. 113-9) enabled a $253 million
                                                                                                        expenditure transfer from Grants-In-Aid for Airports to Operations and
                                                                                                        Facilities & Equipment.




34   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
MANAGEMENT CONTROL HIGHLIGHTS
IMPROVING FINANCIAL                                                     program oversees eleven national contracts in five different
                                                                        categories. The SAVES program has enabled us to gain better
MANAGEMENT                                                              financial oversight in addition to significant cost savings.

Cost-Effectiveness and Efficiency                                       Through SAVES contracts, we achieved more than $17 million in
Our strategic plan includes a strategic objective to improve the        cost savings for FY 2013 and a total savings of more than $147
financial management of the agency while delivering quality             million since program implementation. SAVES contracts produced
customer service. A cost-control target is tracked each month.          the following savings rates:
By adhering to this target, the agency was able to achieve $102           ¢¢   21 percent for office supplies
million in recurring savings in FY 2012 (from efforts put in place        ¢¢   32 percent for office equipment
between FY 2005 to FY 2011). FAA efforts in this area for FY 2013
are described below.                                                      ¢¢   12 percent for IT hardware
                                                                          ¢¢   11 percent for COTS software
Service Area Restructuring. By reevaluating and changing the
structure of ATO service areas, the FAA sharply reduced staffing          ¢¢   4 percent for ground and overnight delivery.
requirements. This activity achieved savings of $7 million in
                                                                        In addition to cost control, each FAA organization develops,
FY 2013.
                                                                        tracks, and reports quarterly on a comprehensive measure of its
Worker’s Compensation Consolidation. The FAA has saved                  operating efficiency or financial performance.
a total of $119 million in workers’ compensation claims since
                                                                        Cost per Controlled Flight. This cost-based metric provides a
FY 2005. Due to the FAA’s success in this area, the DOT gave
                                                                        broader historic picture of overall air traffic control cost efficiency
us centralized, department-wide responsibility for managing
                                                                        at various FAA organizational levels. Cost per FAA-controlled
workers’ compensation claims. In FY 2013, we saved $7 million
                                                                        flight is reviewed regularly to determine the efficacy of periodic
in worker’s compensation costs.
                                                                        benchmarking initiatives conducted in the United States and with
Information Technology (IT). IT investments can be expensive            our international counterparts.
while the technology quickly becomes obsolete. To address these
                                                                        Overhead Rate. We capture overhead rates to provide insight
issues, the FAA is becoming more strategic about IT decisions
                                                                        into the cost-effectiveness of overhead resources at the FAA. The
through the implementation of agency-wide IT initiatives that
                                                                        resulting performance indicator informs management decisions
consolidate resources and improve efficiency. This yielded a cost
                                                                        concerning the allocation of general and administrative services
savings of more than $36 million in FY 2013.
                                                                        and mission support services.
The Strategic Sourcing for the Acquisition of Various
                                                                        Regulatory Cost per Launch. This metric provides trend data
Equipment and Supplies (SAVES) Program. The SAVES
                                                                        for the average regulatory cost per launch of commercial space
program is an ambitious effort that began in FY 2006 to
                                                                        vehicles. This information is used to track how efficiently the AST
implement private-sector best practices in the FAA’s procurement
                                                                        mission is interacting with the commercial space industry. Trend                             MANAGE MENT’S DI SCUSSI ON
of administrative supplies, equipment, IT hardware, commercial
                                                                        data are also reviewed to forecast what human resources will be
off-the-shelf (COTS) software, and courier services. The SAVES
                                                                        needed to regulate and support launch and reentry operations.
                                                                                                                                                                          a n d ANALYSI S




                                                                Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   35
     IMPLEMENTING EXPENSE CONTROLS                                                                   The Chief Acquisition Officer established an Acquisition
                                                                                                     Executive Board during FY 2009 to oversee procurement policy.
     The FAA has improved its oversight of the acquisition process                                   The Acquisition Executive Board is working to streamline and
     to help ensure that the agency is a responsible steward of the                                  standardize the processes by which acquisitions are approved
     taxpayers’ money. Enhanced processes and controls help us                                       and managed. As part of this effort, a separate board (the
     to better manage resources and arrive at sounder business                                       Support Contracts Review Board) was established to review
     decisions in relation to our external contracts.                                                and approve any proposed support contract with a value of
     Procurements. In 2005, the FAA’s Chief Financial Officer (CFO)                                  $10 million or more. This board is composed of executives from
     was directed to exercise greater oversight and fiscal control                                   the CFO’s office, the Office of Acquisitions and Contracting, and
     over all agency procurements costing $10 million or more.                                       the Office of the Chief Counsel. It makes recommendations to the
     Since that time, the Office of Financial Controls has evaluated                                 CFO for approval or disapproval of each large support contract.
     446 procurement packages with an estimated cost of $52.3                                        Information Technology. To better coordinate IT efforts, any
     billion. Our ability to better define program requirements,                                     IT-related spending in excess of $250,000 must be approved by
     more accurately estimate costs, and substantiate those cost                                     the FAA’s Chief Information Officer. This requirement ensures
     estimates has greatly improved. With these improvements, we                                     that our IT investments are coordinated and fit into the agency-
     have established proper controls and can manage our contract                                    wide IT strategy. The Information Technology Shared Services
     resources more effectively.                                                                     Committee serves as a forum to direct the effective, secure, and
                                                                                                     cost-efficient application of administrative, IT-related personnel
                                                                                                     resources, and oversees funding to meet our IT needs.




     FAA personnel validating equipment installation prior to operational testing. Photo: FAA.




36   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
Conferences. In 2009, our CFO and Chief Acquisition Officer                 IMPROPER PAYMENTS ELIMINATION
issued guidance requiring that all conferences costing $100,000
or more be approved by the CFO before funds were committed.
                                                                            AND RECOVERY ACT OF 2010 (IPERA)
As we have continued to strengthen policies in this area, in                The Improper Payments Information Act of 2002 (IPIA), as
2010, the level of approval was elevated to the Administrator,              amended by the Improper Payments Elimination and Recovery
and in 2012, to the Deputy Secretary of DOT. Also beginning in              Act (IPERA) of 2010, requires federal agencies to annually report
2012, the Administrator took on the authority of approving all              to the President and the Congress information on improper
conferences costing $20,000 or more.                                        payments.

                                                                            IPERA encompasses a systematic approach that allows the
                                                                            federal government to address a difficult and often complex
FINANCIAL MANAGEMENT
                                                                            problem. The federal government loses billions of dollars a year
INTEGRITY: CONTROLS,                                                        on improper payments. OMB Circular A-123, Appendix C (April
COMPLIANCE, AND CHALLENGES                                                  14, 2011), provides government-wide guidance for IPERA.
In a November 18, 2013, memorandum, the FAA Administrator                   The purpose of these regulations and guidance is to improve
reported to the Secretary of the DOT an unqualified statement               agency efforts to reduce and recover improper payments.
of assurance under the Federal Managers’ Financial Integrity                Specifically, IPERA requires agencies to identify and estimate
Act (FMFIA). Every year, FAA program managers assess the                    improper payments that they have made, conduct payment
vulnerability of their programs in terms of the strength of                 recovery audits, reuse recovered improper payments, and
their activity management controls. On the basis of these                   complete lists of compliance actions per the law.
assessments, reviews are conducted to determine their
compliance with Sections 2 and 4 of FMFIA. The head of each                 In simple terms, an improper payment based on IPERA is any
office then reports in writing to the Administrator any potential           payment that should not have been made at all, that was made
material internal control weakness or system nonconformance.                in the incorrect amount (overpayments or underpayments), or
Identified weaknesses deemed material are consolidated in                   that was made to an ineligible recipient or for an ineligible
a memorandum with a Statement of Assurance signed by the                    good or service. Additionally, payments made without complete
Administrator and sent to the DOT Secretary. Our response                   supporting documentation and duplicate payments are also
becomes a part of the DOT Statement of Assurance sent to                    considered improper payments. This is the level of detail applied
the President. In addition to reporting our compliance with the             by the FAA to monitor payments and assess if an improper
FMFIA, we report our compliance with the Federal Financial                  payment has occurred.
Management Improvement Act (FFMIA). The FFMIA requires
an assessment of adherence to standard government financial                 Based on IPERA, agencies are required to review all programs
management system requirements, accounting standards, and                   and financial activities in order to identify those that are most
U.S. Standard General Ledger transaction-level reporting. For               susceptible to improper payments. This risk assessment allows
FY 2013, we are reporting overall substantial compliance.                   agencies to identify areas that have the potential for “significant”
                                                                            improper payments.

                                                                            The FAA’s FY 2013 IPERA review did not find any programs or
                                                                            activities with “significant erroneous payments,” as determined
                                                                            in accordance with the criteria of the Office of Management and                              MANAGE MENT’S DI SCUSSI ON
                                                                            Budget (OMB), which identifies erroneous payments as those
                                                                            exceeding both $10 million and 2.5 percent of program payments
                                                                                                                                                                              a n d ANALYSI S




                                                                            or exceeding $100 million.




                                                                    Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   37
     MANAGEMENT ASSURANCES

               Federal Managers’ Financial Integrity Act (FMFIA)
               Assurance Statement— Fiscal Year 2013

               The FAA is responsible for establishing and maintaining effective internal control and financial management systems
               that meet the objectives of the FMFIA and OMB Circular A-123, titled Management’s Responsibility for Internal Control.

               These objectives are to ensure:
                ¢    Effective and efficient operations
                ¢    Compliance with applicable laws and regulations
                ¢    Reliable financial reporting

               Internally, we assess the vulnerability of our programs and systems through the FMFIA. We are pleased to report that,
               taken as whole, the management controls and financial management systems in effect from October 1, 2012, through
               September 30, 2013, provide reasonable assurance that the objectives of both Sections 2 and 4 of the FMFIA are being
               met. Management controls are in place and our financial systems conform to government-wide standards.

               In addition, the FAA conducted its assessment of the effectiveness of internal control over financial reporting. This
               includes internal control related to the preparation of our agency’s annual financial statements, as well as safeguarding
               of assets and compliance with applicable laws and regulations governing the use of budgetary authority and other
               laws and regulations that could have a direct and material effect on the financial statements, in accordance with the
               requirements of Appendix A of OMB Circular A-123.

               The results of this evaluation provide reasonable assurance that the FAA’s internal control over financial reporting is
               operating effectively as of September 30, 2013. Due to the unlimited scope of processes tested this year and the fact
               that no material weaknesses were reported on our financial statements, the FAA is issuing an unqualified statement of
               assurance.




                                                                                                 Michael P. Huerta
                                                                                                 Administrator
                                                                                                 November 18, 2013




38   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
FINANCIAL MANAGEMENT SYSTEMS STRATEGY AND ACTIONS
FINANCIAL SYSTEMS STRATEGY                                                 SYSTEMS CRITICAL TO FINANCIAL
Our agency’s financial systems strategy is based on a framework            MANAGEMENT AND ACTIONS
called the Federal Enterprise Architecture (FEA). FEA is                   The FAA is working with the DOT to consolidate and modernize
recognized across the federal government as the best practice              our financial management systems, and streamline our processes
for integrating strategic, business, and technology management             and reports. Maintaining fewer systems will enable our agency
as part of organizational design and performance improvement.              to operate more efficiently. We will have fewer points of data
Our financial management systems strategy can be divided into              entry, fewer systems to reconcile with the official sources of the
five categories: Business, Applications, Data, Information, and            data, and fewer systems to train our employees how to use.
Services. A summary of each is provided below:
 ¢¢   Business—Initiate federated financial IT management as               Below is a summary of the systems critical to our financial
      a new business model across the agency, enabling joint               management and the actions or improvements that are recently
      strategic planning and project implementation between FAA            completed, underway, or planned for each.
      organizations.                                                       Accounting. Delphi is the DOT’s comprehensive financial
 ¢¢   Applications—Reduce the current financial management                 management system. The FAA uses Delphi to record financial
      system portfolio through a financial systems modernization           transactions and account balances. Currently, the DOT is working
      program that addresses redundancies in key financial and             on a major upgrade to Delphi. One benefit of upgrading will be
      mixed financial business areas.                                      a system design that more fundamentally addresses the unique
 ¢¢   Data—Implement a financial data management roadmap                   accounting requirements of federal government entities, thus
      and stewardship council to govern the use and sharing                increasing efficiency and data integrity. Another benefit is that
      of FAA financial data as a common asset; reduce the                  we will be better able to keep pace with security “patches,”
      redundancy of data; and improve the quality of data to               which are changes to the system issued by the manufacturer to
      facilitate decision-making.                                          continually address security vulnerabilities.

 ¢¢   Information—Build an FAA-wide financial data                         During FY 2013, we also worked on requirements and an
      “warehouse” to increase the consistency of reporting while           implementation plan for moving vendor payments from paper
      maintaining each organization’s ability to meet individual           to electronic invoicing. As of FY 2012, we already implemented
      core mission area business reporting requirements.                   electronic invoicing for all grants payments.

 ¢¢   Services—Define and deliver shared operational and                   Acquisition. PRISM is an internet-based acquisition system
      infrastructure services for the FAA’s multiple financial             that is integrated with Delphi’s purchasing functions to provide
      systems.                                                             vendor information and communicate accounting information. In
                                                                           the near term, we will retrofit PRISM to work with the upgraded
                                                                           version of Delphi. In the longer term, we will be migrating toward
                                                                           a business process management suite of tools that will automate
                                                                                                                                                                        MANAGE MENT’S DI SCUSSI ON
                                                                                                                                                                             a n d ANALYSI S




                                                                   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   39
     and integrate all activities related to procurement and contracts                               for combining these systems’ functionalities into a single data
     management. We are continuing to pilot business process                                         warehouse.
     automation tools in preparation for fully implementing them.
                                                                                                     Timekeeping. While timekeeping systems are not technically
     Budget. During FY 2013, we eliminated duplicative “cuff                                         financial management systems, they are integral to proper
     record” systems, moving to a single system for all Operations                                   reporting of workforce-related costs. CRU-X is a suite of software
     account needs. Although cuff record systems are an important                                    used by the Air Traffic Organization (ATO) for timekeeping,
     supplement to Delphi because they have allowed our                                              schedule and position management, and labor distribution
     organizational units to manage their planned obligations at a                                   reporting. During FY 2013, we decreased the footprint of CRU-X
     much lower level of detail than practical or possible using Delphi                              by migrating more than 15,000 ATO employees from CRU-X to
     alone, a single system increases efficiency and accuracy because                                Castle, which is now the designated agency-wide timekeeping
     there are fewer systems to maintain and reconcile to Delphi.                                    system.

     Financial Reporting. The current FAA financial reporting                                        A component of the CRU-X suite is CRU-ART, which has been
     systems are the Report Analysis and Distribution System (RADS);                                 used for schedule and position management of air traffic
     the Regional Information System; the Financial Management                                       controllers. Now 15 years old, this legacy system is at the end of
     System; and the Research, Engineering & Development                                             its useful life. Its operation requires more than 350 servers—one
     Monitoring, Analysis and Control System. RADS is currently                                      in each location where air traffic controllers work. We are
     being replaced with the Platform for Unified Reporting system,                                  currently evaluating requirements to replace the CRU-ART
     which will provide management with more comprehensive                                           system with a new, modernized version.
     analytic tools to support better planning and decision-making.
     Looking even further into the future, we are studying options




40   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
                                                                                                     MANAGE MENT’S DI SCUSSI ON
                                                                                                          a n d ANALYSI S




Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   41
     PERFORMANCE RESULTS



42
PERFORMANCE MEASURES OVERVIEW
In this section, we discuss our progress in achieving our 14               data in the Fiscal Year 2014 Performance and Accountability
performance measures. The measures are organized by strategic              Report (PAR). We have noted the measures for which the data
goal and objective. Our agency has five overarching strategic              provided are preliminary. Finally, in this FY 2013 PAR, we provide
goals:                                                                     FY 2012 performance results for the two performance measures
1. Next Level of Safety (page 44)                                          (FAA Ratings and Outside Ratings) for which end-of-year data
                                                                           were unavailable when the FY 2012 PAR was published.
2. Workplace of Choice (page 54)
3. Delivering Aviation Access through Innovation                           Although in some cases the FAA achieved a result significantly
   (page 57)                                                               better than the target, the FAA did not set the new fiscal year’s
4. Sustaining our Future (page 62)                                         target to reflect the prior year’s result. Annual performance
5. Improved Global Performance through Collaboration                       is subject to greater variability than long-term performance.
   (page 66)                                                               Over time, short-term trends tend to balance out and provide a
                                                                           more accurate picture of the agency’s long-term performance.
We provide the FY 2013 target, a discussion of our FY 2013                 Moreover, some annual targets are baselined using data acquired
performance, and, when available, five years of historical trend           over a multi-year period. The target has been set to measure the
data. We have also prepared a graph of performance measures                FAA’s performance toward a long-term goal.
with three or more years of data.
                                                                           Our Performance Section concludes on page 69 with
In FY 2013, we achieved 8 of the 12 performance targets for                discussions of the ways in which our performance data are
which we had end-of-year data. Two performance measures                    verified; the completeness and reliability of our performance
(FAA Ratings and Outside Ratings) did not have any data results            data; and a program evaluation completed by the Office of
available at the time of this publication. We will report these            Airports in FY 2013.




                                                                                                                                                                        PERFORMANCE
                                                                                                                                                                           RESULT S




Top: Pilots in cockpit. Photo: BigStock.com.                          Cargo compartment smoke-detection testing. Photo: FAA.
Bottom: Flight attendant demonstrating use of oxygen mask.
Photo: BigStock.com.

                                                                   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   43
     1 	 NEXT LEVEL OF SAFETY
        By achieving the lowest possible accident rate and always improving safety, all users of our aviation system can
        arrive safely at their destinations. We will advance aviation safety world-wide.


         FY 2013 SAFETY PERFORMANCE MEASURES AND RESULTS
                                                                                                              FY 2013      FY 2013      FY 2013       FY 2014
         Performance Measure                                                                                   Target      Results      Status         Target
          Commercial Air Carrier Fatality Rate*                                                                 7.4             1.11      ✓              7.2
           In FY 2013, the commercial air carrier fatality rate will not exceed 7.4 fatalities per
           100 million persons on board.
          Serious Runway Incursions Rate*                                                                      0.395           0.2002     ✓            0.395
           Reduce Category A & B (most serious) runway incursions to a rate of no more than .395
           per million operations.
          System Risk Event Rate                                                                                20             5.662      ✓              20
           Limit the rate of the most serious losses of standard separation to 20 or fewer for every
           thousand (.02) losses of standard separation within the national airspace system.
          Information Security                                                                                   0               0        ✓                  0
           Ensure no cyber security event significantly degrades or disables a mission-critical FAA
           system.
          General Aviation Fatal Accident Rate*                                                                1.057           1.0613     ✘             1.05
           Reduce the general aviation fatal accident rate to no more than 1.057 fatal accidents per
           100,000 flight hours.
          Commercial Space Launch Accidents                                                                      0               0        ✓                  0
           No fatalities, serious injuries, or significant property damage to the uninvolved public
           during licensed or permitted space launch and reentry activities.

         * This performance measure supports a DOT Agency Priority Goal.                                        ✓ Target met              ✘ Target not met
         1 Preliminary estimate until final result can be confirmed by the National Transportation Safety
           Board (NTSB) in March 2015. We do not expect any change in the result to be significant enough
           to change the year-end status of achieving the target.
         2 Preliminary estimate until the final result becomes available in January 2014. We do not expect
           any change in the result to be significant enough to change the year-end status of achieving the
           target.
         3 Preliminary estimate until the final result becomes available in March 2015. We do not expect
           any change in the result to be significant enough to change the year-end status of achieving
           the target. This target was previously displayed rounded to two decimal places as 1.06. For
           clarity in demonstrating that the target was not achieved, it is now displayed rounded to three
           decimal places.




44      Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 OBJECTIVE: No Accident-Related Fatalities on Commercial Service Aircraft in the U.S.

Commercial Air Carrier Fatality Rate
 Reduce the commercial air carrier fatalities per 100 million                             equip our pilots with the skills that they need to deal with any
 persons on board by 24 percent over 9-year period                                        situation.
 (2010-2018). No more than 6.2 in 2018.
 FY 2013
                                                                                          The FAA continues to be challenged by the number of projects
              In FY 2013, the commercial air carrier fatality rate will not
 Target       exceed 7.4 fatalities per 100 million persons on board.                     directly tasked to it by Congress in the Airline Safety and Federal
                                                                                          Aviation Administration Extension Act of 2010. We were also
 FY 2013      1.1
 Result       (Preliminary estimate until final result can be confirmed by NTSB
                                                                                          tasked with additional projects in the FAA Modernization and
              in March 2015.)                                                             Reform Act of 2012. Although these laws promote many projects
 Public       As fatal air carrier accidents have declined in terms of                    in areas in which we are already engaged, they add projects
 Benefit      average fatalities per accident, this metric will sharpen                   requiring resources that in some cases were planned for use
              FAA’s focus on helping air travel become even safer.                        elsewhere.
 This performance measure supports a DOT Agency Priority Goal.
                                                                                          Our agency has made progress on several prominent rulemaking
                                                                                          projects designed to reduce the risk of commercial air fatalities,
This year, with a result of 1.1, we were successful in maintaining                        including issuing a final rule to meet pilot certification and
the commercial air carrier rate below 7.4 fatalities per 100                              qualification requirements appearing in Title 14, Aeronautics
million persons on board. The results will not be final until they                        and Space, Code of Federal Regulations, Part 121, Air Carrier
are confirmed by the National Transportation Safety Board                                 Certification, which establishes the operational rules for air
(NTSB) in March 2015.                                                                     carriers. We continue to work on other projects, including
                                                                                          final rules for crewmember training, helicopter air-ambulance
Commercial aviation includes both scheduled and nonscheduled
flights of U.S. passenger and cargo air carriers. Accidents
involving passengers, crew, ground personnel, and the public are                                                Commercial Air Carrier Fatality Rate
all included in this fatality rate. Commercial aviation fatalities                                              Fatalities per 100 million persons on board

of non-U.S. passenger carriers are included in our world-wide                                               10
performance measure, which can be found on page 67.
                                                                                                             8

Our continuing role as stewards of aviation safety is a result                                               6
of our focused, data-driven safety agenda. We use the latest
technology and training to break the chain of events that leads                                              4
                                                                                                    RATE




to accidents. Our partnership with the aviation industry has
                                                                                                             2
allowed us to build a system that has reduced the risks of flying
to all-time lows.                                                                                            0

                                                                                                            -2
The technology used by our pilots, mechanics, flight attendants,                                                   FY 2008      FY 2009       FY 2010    FY 2011   FY 2012     FY 2013
                                                                                                       Actual        0.4          6.7          0.3         0.0        0.01        1.12
and air traffic controllers has evolved a great deal in recent years.
                                                                                                       Target        8.7          8.4          8.1         7.9        7.6         7.4
In addition, pilots today must possess not only the navigation,                                       Target
stick, and rudder skills that they have always had to learn; they                                  Achieved?                                                                 
                                                                                                                                                                                           PERFORMANCE


                                                                                                 1 Preliminary estimate until final result can be confirmed by NTSB in March 2014. We
must also be “system managers,” who are intimately familiar
                                                                                                                                                                                              RESULT S




                                                                                                   do not expect any change in the result to be significant enough to change the
                                                                                                   year-end status of achieving the target.
with the complexity of aviation operations. Our training programs                                2 Preliminary estimate until final result can be confirmed by NTSB in March 2015. We
                                                                                                   do not expect any change in the result to be significant enough to change the
                                                                                                   year-end status of achieving the target.




                                                                                  Federal Aviation Administration    |     Fiscal Year 2013    |   Performance and Accountability Report   45
     Cockpit simulator. Photo: FAA

     operations, and safety management systems as required by Part                                   While our achievements have brought aviation to an
     121. In response to the Modernization and Reform Act, we have                                   unprecedented level of safety, identified sources of risk within
     begun new rulemaking projects to prohibit the personal use                                      aviation show us the way to move forward to the next level of
     of portable electronic devices on the flight deck, further revise                               safety. Thus, our work with stakeholders to stimulate cooperation
     flight and duty regulations, and study the use of cell phones                                   in the open reporting of safety concerns is critical to our ability
     on passenger aircraft. Additionally, we started a rulemaking                                    to further improve safety. In a system dependent upon voluntary
     project to enhance simulator qualification standards for stall                                  reporting, each member of the aviation community plays a vital
     and upset recovery. We also issued revised guidance on Fatigue                                  role in ensuring that we continue to have the safest airspace
     Risk Management Systems, Airline Transport Pilot certification                                  system in the world.
     training, and autorotation training.




46   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 OBJECTIVE: Aviation Risk Is Reduced through All Phases of Flight (Gate-to-Gate)

Serious Runway Incursions Rate
(Category A & B)
 Reduce Category A & B (most serious) runway incursions                                   In recent years, the agency has implemented changes in cockpit
 to a rate of no more than .395 per million operations, and                               procedures, airport signage and markings, air traffic procedures,
 maintain or improve through FY 2013.                                                     and technology implementation to improve runway safety at our
 FY 2013      Reduce Category A & B (most serious) runway incursions                      nation’s airports.
 Target       to a rate of no more than .395 per million operations, and
              maintain or improve through FY 2013.                                        Changes took place in the following areas:
 FY 2013      .200                                                                          ¢¢   The Air Traffic Safety Action Program (ATSAP) and the
 Result       (Preliminary estimate until the final result becomes available in
              January 2014.)                                                                     Technical Operations Safety Action Program (T-SAP). These
                                                                                                 are voluntary self-reporting systems that enable FAA
 Public       Reduced probability that the public will be injured or killed
 Benefit                                                                                         employees to openly report concerns about flight safety.
              in an accident resulting from a runway incursion.
                                                                                                 ATSAP is a confidential, non-punitive reporting program that
 This performance measure supports a DOT Agency Priority Goal.
                                                                                                 empowers FAA employees to play a direct role in safety. Use
                                                                                                 of this tool has resulted in an increase in safety reporting,
A runway incursion is any occurrence at an airport involving                                     which has ironically caused a greater number of such issues
the incorrect presence of an aircraft, vehicle, or person on the                                 to be brought to light in recent years. However, the reporting
protected area of a surface designated for the landing and                                       has helped the FAA identify potential incursion risks in the
takeoff of aircraft. Runway incursions may result from air traffic                               system and take swift action to address them.
controller, pilot, vehicle driver, or equipment operator, or from                           ¢¢   Initial and periodic safety reviews of airports where incorrect
pedestrian deviation. All events are analyzed to identify hazards                                runway departures and runway incursions are of greatest
and develop mitigation procedures to reduce the reported risk                                    concern.
of such incidents. Such events can lead to serious accidents,                               ¢¢   Implementation of enhanced taxiway centerline markings at
potentially involving fatalities, injuries, and significant property
                                                                                                 all certificated airports.
damage.
                                                                                            ¢¢   Review of airport vehicular operations and air carrier surface
The FAA tracks two categories of most serious runway                                             procedures, along with revised employee recurrent training.
incursions:                                                                                 ¢¢   Accelerated deployment of surveillance, detection, and
 ¢¢   Category A—a serious incident in which a collision was                                     warning systems, such as Airport Surface Detection
      narrowly avoided.                                                                          Equipment, including Model X (ASDE-X), and Runway Status
 ¢¢   Category B—an incident in which separation decreases                                       Lights (RWSL) at designated Core 30 Airports. ASDE is a
      and there is a significant potential for collision, which may                              surface-detection technology that integrates data from
      result in a time-critical corrective/evasive response to avoid                             various sources, including radars and aircraft transponders,
      a collision.                                                                               to provide controllers with a more robust view of movement
                                                                                                 on runways and taxiways. RWSL is a situational awareness
Since maintaining the safety of the nation’s runways is critical                                 indication system located on the runway that alerts pilots
to ensuring safe operations in the nation’s airspace, reducing the
                                                                                                                                                                                       PERFORMANCE

                                                                                                 and ground vehicle operators not to enter or cross a runway
                                                                                                                                                                                          RESULT S




number and severity of runway incursions is one of the FAA’s top                                 when there is conflicting traffic.
priorities. In FY 2013, with a rate of .200, we achieved our goal of                        ¢¢   Adoption of International Civil Aviation Organization (ICAO)
reducing Category A & B runway incursions to no more than .395
                                                                                                 standardized air traffic controller/pilot runway clearance
per million operations.
                                                                                                 phraseology (“Line Up and Wait”) and runway crossing
                                                                                                 clearances.




                                                                                  Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   47
     We are also advancing the development and implementation                                              reports, which are used to formulate wildlife mitigation plans
     of new technologies to address incursion safety deficiencies.                                         at the nation’s airports.
     For example, smartphones were not widely used just a few                                         ¢¢   Installing runway status lights at 17 large airports by 2017.
     years ago. Today, we are starting to use such devices to help
     general aviation pilots determine their positions on the airport
                                                                                                      ¢¢   Installing Engineering Material Arresting Systems (EMAS)
     surface and file reports concerning wildlife hazards. Electronic                                      at certain certificated airports that do not have standard
     tablets are replacing pilots’ paper charts, offering enhanced                                         runway safety areas. EMAS materials of closely-controlled
     situational awareness. Replacing analog voice and paper                                               strength and density placed at the ends of runways can stop
     reports with digital communication and electronic reporting                                           or greatly slow any aircraft that may overrun the runway.
     systems is revolutionizing our ability to capture and store airport                             The agency is committed to mitigating the risks of runway
     surface information. Highly capable multilateration systems are                                 incursions and continuing its ongoing outreach, education,
     augmenting information from radar and satellite infrastructure                                  and awareness programs through mass electronic mail
     and providing an array of safety choices for airports. These                                    communications and training animations. Maintaining the safe
     multilateration systems measure the differences in distance                                     flow of airport traffic constitutes the major runway safety mission
     between two or more stations at known locations that broadcast                                  of the FAA.
     signals at known times to provide more accurate depictions of
     where objects may be located, such as aircraft or vehicles on the                                                      Serious Runway Incursions Rate
     surface of an airport.                                                                                                            Per million operations


     Other examples of technology advances to improve safety
     include:                                                                                                        0.8

      ¢¢   Accelerating and standardizing air traffic facility electronic
                                                                                                                     0.6
           reporting capabilities through the Comprehensive Electronic
           Data Analysis Reporting system.
                                                                                                              RATE




                                                                                                                     0.4
      ¢¢   Creating the ability to baseline, assess, and manage risk in
           the terminal area, utilizing Traffic Analysis Review Program                                              0.2

           data and centralized quality assurance protocols.
                                                                                                                     0.0
                                                                                                                            FY 2007 FY 2008      FY 2009 FY 2010 FY 2011 FY 2012 FY 2013
      ¢¢   Continuing to strengthen the Aviation Safety Information                                              Actual     0.393      0.427     0.227      0.117     0.138      0.356      0.2001
           and Analysis Sharing program, which fuses subjective and                                              Target     0.530      0.509     0.472      0.450     0.450      0.395      0.395
           objective information contributed by airlines to the FAA,                                           Target
                                                                                                                                                                                        
                                                                                                            Achieved?
           supplemented by other publicly available data, to produce                                       1 Preliminary estimate until final result becomes available in January 2014. We do not
           comprehensive, graphical depictions of “what happened,”                                           expect any change in the result to be significant enough to change the year-end
                                                                                                             status of achieving the target.
           and “why it happened.”
      ¢¢   Developing innovative tools to identify and assess risk, for
           example, quick response codes for filing real-time wildlife




48   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
System Risk Event Rate (SRER)
 Reduce risks in flight by limiting the rate of the most                               ¢¢   Evaluate separation incidents caused by other factors,
 serious losses of standard separation to 20 or fewer for                                   including pilot deviations.
 every thousand (.02) losses of standard separation within
 the national airspace system.
                                                                                       ¢¢   Avoid underreporting and misclassification of incidents.

 FY 2013     Limit the rate of the most serious losses of standard                   In FY 2013, with a preliminary result of 5.66, we achieved our
 Target      separation to 20 or fewer for every thousand (.02) losses
                                                                                     target of limiting the rate of the most serious losses of standard
             of standard separation within the national airspace
             system.                                                                 separation to 20 or fewer for every thousand (.02) losses of
                                                                                     standard separation within the system. The initial target of
 FY 2013     5.66
 Result      (Preliminary estimate until final result becomes available in           20 was based on a projection of the SRER based on historical
             January 2014.)                                                          operational error and pilot deviation data. The target of 20 set
 Public      Targeting the resources of the ATO to mitigate the most                 for FY 2011 through FY 2014 will establish a baseline while
 Benefit     serious hazards in the national airspace system results in              deploying improved analysis and loss-detection equipment. It
             a focused increase in safety. A similar safety enhancement              will set a minimum level of system performance that should
             approach process in commercial aviation produced a
             dramatic decrease in the accident rate during the first part            be attainable, while we continue to strive for even greater
             of the 21st century.                                                    improvements.

                                                                                     Finally, the SRER improves our ability to measure the system-
One of the fundamental principles of aviation safety is                              wide safety performance of NextGen implementation. With this
separation. A key FAA duty is to ensure that aircraft flying within                  additional data, we will be able to determine the safety impact
the national airspace system maintain the required distance from                     of new NextGen air traffic procedures and technologies and,
each other. To control losses of separation, we need an accurate                     ultimately, make more knowledgeable decisions about reductions
picture of system safety performance. The System Risk Event                          in separation standards.
Rate (STER) enables us to identify losses of separation.
                                                                                                               System Risk Event Rate (SRER)
Introduced in FY 2011, the SRER represents a move away from                              Rate of serious losses of standard separation per thousand losses
legacy safety indicators toward a metric that illuminates, with                                        25
far greater precision, the frequency and rate of high-risk events
across the national airspace. This is possible because the                                             20
SRER is supported by the Risk Analysis Process (RAP) tool. The
RAP determines causal factors, considers pilot and controller                                          15
performance on loss of separation events, and assesses the
                                                                                               RATE




potential repeatability and severity of those events.                                                  10


The SRER allows us to:                                                                                  5

 ¢¢   Increase the amount of data collected and analyzed to
                                                                                                        0
                                                                                                                    FY 2011                  FY 2012                 FY 2013
      achieve better understanding of risk.
                                                                                                  Actual                 24.54                     9.33                     5.661
 ¢¢   Align our approach to safety with that of our international                                 Target                 20.00                    20.00                    20.00
                                                                                                Target
      partners.                                                                              Achieved?                                                                       
                                                                                            1 Preliminary estimate until final result becomes available in January 2014. We do not
 ¢¢   Integrate pilot and air traffic controller performance data on                          expect any change in the result to be significant enough to change the year-end
                                                                                              status of achieving the target.
                                                                                                                                                                                     PERFORMANCE

      all air traffic incidents.
                                                                                                                                                                                        RESULT S




                                                                             Federal Aviation Administration    |   Fiscal Year 2013    |   Performance and Accountability Report    49
     Information Security
      Ensure no cyber security event significantly degrades or                                       cyber incident is measured in hours, with each system’s ISCP
      disables a mission-critical FAA system.                                                        documenting the maximum tolerance for downtime in hours. If
      FY 2013       Ensure no cyber security event significantly degrades or                         this calculation results in a positive number, then the incident is
      Target        disables a mission-critical FAA system.                                          counted as an event.
      FY 2013       0
      Result                                                                                         Today’s electronically-networked environment requires that the
                                                                                                     FAA’s more than 300 computer systems be secure. In FY 2013,
      Public        The public benefits from an efficient, safe and secure
      Benefit       national airspace with no disruption of services.                                with zero cyber events that significantly degraded or disabled any
                                                                                                     mission-critical FAA systems, we resoundingly met our goal. FAA
                                                                                                     employees were able to continue to provide, and the flying public
     The FAA operates one of the most complex aviation systems                                       continued to benefit from, the safest, most efficient aviation
     in the world—consisting of thousands of people, procedures,                                     system in the world.
     facilities, and equipment—that results in safe and expeditious
     air travel. Successful operation of the national aviation system                                Our compliance program meets federal, departmental, and
     depends upon our ability to continuously track the position,                                    agency policies that require the regular testing and evaluation of
     routes of flight, and movement of aircraft. Unfortunately,                                      information security policies, procedures, and practices. During
     attackers seek to exploit the critical infrastructure behind this                               FY 2013, we completed a comprehensive assessment of our
     capability. Through cyber events (attacks conducted through                                     security systems to ensure that policies were being correctly
     computers), they persist in attempts to disrupt critical services by                            implemented and were providing full protection to all parts of the
     exploiting software, hardware, and network infrastructure flaws.                                agency.

     How is the number of events determined? The computation of                                      The future of information security at the FAA calls for continuous
     a cyber event is based on the time the system is not available,                                 refinement of agency services, clarification and implementation
     minus the maximum tolerance for downtime in the system’s                                        of additional performance measures, and increased use of new
     information security contingency plan (ISCP). The time for each                                 technologies to protect the agency and the flying public.


                                                                                    Information Security
                                   Number of cyber security events that significantly degrade or disable a mission-critical FAA system

                                 FY 2007                  FY 2008                 FY 2009                 FY 2010        FY 2011          FY 2012           FY 2013
      Actual                           0                          0                   0                     0               0                 0                 0
      Target                           0                          0                   0                     0               0                 0                 0
      Target                           ✓                      ✓                      ✓                      ✓              ✓                 ✓                 ✓
      Achieved?




50   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
General Aviation (GA) Fatal Accident Rate
 Reduce the GA fatal accident rate to no more than 1 fatal                                  approximately 70 percent of all fatal GA accidents. In addition,
 accident per 100,000 flight hours by 2018.                                                 human factors directly contribute to approximately 80 percent of
 FY 2013      Reduce the GA fatal accident rate to no more than 1.057                       fatal GA accidents.
 Target       fatal accidents per 100,000 flight hours in FY 2013.
                                                                                            Many GA accidents occur in Alaska. More than three-quarters
 FY 2013      1.061
 Result                                                                                     of Alaska’s communities have no access to highways or roads
              (Preliminary estimate until final result becomes available in March
              2015.)                                                                        and depend upon GA for access to food, mail, jobs, schools,
                                                                                            medical services, and travel. The state’s topography and extreme
 Public       By tracking the rate of fatal accidents per flight hours, FAA
 Benefit      can more accurately pinpoint safety concerns or trends                        weather present unique safety challenges to pilots, resulting in a
              indicating potential safety risks.                                            relatively high number of accidents.
 This performance measure supports a DOT Agency Priority Goal.
                                                                                            In May of this year, FAA leadership met with leaders from the
                                                                                            GA community to agree on actions to enhance safety and reduce
While commercial aviation makes more headlines, GA is just                                  accidents. In the short term, the group agreed to raise awareness
as vital to the success of our nation’s aviation system. GA is                              of the importance of basic airmanship and to promote a positive
made up of more than 300,000 aircraft, from amateur-built                                   safety culture. For the longer term, the FAA called upon the GA
aircraft, rotorcraft, and balloons, to highly sophisticated                                 community to install life-saving equipment in older airplanes,
turbojets (executive jets). Although the GA fatal accident rate                             improve general aviation data, and improve airman certification
has remained relatively flat over the past five years, it remains                           testing and training. To meet these goals, the general aviation
unacceptably high. This may explain the National Transportation                             community and the FAA agreed to move forward as quickly as
Safety Board (NTSB) leaving “General Aviation Safety” on its                                possible on three key initiatives:
“Most Wanted List” of advocacy priorities for another year.                                   ¢¢   Participate and invest in the FAA’s General Aviation Joint
Reducing the rate remains one of the FAA’s top priorities. In                                      Steering Committee (GAJSC). Industry participation is key
FY 2013, with a result of 1.061 fatal accidents per 100,000                                        to obtaining data for analysis, which it is hoped will lead
flight hours, we did not achieve our goal. “Loss of control”                                       to the development of voluntary safety enhancements.
continues to be the leading cause of GA fatalities, accounting for                                 The FAA group uses a data-driven process modeled on
                                                                                                   that of the highly successful Commercial Aviation Safety




                                                                                                                                                                                         PERFORMANCE
                                                                                                                                                                                            RESULT S




Photo: FAA




                                                                                    Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   51
           Team (CAST). Sharing data through the Aviation Safety                                     The committee also proposed using industry consensus
           Information Analysis and Sharing (ASIAS) system and other                                 standards to create a compliance framework that can be more
           voluntary programs will help educate the GA community                                     easily amended to keep up with evolving technology. This
           and strengthen its safety culture. The FAA plans to expand                                step would encourage innovation while ensuring that the FAA
           ASIAS to general aviation in the next few years. In that time,                            retains safety oversight. Our agency will be reviewing the ARC
           the FAA and industry will work together to find incentives to                             recommendations as we continue our efforts to improve general
           increase voluntary reporting of risks and near accidents.                                 aviation safety.
      ¢¢   Support the overhaul of airmen testing and training                                       We remain committed to our partnerships with industry to meet
           standards. An industry and government working group is                                    this metric over time.
           overhauling the standards by incorporating risk management
           and decision-making into flight training and testing.                                     See page 20 for more information about GA.
      ¢¢   Expedite Title 14, Aeronautics and Space, Code of Federal
           Regulations, Part 23, Airworthiness Standards certification                                                            GA Fatal Accident Rate
                                                                                                                              Fatalities per 100,000 flight hours
           process for small aircraft to reduce costs and install new
           technology in airplanes. An industry and government                                                      1.20

           committee completed work on streamlining certification
           for the installation of certain safety technologies on these                                             1.15
           aircraft.

     In late July, an Aviation Rulemaking Committee (ARC), made up                                           RATE   1.10

     of international industry and government experts, recommended
     a broad range of GA policy and regulatory changes. The                                                         1.05
     recommendations cover the areas of GA design, production,
     maintenance, and safety.                                                                                       1.00
                                                                                                                             FY 2009        FY 2010        FY 2011        FY 2012         FY 2013
                                                                                                                Actual
     Among the ARC recommendations was a suggestion that                                                        Target
     compliance with Part 23 requirements be made performance-                                                 Target
                                                                                                            Achieved?
     based, focusing on the complexity and performance of an aircraft
                                                                                                          1 Preliminary estimate until final result becomes available in March 2014. We do not
     instead of on its weight and type of propulsion, as is presently                                       expect any change in the result to be significant enough to change the year-end
                                                                                                            status of achieving the target.
     the case. Under many of the existing Part 23 requirements, small,                                    2 Preliminary estimate until final result becomes available in March 2015. We do not
                                                                                                            expect any change in the result to be significant enough to change the year-end
     relatively simple airplanes have to meet the same regulatory                                           status of achieving the target. This target was previously displayed rounded to two
                                                                                                            decimal places as 1.06. For clarity in demonstrating that the target was not achieved,
     requirements as more complex aircraft.                                                                 it is now displayed rounded to three decimal places.




52   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 OBJECTIVE: There Are No Fatalities Resulting from Commercial Space Launches

Commercial Space Launch Accidents
 No fatalities, serious injuries, or significant property                           This record demonstrates both the industry’s and the agency’s
 damage to the uninvolved public during licensed or                                 commitment to safety.
 permitted space launch and reentry activities.
 FY 2013
                                                                                    Beyond this official record, however, the success of commercial
             No fatalities, serious injuries, or significant property
 Target      damage to the uninvolved public during licensed or                     space transportation is becoming more and more visible to the
             permitted space launch and reentry activities.                         American public. Just last year, Space X launched and berthed
 FY 2013     0                                                                      a cargo capsule to the International Space Station (ISS). The
 Result                                                                             capsule then safely returned to earth, with cargo intact. This
 Public      FAA’s Office of Commercial Space Transportation (AST)                  was the first time that private industry resupplied the space
 Benefit     oversight of the commercial space launch industry                      station. Since that time, Space X has completed two more cargo
             activities resulted in no loss of life or property damage to
                                                                                    missions to the ISS.
             the uninvolved public.

                                                                                    Given impressive industry progress, the opportunity for the
Commercial space launches are an important and growing part of                      general public to take a “day trip” into space may become
our aviation system, one in which the sky is the limit—literally.                   available in the near future. For example, Virgin Galactic and
Commercial space transportation carries payloads, such as                           XCOR Aerospace have been actively promoting the future
satellites, supplies, remote sensing devices, and, one day,                         capability of their spacecraft, now in development, to take
perhaps, paying customers, into orbit. The innovation of this                       people and payloads on commercial suborbital flights. In
industry today parallels the challenges, imagination, and courage                   addition, Boeing, Sierra Nevada, and Space X continue to work
of the early pioneers of flight more than 100 years ago.                            on their own designs for commercial crew vehicles capable of
                                                                                    transporting people to the ISS and other destinations in earth’s
AST regulates all commercial space launch and reentry activities.                   orbit.
The mission of AST, which was established nearly two decades
ago, is to ensure protection of the public, property, and the                       AST continues to experience a significant increase in the number
national security and foreign policy interests of the United                        of requests and applications for new licenses or permits. In
States during commercial launch or reentry activities, as well                      FY 2013, there were 18 licensed and permitted launches—more
as to encourage, facilitate, and promote commercial space                           than five times the number of launches in FY 2012.
transportation.
                                                                                    As the commercial space transportation industry continues to
In 2013, AST once again achieved its target of zero fatalities,                     grow, AST faces important challenges. One of them will be the
serious injuries, or significant property damage to the uninvolved                  continued safe integration of commercial space operations into
public during licensed or permitted space launch and reentry                        U.S. national airspace. Usable airspace is a limited resource and
activities. There has not been a single commercial space launch                     safety considerations require the careful coordination of aviation
accident since the first DOT-licensed launch took place in 1989.                    and space activity.


                                                         Commercial Space Launch Accidents
                   Number of fatalities, serious injuries, or significant property damage during space launch and reentry activities
                                                                                                                                                                                  PERFORMANCE


                         FY 2007             FY 2008              FY 2009              FY 2010                    FY 2011                 FY 2012              FY 2013
                                                                                                                                                                                     RESULT S




 Actual                      0                   0                      0                  0                         0                       0                     0
 Target                      0                   0                      0                  0                         0                       0                     0
 Target                     ✓                   ✓                       ✓                  ✓                        ✓                        ✓                    ✓
 Achieved?




                                                                            Federal Aviation Administration   |    Fiscal Year 2013   |   Performance and Accountability Report   53
     2 	 WORKPLACE OF CHOICE
        We will create a workplace of choice marked by integrity, diversity, accountability, safety and innovation. Our workforce
        will have the skills, abilities, and support systems required to achieve and sustain NextGen.


         FY 2013 WORKPLACE OF CHOICE PERFORMANCE MEASURES AND RESULTS
                                                                                                             FY 2013   FY 2013    FY 2013   FY 2014
         Performance Measure                                                                                  Target   Results1   Status     Target
         FAA Ratings                                                                                          75%       TBD        TBD       61%
          75th percentile rank in the Best Places to Work (BPTW) Index for Federal Agencies
          Subcomponents.
         Outside Ratings                                                                                       90%      TBD        TBD        90%
          Achieve a 90 percent success rate in the areas of financial management and human                   success                        success
          resources management.                                                                                rate                           rate

         1 Results are not available at this time.




        NextGen Weather Evaluation Capabilities Route Availability Planning Tool (RAPT). Photo: FAA.




54      Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 OBJECTIVE: The FAA Is Widely Recognized as an Employer of Choice

FAA Ratings
 The FAA is rated in the top 25 percent of places to work in                The FY 2013 BPTW rankings are not available at this time.
 the federal government by employees by 2018.                               However, earlier this year, the OPM released the final
 FY 2013   75th percentile rank in the Best Places to Work (BPTW)           government-wide BPTW response rate to the 2013 FedView
 Target    Index for Federal Agencies Subcomponents.                        Survey. The 2013 government-wide average response rate was
 FY 2013   TBD
                                                                            48.2 percent, up from the 46.1 percent in 2012. The final FAA
 Result    (Results are not available at this time.)                        2013 FedView response rate was 53.3 percent, down from the 59
                                                                            percent response rate obtained in the agency in 2012. However
 Public    Improvements in Employee Viewpoint Survey results that
 Benefit   are used to calculate the BPTW rankings would indicate
                                                                            this was still more than five percentage points higher than the
           that FAA is managing its workforce better. Research              2013 government-wide rate.
           indicates that improved employee survey results are
           associated with higher organizational performance.               In FY 2013, we began addressing our 2012 results from the
                                                                            FedView Survey with ongoing actions as well as redesigns of
                                                                            critical human capital systems. The FAA’s actions are organized in
Each year, the Office of Personnel Management (OPM)
                                                                            four focus areas:
administers the Federal Employee Viewpoint Survey (FedView).
The survey is a tool that measures employees’ perceptions                     ¢¢   Increasing Creativity and Innovation
of the extent to which conditions characterizing successful                   ¢¢   Improving Internal Processes
organizations are present in their agencies. The results of this
                                                                              ¢¢   Addressing Poor Performers
survey provide valuable insight into the challenges that agency
leaders face in ensuring that their agencies are contributing to              ¢¢   Holding Leaders Accountable for Employee Engagement
the effectiveness of the federal government’s civilian workforce
                                                                            In addition to the actions outlined above, a variety of agency-
and the degree to which these leaders are responding to the
                                                                            wide steps have been taken to foster communication, including
challenges.
                                                                            holding regular executive town hall meetings, enhancing
The Partnership for Public Service obtains FedView survey data              employee websites, publishing lines of business newsletters,
from the OPM and calculates the Best Places to Work (BPTW)                  and nurturing employee opportunities for collaboration and
Index. This index is used to rank federal agencies. This ranking            participation in work groups. These communication innovations
is generally the most publicized FedView result. The FAA’s                  have facilitated the sharing of information and improved
long-term goal is to be ranked in the top 25 percent by 2018,               workforce engagement.
with progress towards that goal being demonstrated in two-year
increments. The FY 2013 target is to be ranked in the top 75                                                      FAA Ratings
percent of participating agencies.                                                       FAA is rated in the top 25 percent of places to work
                                                                                              in the federal government by employees

Early in FY 2013, we received the results of the FY 2012 survey.                                          FY 2011                 FY 2012              FY 2013
Our 2012 ranking was 114th out of 292 organizations rated.                    Actual                                               39%                   TBD1
This means we ranked in the top 39 percent of all participating                                  This was a new
                                                                              Target                                               75%                   75%
                                                                                                   measure in
agencies in FY 2012, exceeding our FY 2012 target of being                    Target                 FY 2012                         ✓                   TBD1
                                                                                                                                                                          PERFORMANCE


ranked in the top 75 percent of participating agencies.                       Achieved?
                                                                                                                                                                             RESULT S




                                                                              1 The results for this performance measure are not available at this time.




                                                                    Federal Aviation Administration   |    Fiscal Year 2013   |   Performance and Accountability Report   55
     Outside Ratings
      Achieve a 90 percent success rate in the areas of financial                                     ¢¢   Improve the FAA’s “talent management” index score on the
      management and human resources management.                                                           OPM Employee Viewpoint Survey by 8 percent.
      FY 2013       Achieve a 90 percent success rate in the areas of financial
      Target        management and human resources management:
                                                                                                     The “success” computation is a sum of weighted scores for the
                     ■■Receive annual unmodified audit opinions with no
                                                                                                     four components. The unmodified audit opinion with no material
                       material weaknesses.                                                          weaknesses and the competitive status indicators contribute
                     ■■Maintain the competitive status of all FAA employees                          40 percent each. The two index scores (effective leadership and
                       within the federal personnel system.                                          talent management) contribute up to 10 percent each. Our goal is
                     ■■Improve the “effective leadership” index score on the                         to achieve a 90 percent success rate.
                       OPM Employee Viewpoint Survey by 8 percent.
                     ■■Improve the “talent management” index score on the                            In FY 2012, FAA received a two-year extension of the interchange
                       OPM Employee Viewpoint Survey by 8 percent.                                   agreement with OPM. In addition, we received an unmodified
      FY 2013       TBD                                                                              audit opinion with no material weaknesses. During FY 2012,
      Result        (Results are not available at this time.)                                        the Workplace of Choice target indices for Leadership and
      Public        The public benefits by being reasonably assured the                              Talent Management were also measured. The Leadership index
      Benefit       agency is being operated in a transparent and fiscally                           target was 55 percent and we received a rating of 58 percent,
                    responsible manner and that our human resources                                  exceeding the target by 3 percent. The Talent Management index
                    management system is legally compliant with merit
                    systems principles, adheres to veterans’ preference rules                        target was 58 percent, and we received a rating of 58 percent,
                    and maintains an internal system of accountability. The                          which met our annual target. This yields an overall actual result
                    public also benefits by knowing that our human resource                          of 91.6 percent [(100 X .4) + (100 X .4) + (58 X .1) + (58 X .1)].
                    practices, programs and policies position us to compete
                    for the best and brightest talent to ensure a safe, efficient,                   While we have received an unmodified audit opinion with
                    and responsive air transportation system for the flying
                    public.                                                                          no material weaknesses for FY 2013, the results of the other
                                                                                                     components that make up this measure are not available at this
                                                                                                     time. Therefore, we are unable to report on our overall level of
     This performance measure was established to determine                                           success in achieving this performance measure. The final FY 2013
     whether the FAA is successful in the areas of financial                                         result will be included in our FY 2014 PAR.
     management and human resource management. Four indicators
     are used to assess our success rate:
                                                                                                                                   Outside Ratings
      ¢¢   Receive annual unmodified audit opinions with no material                                           90% success rate in the areas of financial management
                                                                                                                   and human resources management achieved
           weaknesses.
                                                                                                                            FY 2011              FY 2012               FY 2013
      ¢¢   Maintain the competitive status of all FAA employees within
                                                                                                      Actual                                      91.6%                  TBD1
           the federal personnel system. Whether the agency has met                                                     This was a new
                                                                                                      Target                                       90%                   90%
           this criterion is determined by an independent, biennial OPM                                                   measure in
                                                                                                      Target                FY 2012                 ✓                    TBD1
           assessment and audit of the FAA’s personnel management                                     Achieved?
           system, policies, and practices.                                                           1 The results for this performance measure are not available at this time.
      ¢¢   Improve the FAA’s “effective leadership” index score on the
           OPM Employee Viewpoint Survey by 8 percent.




56   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
3 	 DELIVERING AVIATION ACCESS THROUGH INNOVATION
   Enhance the flying experience of the traveling public and other users by improved access to and increased capacity
   of the nation’s aviation system. Ensure airport and airspace capacity are more efficient, predictable, cost-effective and
   matched to public needs.

    FY 2013 AVIATION ACCESS PERFORMANCE MEASURES AND RESULTS
                                                                                                      FY 2013            FY 2013             FY 2013         FY 2014
    Performance Measure                                                                                Target            Results             Status           Target
    Air Traffic Control Systems Improve the Efficiency of Airspace*                                        11                 8                 ✘               N/A
     By September 30, 2013, replace a 40-year old computer system serving 20 air traffic
     control centers with a modern, automated system that tracks and displays information on
     high altitude planes.
    Major System Investments                                                                               90%              90%                 ✓              90%
     In FY 2013, maintain 90 percent of major system investments within 10 percent variance
     of current acquisition program baseline at completion.
    LPV or LP Procedures                                                                                   500              469                 ✘               400
     Publish 500 LPV or LP procedures in FY 2013 to ensure Localizer Performance (LP) or
     Localizer Performance w/Vertical (LPV) procedures are available at 3,800 runways in the
     national airspace system.

     * This performance measure supports a DOT Agency Priority Goal.                                       ✓ Target met                         ✘ Target not met




                                                                                                                                                                              PERFORMANCE
                                                                                                                                                                                 RESULT S




                                                                         Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   57
      OBJECTIVE: NextGen Capabilities Are Fully Implemented and Utilized Based on U.S. Aviation
                 Community System Needs

     Air Traffic Control Systems Improve the
     Efficiency of Airspace
      By September 30, 2013, achieve initial operating capability                                    implementation challenges, the program was rebaselined in
      (IOC) on ERAM at all 20 air route traffic control centers                                      June 2011. Under this new plan, IOC was achieved at 9 of the
      (ARTCCs).                                                                                      20 ERAM sites prior to 2013. The remaining 11 ERAM sites were
      FY 2013       By September 30, 2013, achieve IOC on ERAM at 11                                 scheduled for IOC by the end of FY 2013, but the target was not
      Target        ARTCCs.                                                                          achieved for a number of reasons.
      FY 2013       8
      Result                                                                                         Since the rebaseline, the ERAM Program Office has undertaken a
      Public        With the establishment of this metric, expanding capacity                        series of management initiatives to help get the program back on
      Benefit       and reducing costs will play an important role in improving                      track. These include addressing contractual, strategic, structural,
                    the economic returns from our transportation system.                             process, personnel, and incentive aspects of the program’s
                    In the decade between 1998 and 2008, total airline
                                                                                                     overall approach. A centerpiece of these improvement initiatives
                    passenger traffic rose 13 percent in U.S. domestic markets
                    and 47 percent in the international arena, despite the                           has been the collaborative approach taken by the ERAM office in
                    impacts of the September 11, 2001, terrorist attacks and                         working with its union partners, the National Air Traffic Controller
                    the more recent global recession. As domestic and world                          Association and the Professional Aviation Safety Specialists.
                    economies recover, U.S. airline passenger demand is
                    expected to increase and approach a growth rate of 3-4
                    percent annually.
                                                                                                     However, due to sequestration, we were unable to achieve our
                                                                                                     target. Immediately prior to sequestration, the controllers who
      This performance measure supports a DOT Agency Priority Goal.
                                                                                                     serve as subject matter experts on ERAM implementation teams
                                                                                                     were recalled to their home facilities to ensure their readiness to
     The En Route Automation Modernization (ERAM) System is                                          resume their controller duties prior to the initiation of employee
     central to our ability to transform our nation’s airspace from                                  furloughs. During this time, many of the ongoing implementation
     radar-based to satellite-based operations. ERAM replaces the                                    activities at remaining sites came to a halt as the FAA focused on
     1970s era “Central Computer Complex HOST” used at ARTCCs                                        ensuring the safe and efficient operation of the air traffic control
     around the country to guide airplanes flying at high altitudes.                                 system at facilities around the country.
     The new system allows us to maximize the use of airspace,
     substantially increasing the number of flights that can be tracked                              After Congress enacted legislation that allowed the FAA to
     and displayed. The new system also offers enhanced back-up                                      transfer funds from its Airport account to its Operations account,
     capability.                                                                                     the agency was able to quickly end all employee furloughs. A
                                                                                                     high priority after employee furloughs ended was to reengage
     Further software development will make ERAM a foundation of                                     the ERAM implementation teams, which FAA accomplished in
     important NextGen capabilities, such as Data Communications                                     coordination with the controller’s union. However, due to other
     (Data Comm), a data link system that enables the automated                                      budget reductions, training was not available and a decision was
     exchange of pre-departure and en route clearance information                                    made to defer initial operations at remaining sites until after
     between aircraft and controllers; and System Wide Information                                   the busy summer months. As such, three of the IOCs were not
     Management (SWIM), an open, flexible, and secure information                                    completed in FY 2013 as planned. The program will continue until
     management architecture using commercial off-the-shelf                                          all sites are fully operational. The delay will cause an increase in
     hardware and software to share national airspace system advisory                                the cost of the program.
     data and enable increased common situational awareness and
     improved system agility.                                                                        Before 2013, ERAM was operating at the following centers:
                                                                                                      ¢¢   Salt Lake City, UT            ¢¢   Denver, CO
     We had originally planned to complete ERAM by December                                           ¢¢   Seattle, WA                   ¢¢   Albuquerque, NM
     2010. Due to software development and testing issues and




58   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
ERAM (En Route Automation Modernization) system monitor and control consoles. Photo: FAA.



 ¢¢   Minneapolis, MN               ¢¢   Los Angeles, CA                                   Air Traffic Control Systems Can Improve
 ¢¢   Chicago, IL                   ¢¢   Houston, TX                                              the Efficiency of Airspace
                                                                                               Replace a 40-year old computer system
 ¢¢   Oakland, CA                                                                               serving 20 air traffic control centers

                                                                                                         FY 2011                 FY 2012              FY 2013
In FY 2013, we achieved IOC at the following centers:
                                                                             Actual                         2                       7                     8
 ¢¢   Kansas City, MO               ¢¢   Cleveland, OH
 ¢¢   Boston, MA                    ¢¢   Washington, DC                      Target1                        2                       7                    11
 ¢¢   Indianapolis, IN              ¢¢   Memphis, TN                         Target                        ✓                        ✓                    ✘
                                                                             Achieved?
 ¢¢   New York, NY                  ¢¢   Ft. Worth, TX
                                                                             1 The number represents annual targets needed to achieve a cumulative
                                                                               target of implementing IOC at all 20 ERAM sites by the end of FY 2013. The
The following centers will achieve IOC in FY 2014:                             cumulative target in FY 2012 was 9, and the cumulative target in FY 2013
                                                                               was 20, which was not achieved. As of September 30, 2013, 17 have been
 ¢¢   Atlanta, GA                   ¢¢   Miami, FL                             achieved.
 ¢¢   Jacksonville, FL
                                                                                                                                                                         PERFORMANCE
                                                                                                                                                                            RESULT S




Since December 2011, ERAM has accumulated more than
123,000 hours of operational run time, which amounts to more
than 14 years of consecutive operation.

More information on ERAM can be found at www.faa.gov/
air_traffic/technology/eram.




                                                                   Federal Aviation Administration   |    Fiscal Year 2013   |   Performance and Accountability Report   59
     Major System Investments
      Maintain 90 percent of major system investments within 10                                      2, or 3, and are considered major investments. The FAA tracks
      percent variance of current acquisition program baseline                                       and reports the status of each program’s acquisition program
      at completion.                                                                                 baseline, using an automated database. The data are used to
      FY 2013       90 percent of major baselined acquisition programs                               convey program status and performance information to senior
      Target        must be maintained within 10 percent of their current                            executives for purposes of program reporting and periodic
                    acquisition cost, schedule and technical performance
                                                                                                     reviews.
                    baseline as of the end of fiscal year 2013.
      FY 2013       90%                                                                              Choosing to report on this measure ensures continuity
      Result
                                                                                                     and consistency with the Air Traffic Management System
      Public        FAA’s ability to keep acquisitions within budget, schedule                       Performance Improvement Act of 1996. This act requires the
      Benefit       and performance will allow for a timely transition to
                                                                                                     FAA Administrator to terminate programs that are funded
                    NextGen programs. The transition to NextGen involves
                    acquiring numerous systems to support precision satellite                        from Facilities and Equipment appropriations and that have
                    navigation; digital, networked communications; integrated                        variances of 50 percent or greater for cost, schedule, or
                    weather information; layered, adaptive security; and more.                       technical performance, unless the Administrator determines
                                                                                                     that termination would be inconsistent with the development or
     This target measures the FAA’s ability to stay within a 10 percent                              operation of the national airspace system in a safe and efficient
     variance of its budget, schedule, and technical performance with                                manner. In addition, the law requires the FAA Administrator to
     regard to major system investments in support of the ongoing                                    consider terminating any substantial acquisition that has cost,
     transition to NextGen, a comprehensive overhaul of our nation’s                                 schedule, or performance variances of 10 percent or greater.
     airspace system to make air travel more convenient, dependable
                                                                                                     In FY 2013, we were unable to meet the targets for two
     and safe. It involves the acquisition of numerous systems, tools,
                                                                                                     programs: Runway Status Lights and Logistics Center Support
     and pieces of equipment to support precision-based satellite
                                                                                                     System. We did, however, achieve the overall target by
     navigation, networked digital communications, integrated
                                                                                                     maintaining 90 percent of the major system investments being
     weather information, and improved security. Our ability to make
                                                                                                     tracked (18 of 20 programs) within 10 percent variance of their
     the relevant major system investments in an efficient and cost-
                                                                                                     approved acquisition program baseline total budget, schedule,
     effective manner is critical to the implementation of NextGen.
                                                                                                     and technical performance at completion.
     The FAA has established acquisition categories (ACATs) within
     the Acquisition Management System that governs major system                                                          Major System Investments
     investments. Within these categories, the following criteria                                         Maintain 90 percent of major system investments within baseline

     are applied to determine the ACAT level of each acquisition:                                                         FY 2011            FY 2012           FY 2013
     1) lifecycle costs and annual costs; 2) political sensitivity; 3) risk                           Actual                                  100%               90%
                                                                                                                       This was a new
     level; 4) complexity; and 5) likelihood of changes in the safety of                              Target                                  90%                90%
                                                                                                                         measure in
     the nation’s airspace. Programs that have lifecycle costs greater                                Target               FY 2012             ✓                 ✓
     than $100 million or that are classified with a medium or high                                   Achieved?
     rating in any of the criteria are assigned an ACAT level of 1,




60   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 OBJECTIVE: Safety, Airport Infrastructure and Environmental Issues Are Advanced and Leveraged by
            Full Utilization of NextGen Capabilities

LPV or LP Procedures
 Ensure Localizer Performance with Vertical Guidance (LPV)                     Two of the FAA’s top goals are increased aircraft safety and
 or Localizer Performance (LP) procedures are available at                     greater air traffic capacity in a defined airspace. WAAS provides
 5,218 runways in the national airspace system by 2018.                        for both, along with other significant benefits:
 FY 2013   Publish 500 LPV or LP procedures in FY 2013 to ensure
 Target
                                                                                 ¢¢   More vertically-guided approach procedures, which are safer
           Localizer Performance (LP) or Localizer Performance with
           Vertical (LPV) procedures are available at over 3,800                      than those without vertical-guidance
           runways in the national airspace system.                              ¢¢   More flexible approach and departure routings, which
 FY 2013   469                                                                        will cut arrival times as well as enhance safety and noise
 Result
                                                                                      abatement
 Public    Vertically guided approach procedures provide a safety
 Benefit   benefit to all users compared to non-precision approach
                                                                                 ¢¢   More direct, fuel-efficient and timely routings through the air
           services. In addition because LPV or LP procedures can                     traffic control system
           be published at any qualifying runway, users obtain a
           significant access benefit over Instrument Landing System
                                                                                 ¢¢   Significant government cost savings due to the elimination
           (ILS). As of July 2011, there are twice as many LPV/LP                     of maintenance costs associated with older, more expensive
           procedures as ILS procedures.                                              ground-based navigation aids
                                                                                 ¢¢   No additional runway infrastructure required
The FAA continues to deploy procedures that improve access
to many GA airports in almost all weather conditions. Localizer                In FY 2013, with 469 LPV and LP procedures published, we did
Performance with Vertical Guidance (LPV) and Localizer                         not meet our goal of publishing 500 procedures in 2013. To date,
Performance (LP) procedures are enhanced performance,                          we have published 3,822 procedures at more than 1,838 airports.
precision-guided Global Positioning System (GPS) approaches,                   Of the procedures published so far, more than half are at GA and
made even more accurate by the use of Wide Area Augmentation                   regional airports that have no ILS, so the new procedures are a
System (WAAS) signals.                                                         huge boon to these airports. The agency plans to provide for as
                                                                               many as 5,218 LPV-facilitated and LP-facilitated runways in the
Pilots fly into airports with the guidance of either ground-based              national airspace system by 2018.
navigational aids such as ILS or satellite-based navigation,
i.e., GPS. The FAA must develop new approach procedures for                                                    LPV or LP Procedures
an airport before an aircraft can use WAAS. These approach                            Ensure Localizer Performance (LP) procedures are available at
                                                                                                runways in the national airspace system
procedures are called LPVs. For the past 60 years, the Category-1
ILS has been used at airports throughout the national airspace                                               FY 2011                 FY 2012              FY 2013
system to guide aircraft to as low as 200 feet above the runway                  Actual                                                536                   469
                                                                                                    This was a new
surface.                                                                         Target
                                                                                                      measure in
                                                                                                                                       500                   500
                                                                                 Target                 FY 2012                         ✓                    ✘
Unlike ILS technology, WAAS provides the same capability but                     Achieved?
without the need for infrastructure at each runway end. WAAS
has enabled a new LP approach which provides the same lateral
                                                                                                                                                                             PERFORMANCE



accuracy as LPV, but without the vertical guidance.
                                                                                                                                                                                RESULT S




                                                                       Federal Aviation Administration   |    Fiscal Year 2013   |   Performance and Accountability Report   61
     4 	 SUSTAINING OUR FUTURE
        To develop and operate an aviation system that reduces aviation’s environmental and energy impacts to a level that does
        not constrain growth and is a model for sustainability.

         FY 2013 SUSTAINING OUR FUTURE PERFORMANCE MEASURES AND RESULTS
                                                                                                             FY 2013      FY 2013     FY 2013        FY 2014
         Performance Measure                                                                                  Target      Results     Status          Target
         Noise Exposure                                                                                      371,000      321,000        ✓           356,000
          Reduce the number of people exposed to significant aircraft noise to less than 371,000 in
          calendar year 2013.
         National Airspace System Energy Efficiency                                                          -16.00%      -15.61%        ✘           -18.00%
          Improve aviation fuel efficiency by 16 percent, as measured by the calendar year 2010
          fuel burned per revenue mile flown, relative to the calendar year 2000 baseline.
                                                                                                               ✓ Target met              ✘ Target not met




        Travelers make their way through the busy airport security check at Denver International Airport, Denver, Colorado. Photo: Bigstock.com.




62      Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 OBJECTIVE: Community Noise Concerns Are Not a Significant Constraint on Growth

Noise Exposure
 The U.S. population exposed to significant aircraft noise                      measures, and land use planning strategies. While the FAA
 around airports has been reduced to less than 300,000                          is authorized to provide funds for airport noise compatibility
 persons.                                                                       projects, each project must be locally sponsored by the airport
 FY 2013   Reduce the number of people exposed to significant                   responsible for the noise and then approved by the FAA.
 Target    aircraft noise to less than 371,000 in calendar year 2013.
                                                                                In addition, the FAA’s Continuous Lower Energy, Emissions, and
 FY 2013   321,000
 Result                                                                         Noise (CLEEN) program, along with FAA collaborations with the
 Public    Public benefit is reduced exposure to unwanted aircraft              National Aeronautics and Space Administration (NASA) and
 Benefit   noise and increased capacity, reducing airport congestion            the Department of Defense, can speed the introduction of new,
           and delays.                                                          quieter aircraft technologies into the aircraft fleet.

                                                                                Continued success in this performance metric will require
Aircraft noise remains one of the most significant environmental                partnership and the sharing of responsibilities among many
challenges facing airlines and airports as they seek to grow                    stakeholders. Air carriers will need to operate quieter aircraft
their capacity. By mitigating and reducing exposure to noise, the               that run on cleaner fuel; airports will need to provide good
FAA can promote community acceptance of airport expansion                       planning and local environmental mitigation measures; air traffic
and enable capacity growth in an environmentally-responsible                    management will need to facilitate environmentally-friendly
manner.                                                                         flight procedures; federal programs and investments will need to
The number of people exposed to significant noise levels was                    move in the direction of supporting the necessary environmental
reduced by approximately 96 percent between 1975 and 2012.                      mitigation technology and operational improvements; and local
This was due primarily to the legislatively-mandated transition                 governments will need to ensure compatible land use around
of airplane fleets to newer generation aircraft that produce less               airports. The FAA is committed to working with all stakeholders
noise. Most of the gains from quieter aircraft were achieved by                 to find the right balance to manage capacity growth in an
FY 2000. The remaining problem must be addressed primarily                      environmentally sound manner.
through airport-specific noise compatibility programs along with
reduction of aircraft noise at the source. With the use of these                                                        Noise Exposure
                                                                                                  Number of people exposed to significant aircraft noise
strategies, we achieved our FY 2013 noise exposure goal.
                                                                                                  500,000
The goal of achieving a reduction in the number of people
exposed to significant aviation noise requires a robust and                                       450,000
multi-faceted environmental program that develops and invests
                                                                                     POPULATION




in new technologies, takes advantage of operational advances,                                     400,000

and includes effective policies and investments.
                                                                                                  350,000

By continuing to develop NextGen technologies that offer a broad
array of noise mitigation approaches, the FAA can decrease                                        300,000

aviation noise exposure.
                                                                                                                                                                                                  PERFORMANCE


                                                                                                  250,000
                                                                                                            FY 2008    FY 2009   FY 2010      FY 2011   FY 2012    FY 2013
                                                                                                                                                                                                     RESULT S




In cooperation with the aviation community and local                                              Actual    383,465   291,768    317,596      315,293   315,000    321,000
                                                                                                  Target    455,000   436,000    419,000      402,000   386,000    371,000
governments, the FAA pursues such measures as source noise                                       Target
reduction, soundproofing, buyouts of homes and other noise-                                   Achieved?                                                           
sensitive buildings near airports, operational flight control                                                                                                                     1 For FY 2012, targets and resu
                                                                                                                                                                                    number of persons exposed.
                                                                                                                                                                                    recalculated from the origina
                                                                                                                                                                                    were revised to reflect newl
                                                                                                                                                                                    the Airport Improvement Pro
                                                                                                                                                                                  2 Preliminary estimate based o
                                                                                                                                                                                    based on actual 2012 operat




                                                                        Federal Aviation Administration        |   Fiscal Year 2013   |   Performance and Accountability Report                 63
      OBJECTIVE: Improve the Energy Efficiency of the National Airspace System

     National Airspace System Energy Efficiency
      Improve national airspace system energy efficiency (fuel                                       With the continued increase in air traffic that outpaced fleet
      burned per miles flown) by at least 2 percent annually.                                        technological improvements, the system’s energy efficiency
      FY 2013       Improve aviation fuel efficiency by at least 2 percent per                       started leveling off in 2007. This trend has continued to the
      Target        year, through FY 2025, as measured by the calendar year                          present. While it is difficult to determine the exact cause of not
                    2012 fuel burned per miles flown, relative to the calendar                       meeting our FY 2013 energy efficiency target, a combination of
                    year 2000 baseline.
                                                                                                     factors in the overall system contributed to our inability to meet
      FY 2013       -15.61                                                                           this annual goal.
      Result
      Public        Today’s aircraft are up to 70 percent more efficient in fuel                     The existing metric of fuel burn per distance flown does not take
      Benefit       use than early commercial jet aircraft. However, there is                        into account the revenue payload moved within the system, an
                    growing concern over aviation’s impact on the environment
                    and public health. Aviation is currently viewed as a
                                                                                                     important factor in calculating energy efficiency. A new metric
                    relatively small contributor to those emissions that have                        that incorporates this factor is being developed and benchmarked
                    the potential to influence air quality and global climate.                       on an annual basis relative to the current FY 2001 baseline.
                    Carbon dioxide emissions are a primary greenhouse gas
                                                                                                     Analysis of historical trends for this new payload-based metric
                    and are directly related to the fuel burned during the
                    aircraft’s operation. As air traffic grows, this contribution                    will help determine the continued applicability of the two percent
                    will increase without improvements in technology, more                           per year energy efficiency improvement target.
                    efficient air traffic operations, and renewable fuels.
                    This measure supports the development of these                                   In FY 2013, we missed achieving the energy efficiency
                    improvements to reduce aviation’s impact on the                                  performance target by 0.39 percent. Our annual target called
                    environment and thereby improve public health and
                    welfare. In addition, more fuel efficient aircraft should
                                                                                                     for achieving a 16 percent cumulative improvement in system
                    contribute to improving the financial well-being of                              energy efficiency over the base FY 2001 period; we only achieved
                    commercial airlines and a growing economy.                                       a 15.61 percent improvement. However, over the past 20 years,
                                                                                                     improvements in aircraft energy efficiency have enabled aviation
                                                                                                     to outpace other forms of transportation in the United States.
     As a result of monitoring improvements in aircraft and
                                                                                                     The development and deployment of NextGen technologies allow
     engine technology, as well as operational procedures and
                                                                                                     us to continue to make improvements in the national airspace
     enhancements, the FAA is able to track and measure aircraft
     fuel efficiency in the national airspace system. In FY 2013, we
     continued to make progress in maintaining efficient commercial
     aircraft operations, thereby minimizing environmental and public                                                National Airspace System Energy Efficiency
                                                                                                                      Cumulative percentage reduction from baseline
     health impacts. However, the progress was not enough to meet
     or exceed our FY 2013 energy efficiency target.                                                                   -5


     National airspace system energy efficiency is heavily dependent
     upon commercial airline operating procedures and day-to-day                                                      -10
     operational conditions. Factors affecting efficiency include
                                                                                                           PERCENT




     the condition of airlines’ operating fleets and their route
     assignments, air traffic conditions, weather, airport operating                                                  -15
     status, congestion in the system, and any disruptions that
     introduce delay in scheduled flights. For example, a major
     sustained disruption, a significant shift in commercial airline                                                  -20
                                                                                                                            FY 2008   FY 2009   FY 2010   FY 2011   FY 2012   FY 2013
     operations, such as changes in fleet composition and missions, or                                           Actual      -13.52    -14.03    -15.25    -14.50    -14.76    -15.61
     even a change in air traffic management could have a profound                                               Target       -8.00     -9.00    -10.00    -12.00    -14.00    -16.00
     impact upon our ability to achieve this performance target.                                             Target
                                                                                                          Achieved?                                                          



64   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
system’s energy efficiency. Air traffic modernization is reducing              Advances in the development of sustainable alternative fuels
delays and enabling more direct routes, thus saving fuel.                      also offer great promise for emissions reduction. Nearly 100
                                                                               percent of the fuel used in aviation operations is petroleum-
In addition, the FAA’s Continuous Lower Energy, Emissions                      based, raising issues of energy supply, energy security, and
and Noise (CLEEN) program is accelerating the development                      the effect of fossil fuel emissions on our air quality and
of energy-efficient technologies. These will be deployed to                    climate. In response to these multiple concerns, government
the commercial fleet sooner than normal market forces would                    and the aviation industry have a strong interest in alternative
allow. The program aims to introduce CLEEN technologies into                   aviation fuels that can be blended with or replace petroleum
production aircraft in the 2015-2017 timeframe.                                jet fuel without changes to existing engines, aircraft, ground
                                                                               infrastructure, or supply equipment.




THE FAA INTENSIFIES ITS STUDY OF ALTERNATIVE FUELS
The FAA intensified its study of less polluting aircraft fuel in                   environmental and energy goals of NextGen. Headquartered in
FY 2013. Once developed, alternative fuels will reduce airplane                    Richland, WA, the COE will focus on developing drop-in biofuels
carbon emissions and make aviation more economically and                           that meet industry standards and are cost-competitive with
environmentally sustainable.                                                       petroleum-based fuels. The FAA’s COE programs are cost-sharing
•	 As part of NextGen’s CLEEN program, the FAA is conducting rig                   research partnerships between academia, industry, and the
   and engine tests of promising alternatives to petroleum-based jet               federal government.
   fuels. The goal is to develop “drop-in” alternative jet fuels that
   can be used in existing aircraft, without requiring installation of
   new engines or creation of new airplane types.
•	 The General Aviation (GA) community is also searching for an
   environmentally-friendly fuel alternative. Most of the community
   runs on avgas (aviation gasoline), an anti-knock mixture whose
   lead content has raised public health concerns. The FAA’s Fuels
   Program Office, created in 2012, is working with the agency’s
   William J. Hughes Technical Center and industry partners on
   developing a high-quality, lead-free alternative GA fuel.
•	 In February 2013, the FAA and the Spanish Aviation Safety and
   Security Agency (AESA) signed a Declaration of Cooperation to
   promote the development and use of sustainable alternative
   aviation fuels in the United States and Spain. The declaration,
   like others that the United States has signed with Australia, Brazil,
   and Germany, enables the FAA’s Office of Environment and Energy
   to explore cooperation in areas such as research on the life-cycle
   effects of alternative fuel emissions on the atmosphere and best
   practices on alternative jet fuel testing and approvals.
•	 In April 2013, the U.S. Department of Agriculture extended for five
   years its “Farm to Fly” agreement to work with the FAA and other
   partners to develop biofuel from renewable feedstocks. This will
                                                                                                                                                                            PERFORMANCE


   create jobs and economic opportunity from the farm to the airport
                                                                                                                                                                               RESULT S




   and lessen America’s reliance on foreign oil. The goal: production
   of one billion gallons of drop-in aviation biofuel by 2018.
•	 In September 2013, the FAA announced formation of its newest
   center of excellence (COE), devoted to researching the effects of               Aviation Fuel and Engine Test Facility for the Lycoming Piston Engine.
   alternative jet fuels on the environment, as part of meeting the                Photo: FAA.




                                                                       Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   65
     5	      IMPROVED GLOBAL PERFORMANCE THROUGH COLLABORATION
          Achieve enhanced safety, efficiency, and sustainability of aviation around the world. Provide leadership in collaborative
          standard setting and creation of a seamless global aviation system.

           FY 2013 GLOBAL PERFORMANCE MEASURES AND RESULTS
                                                                                                                FY 2013    FY 2013     FY 2013    FY 2014
           Performance Measure                                                                                   Target    Results     Status      Target
           World-wide Fatal Aviation Accidents                                                                    20             121     ✓            21
            In FY 2013, limit world-wide fatal accidents in Part 121-like operations to no more than 20 fatal
            accidents per million revenue aircraft departures.

           1 Preliminary estimate until the final result becomes available when ICAO updates their world-wide     ✓ Target met           ✘ Target not met
             departure data in July 2014.




          Photo: Bigstock.com.




66        Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 OBJECTIVE: Reduce Aviation Accidents and Fatalities World-wide

World-wide Fatal Aviation Accidents
 By 2018, the world-wide fatal aviation accident rate                                  initiatives, technical assistance, and safety data sharing with
 declines 10 percent compared to 2010.                                                 international partners are all positive outcomes of global aviation
 FY 2013    Limit the world-wide fatal accident rates in Part 121-like                 cooperation. But the current fiscal climate negatively impacting
 Target     operations to no more than 0.65 fatal accidents per million                our agency’s budget may limit our outreach and interaction with
            revenue aircraft departures. This equates to 20 fatal                      key partners. That could hinder further global harmonization
            accidents for FY 2013.
                                                                                       with FAA policies. A continued negative trend could threaten
 FY 2013    12                                                                         the FAA’s international leadership and result in a global aviation
 Result     Preliminary estimate until the final result becomes available in           environment less aligned with U.S. interests.
            July 2014 when the ICAO updates their world-wide departure
            data.
                                                                                       At present, we are proud that we continue close and consistent
 Public     The public will benefit from safer travel on foreign air                   collaboration with other countries. Here are a few examples of
 Benefit    carriers and from the economic contributions of a safe
            international aviation system.                                             our many efforts:
                                                                                         ¢¢   As part of a continued commitment to further streamline
                                                                                              and grow the exchange of aviation products under the
A safe, efficient, and seamless aviation system is the ultimate
                                                                                              European Union Aviation Safety Agreement (EASA), the FAA
goal of international air transportation. Increased public
                                                                                              recently approved revision 3 of the Technical Implementation
confidence in air transportation world-wide will result in an
                                                                                              Procedure to further promote U.S. and EASA coordination of
increase in passenger traffic. The FAA’s recognition as a global
                                                                                              aircraft requirements in the areas of design, production, and
leader in air safety enables it to influence safety goals in the
                                                                                              airworthiness.
international arena. In turn, international air safety is a driver of
economic growth and expansion, opportunity, and development                              ¢¢   The FAA initiated a pilot program with Mexico’s Directorate
throughout the world.                                                                         General of Civil Aviation involving joint aviation supplier
                                                                                              audit exercises. This will eventually lead to Mexican
This performance metric tracks non-U.S. commercial aviation                                   authorities’ support of FAA audits of facilities in Mexico, in
fatalities around the globe, including any non-U.S. carrier                                   accordance with our bilateral agreement.
fatalities that occurred on U.S. soil, such as the Asiana Airlines
                                                                                         ¢¢   The FAA is collaborating with the Singapore aviation
crash in San Francisco in July of this year. In FY 2013, with a
                                                                                              authorities and an affiliated training academy to offer
preliminary result of 12 fatal accidents, we achieved our target.
                                                                                              regional, targeted, aviation-safety training at a central
The final result will not be available until July 2015.
                                                                                              location in the Asia Pacific region.
Achieving an increasingly safe global air transportation                                 ¢¢   The FAA continues to work closely with the ICAO to
environment is a challenge. Many countries and regions around                                 promote world-wide aviation and airport safety. The FAA
the world have competing priorities, insufficient resources,                                  participated in ICAO Regional Runway Safety Seminars in
unstable political and economic environments, or diverging                                    Morocco, Antigua, and Malaysia. At the seminars, the FAA
approaches to legislative and regulatory requirements. All of                                 provided information on the use of Runway Safety Action
these—which are beyond the direct influence of the FAA or                                     Teams (RSATs) to reduce runway incursions, and the need to
the aviation community—can affect global civil aviation safety                                implement effective airport certification programs, improve
                                                                                                                                                                                    PERFORMANCE


outcomes.                                                                                     runway safety areas, and implement mitigation measures to
                                                                                                                                                                                       RESULT S




                                                                                              reduce the risk of bird strikes.
Increased implementation of advances in avionics, structures,
and human factors, as well as continued operational safety




                                                                               Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   67
     Oversight authorities, including the Office of the Inspector                                                    World-Wide Fatal Aviation Accidents
     General (OIG) and the Government Accountability Office (GAO),                                         World-wide fatal aviation accident rate declines 10 percent
     request detailed documentation of FAA performance measure                                                              FY 2011               FY 2012               FY 2013
     results from our external sources. We provide internal data                                      Actual                                          10                    122
     verification review reports to these authorities to demonstrate                                                    This was a new
                                                                                                      Target                                          191                   20
     that the FAA is committed to aviation excellence and enhanced                                                        measure in
                                                                                                      Target                FY 2012                   ✓                     ✓
     safety around the world.                                                                         Achieved?
                                                                                                      1 Target recalculated from original target of 20 due to finalization of projected
                                                                                                        departure data.
                                                                                                      2 Preliminary estimate until final result becomes available in July 2014 when
                                                                                                        ICAO updates their world-wide departure data. We do not expect any
                                                                                                        change in the result to be significant enough to change the year-end status
                                                                                                        of achieving the target.




     Boeing 777 Asiana Airlines Flight 214 being investigated by the NTSB after crash landing at San Francisco Airport on July 6, 2013. Photo: iStock.com.




68   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
QUALITY ASSURANCE
VERIFICATION AND VALIDATION OF                                             PROGRAM EVALUATIONS
PERFORMANCE INFORMATION                                                    Program evaluation is a major requirement of the Government
We employ strong management controls to ensure the accuracy,               Performance and Results Modernization Act of 2010. The statute
completeness, and timely reporting of performance data. Thanks             calls for agencies to use program evaluations to assess the
to rigorous internal and external reviews, the FAA verification            manner and extent to which federal programs achieve intended
and validation process produces performance results that enjoy             objectives. While performance measures use statistics to show
the confidence of agency managers and the Administrator.                   whether the FAA has achieved its intended outcomes, program
                                                                           evaluations use analytical techniques to assess the extent to
In addition to internal verification and review by the FAA,                which programs contributed to their desired outcomes and
performance data is independently verified by the Department               trends. Understanding the results of these program evaluations
of Transportation. Moreover, data for the incidents that are               enables us to initiate actions to improve program performance.
included in several FAA safety performance measures, such as               Program evaluations or assessments are conducted by
the Commercial Air Carrier Fatality Rate and the General Aviation          contractors, academic institutions, the OIG, and the GAO.
Fatal Accident Rate, require independent verification by the
NTSB and the Bureau of Transportation Statistics. Data for these           In FY 2013, the FAA’s Office of Airports completed a program
measures are not considered final until the NTSB completes its             evaluation of the environmental streamlining process
report on each incident.                                                   implemented by the FAA in response to Title III of the Vision
                                                                           100—Century of Aviation Reauthorization Act. Title III calls for
                                                                           prioritization of certain airport capacity, airport safety, and airport
COMPLETENESS AND RELIABILITY OF                                            security projects for expedited and coordinated environmental
                                                                           review in compliance with the National Environmental Policy
PERFORMANCE DATA                                                           Act of 1969. Following FAA approval of an evaluation plan, the
The agency’s internal review processes support the integrity               evaluation was conducted independently by a firm with expertise
of performance data. At the beginning of each fiscal year, we              in environmental streamlining.
update the performance measure profiles, a clearinghouse
for accurate and detailed documentation of our performance                 The evaluation concluded that the FAA’s environmental
measures. An exhaustive report includes technical definitions              streamlining process has resulted in the successful prioritization
for each measure, as well as data source information, statistical          of key airport projects. These actions have included successful
issues, and completeness and reliability statements. Where the             stakeholder coordination and an excellent public involvement
criteria for targets have changed, it is noted and the changes             process. The evaluation also highlighted several opportunities
are explained (see www.faa.gov/about/plans_reports/                        for improvement. This resulted in 17 recommendations that could
performance_profiles to review the FY 2013 Performance                     improve Vision 100 environmental streamlining. Four of these
Measure Profiles).                                                         are best practices from other modal administrations that could
                                                                           be successfully applied to the FAA’s streamlined environmental
To supplement the performance measure profiles, the agency                 reviews. In FY 2014, the FAA will evaluate the recommendations,
conducts its own annual internal review of the verification                and identify and implement any actions that could improve the
processes used by all FAA organizations responsible for                    process.
                                                                                                                                                                        PERFORMANCE


collecting and reporting performance data. The agency’s full
                                                                                                                                                                           RESULT S




understanding of these processes allows it to provide complete
and definitive documentation of results, as required by auditors
at the end of the year.




                                                                   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   69
     FINANCIAL RESULTS



70
                                       A MESSAGE from the
                                       CHIEF FINANCIAL OFFICER

Mark House
Chief Financial Officer



This year, the Federal Aviation Administration continued to fulfill its primary mission of running the safest and most efficient
airspace in the world, despite an extremely challenging budget environment. The FAA provides a direct service to the public,
operating a huge, diverse, and complex system of equipment, facilities, and technologies that we call the national airspace
system. Most of our operating costs go toward staffing, operating, and maintaining the system. Budget cuts therefore have a
detrimental impact on the efficient operation of that system, while simultaneously hindering our ability to staff for our future
growth, invest in new equipment and technology, and repair our existing equipment and facilities. The cuts also jeopardize the
$1.3 trillion in economic activity and 10 million jobs that the aviation industry brings to our country.


Sequestration
The sequestration of more than $600 million from our FY 2013 budget, mandated by the Budget Control Act of 2011,
necessitated a reevaluation of our critical priorities, difficult cost-cutting measures, and a review of our business model for
providing services to the American public.

More than 70 percent of our operating costs are used to cover the salaries of our workforce—those serving the flying public,
including, for example, air traffic controllers and aviation inspectors. Thus, it is particularly challenging to reduce Operations
spending to the extent required by sequestration without correspondingly impacting the very workforce that serves the flying
public. To ensure that our top priority—aviation safety—was not compromised in this environment, we invested a tremendous
amount of time and resources in planning for the budget sequester. This included mining historical financial data; developing
alternative spending scenarios; and presenting realistic, data-driven options to support difficult decisions about spending.

As a result of these efforts, we implemented severe hiring restrictions and significantly reduced spending in non-pay areas
such as contracts, travel, training, and other day-to-day expenses. Considering the decreased purchasing power resulting from
inflation, we have substantially reduced our non-pay Operations spending by about 10 percent from FY 2010 levels. In response
to sequestration, we also adjusted the schedules of our highest priority capital projects—including the En Route Automation
and Modernization (ERAM) platform, foundational for our Next Generation Air Transportation System (NextGen) program—to
                                                                                                                                                                   FINANCI AL RE SULTS


conserve funding.

Still, those reductions were not sufficient to cover the substantial sequestration cuts. As a last resort, we developed plans
to furlough more than 44,000 FAA employees for up to 11 days during the last five months of the fiscal year. Just one week
into implementation, however, Congress enacted the Reducing Flight Delays Act of 2013. This legislation enabled the FAA to
transfer $253 million in funding from our Airport Improvement Program to two other accounts: Operations, and Facilities and
Equipment, thus eliminating the need for furloughs and tower closures that would have caused widespread air traffic delays




                                                              Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   71
        across the national airspace system. While the transfer of funding allowed us to discontinue the furloughs, as a consequence
        the airports that would have received those grants are unable to use the funds for infrastructure improvements.


        Accomplishments
        Despite the substantial funding challenges that we faced, we kept our focus on operating a safe and efficient airspace system.
        We also continued to make progress on our transition to NextGen; more than 90 percent of our major system investments are
        still within 10 percent of their cost and schedule baselines. We exhibited strong fiscal and resource management by managing
        through the sequester. And we also succeeded in keeping our commitment to provide comprehensive fiscal and performance
        information, as we achieved an unmodified audit opinion with no material weaknesses on our FY 2013 financial statements.
        In addition, we were recognized with the distinguished Certificate in Excellence in Accountability Reporting award, given by
        the Association of Government Accountants for our 2012 Performance and Accountability Report. This was the ninth year that
        we have been a recipient of this award. We also received a “Best in Class” award for editorial excellence—presenting our
        financial and performance results in an informative, understandable, and transparent way.


        Moving Forward
        In the near term, we will build on the progress we’ve made in FY 2013. But a long-term unstable budget environment is
        unsustainable. The inefficiencies that derive from the continued fiscal uncertainty manifest themselves in start-and-stop
        operations that frustrate our customers, our stakeholders, and our employees. Given our critical role of operating the largest
        and most complex airspace in the world, budget uncertainty is not sustainable. Our economy, our customers, and the American
        public deserve a stable and safe aviation system.

        Despite the funding situation, our dedicated team responded to this year’s substantial challenges with skill and
        professionalism. It is an honor and a privilege to be working with such a talented and dedicated workforce that does
        everything it can each day to keep the aviation system operating safely and efficiently. We are proud of our accomplishments
        and look forward to continuing to serve the public as cost-effective stewards of their investments. The American people
        deserve no less.




        Mark House
        Chief Financial Officer
        December 9, 2013




72   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
OFFICE OF THE INSPECTOR GENERAL (OIG) QUALITY CONTROL REVIEW



             U.S. Department of
                                                   Memorandum
             Transportation
             Office of the Secretary
             of Transportation
             Office of Inspector General


  Subject:   ACTION: Quality Control Review of Audited                              Date:      December 13, 2013
             Financial Statements for Fiscal Years 2013 and
             2012, Federal Aviation Administration
             Report Number: QC-2014-014

    From:    Calvin L. Scovel III                                            Reply to
                                                                                               JA-20
                                                                             Attn. of:
             Inspector General

      To:    Federal Aviation Administrator

             We respectfully submit our report on the quality control review (QCR) of the
             Federal Aviation Administration’s (FAA) audited financial statements for fiscal
             years 2013 and 2012.

             The audit of FAA’s financial statements, as of and for the years ended
             September 30, 2013, and September 30, 2012, was completed by KPMG LLP, of
             Washington, DC (see Attachment) under contract to the Office of Inspector
             General (OIG). The contract required the audit to be performed in accordance with
             generally accepted Government auditing standards and Office of Management and
             Budget Bulletin 14-02, “Audit Requirements for Federal Financial Statements.”

             KPMG LLP concluded the consolidated financial statements present fairly, in all
             material respects, FAA’s financial position as of September 30, 2013, and
             September 30, 2012, and its net costs, changes in net position, and budgetary
             resources for the years then ended in accordance with U.S. generally accepted
             accounting principles.

             KPMG LLP’s Fiscal Year 2013 Audit Report
                                                                                                                                                        FINANCI AL RE SULTS



             KPMG LLP reported the following significant deficiency in internal control over
             financial reporting:




                                                  Federal Aviation Administration    |   Fiscal Year 2013   |   Performance and Accountability Report   73
                                                                                                              2



                                 Improvements Needed in Management Review Controls – FAA does
                                 not have adequate controls to ensure that all transactions were properly
                                 recorded in the general ledger, including sufficient review controls to
                                 validate the completeness and accuracy of key inputs and assumptions of
                                 certain estimated amounts. As a result, there is a risk that errors will not be
                                 detected or corrected in a timely manner.

                     We performed a QCR of KPMG LLP’s report and related documentation. Our
                     QCR, as differentiated from an audit performed in accordance with generally
                     accepted Government auditing standards, was not intended for us to express, and
                     we do not express, an opinion on FAA’s financial statements or conclusions about
                     the effectiveness of internal controls or compliance with laws and regulations.
                     KPMG LLP is responsible for its report dated December 9, 2013, and the
                     conclusions expressed in that report. However, our QCR disclosed no instances in
                     which KPMG LLP did not comply, in all material respects, with generally
                     accepted Government auditing standards.

                     KPMG LLP made two recommendations to strengthen FAA’s financial,
                     accounting, and system controls. FAA officials concurred with KPMG LLP’s
                     findings on the significant deficiency. FAA also committed to submitting to OIG,
                     by December 31, 2013, a detailed action plan to address the findings contained in
                     the audit report. In accordance with DOT Order 8000.1C, the corrective actions
                     taken in response to the findings are subject to follow up.

                     We appreciate the cooperation and assistance of FAA’s representatives, the Office
                     of Financial Management, and KPMG LLP. If we can answer any questions,
                     please contact me at 202-366-1959, or Lou E. Dixon, Principal Assistant Inspector
                     General for Auditing and Evaluation, at 202-366-1427.

                     Attachment

                                                                                               #




74   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
INDEPENDENT AUDITORS’ REPORT

                                     KPMG LLP
                                     Suite 12000
                                     1801 K Street, NW
                                     Washington, DC 20006




                                              Independent Auditors’ Report


      Administrator, Federal Aviation Administration
      U.S. Department of Transportation:

      Report on the Financial Statements

      We have audited the accompanying consolidated financial statements of the U.S. Department of
      Transportation (DOT), Federal Aviation Administration (FAA), which comprise the consolidated balance
      sheets as of September 30, 2013 and 2012 and the related consolidated statements of net cost, and changes
      in net position, and combined statements of budgetary resources for the years then ended, and the related
      notes to the consolidated financial statements.

      Management’s Responsibility for the Financial Statements

      Management is responsible for the preparation and fair presentation of these consolidated financial
      statements in accordance with U.S. generally accepted accounting principles; this includes the design,
      implementation, and maintenance of internal control relevant to the preparation and fair presentation of
      consolidated financial statements that are free from material misstatement, whether due to fraud or error.

      Auditors’ Responsibility

      Our responsibility is to express an opinion on these consolidated financial statements based on our audits.
      We conducted our audits in accordance with auditing standards generally accepted in the United States of
      America; the standards applicable to financial audits contained in Government Auditing Standards issued
      by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
      No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
      No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
      consolidated financial statements are free from material misstatement.
      An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
      consolidated financial statements. The procedures selected depend on the auditors’ judgment, including the
      assessment of the risks of material misstatement of the consolidated financial statements, whether due to
      fraud or error. In making those risk assessments, the auditor considers internal control relevant to the
      entity’s preparation and fair presentation of the consolidated financial statements in order to design audit
      procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
      the effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An audit also
      includes evaluating the appropriateness of accounting policies used and the reasonableness of significant
      accounting estimates made by management, as well as evaluating the overall presentation of the
      consolidated financial statements.
                                                                                                                                                                      FINANCI AL RE SULTS



      We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
      audit opinion.




                                     KPMG LLP is a Delaware limited liability partnership,
                                     the U.S. member firm of KPMG International Cooperative
                                     (“KPMG International”), a Swiss entity.




                                                                 Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   75
                       Opinion on the Financial Statements

                       In our opinion, the consolidated financial statements referred to above present fairly, in all material
                       respects, the financial position of the Federal Aviation Administration as of September 30, 2013 and 2012,
                       and its net costs, changes in net position, and budgetary resources for the years then ended in accordance
                       with U.S. generally accepted accounting principles.

                       Emphasis of Matter

                       As discussed in Notes 1 and 12, the consolidated financial statements reflect actual excise tax revenues
                       deposited in the Airport and Airway Trust Fund through June 30, 2013, and excise tax receipts estimated
                       by the Department of Treasury’s Office of Tax Analysis for the quarter ended September 30, 2013. Our
                       opinion is not modified with respect to this matter.

                       Other Matters

                       Required Supplementary Information

                       U.S. generally accepted accounting principles require that the information in the Management’s Discussion
                       and Analysis, Required Supplementary Information, and Required Supplementary Stewardship
                       Information sections be presented to supplement the basic consolidated financial statements. Such
                       information, although not a part of the basic consolidated financial statements, is required by the Federal
                       Accounting Standards Advisory Board who considers it to be an essential part of financial reporting for
                       placing the basic consolidated financial statements in an appropriate operational, economic, or historical
                       context. We have applied certain limited procedures to the required supplementary information in
                       accordance with auditing standards generally accepted in the United States of America, which consisted of
                       inquiries of management about the methods of preparing the information and comparing the information
                       for consistency with management’s responses to our inquiries, the basic consolidated financial statements,
                       and other knowledge we obtained during our audits of the basic consolidated financial statements. We do
                       not express an opinion or provide any assurance on the information because the limited procedures do not
                       provide us with sufficient evidence to express an opinion or provide any assurance.

                       Other Information

                       Our audits were conducted for the purpose of forming an opinion on the basic consolidated financial
                       statements as a whole. The information in the Other Information, FAA at a Glance, Forward, Messages
                       from the Administrator and Chief Financial Officer, and Performance Results sections as listed in the Table
                       of Contents of the FAA Performance and Accountability Report is presented for purposes of additional
                       analysis and is not a required part of the basic consolidated financial statements. Such information has not
                       been subjected to the auditing procedures applied in the audits of the basic consolidated financial
                       statements, and accordingly, we do not express an opinion or provide any assurance on it.

                       Other Reporting Required by Government Auditing Standards
                       Internal Control Over Financial Reporting
                       In planning and performing our audit of the consolidated financial statements, we considered the FAA’s
                       internal control over financial reporting (internal control) to determine the audit procedures that are
                       appropriate in the circumstances for the purpose of expressing our opinion on the consolidated financial
                       statements, but not for the purpose of expressing an opinion on the effectiveness of the FAA’s internal
                       control. Accordingly, we do not express an opinion on the effectiveness of the FAA’s internal control. We
                       did not test all internal controls relevant to operating objectives as broadly defined by the Federal
                       Managers’ Financial Integrity Act of 1982.



                                                                                                  2




76   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies and therefore, material weaknesses or significant deficiencies may
exist that were not identified. Given these limitations, during our audit we did not identify any deficiencies
in internal control that we consider to be material weaknesses. However, we did identify certain
deficiencies in internal control, described in the accompanying schedule of findings in Exhibit I, that we
consider to be significant deficiencies.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the FAA’s consolidated financial statements are
free from material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 14-02. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such an opinion.
The results of our tests disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards or OMB Bulletin No. 14-02.

FAA’s Response to Findings

The FAA’s response to the findings identified in our audit is described in the accompanying schedule of
findings in Exhibit I. The FAA’s response was not subjected to the auditing procedures applied in the
audit of the consolidated financial statements and, accordingly, we express no opinion on the response.

Purpose of the Other Reporting Required by Government Auditing Standards

The purpose of the communication described in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compliance and the
result of that testing, and not to provide an opinion on the effectiveness of the FAA’s internal control or
compliance. Accordingly, this communication is not suitable for any other purpose.



December 9, 2013                                                                                                                                        FINANCI AL RE SULTS




                                                        3




                                                   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   77
                      Federal Aviation Administration
                      Independent Auditors’ Report
                      Internal Control Over Financial Reporting                                   EXHIBIT I
                                                                                SIGNIFICANT DEFICIENCIES
                      ______________________________________________________________________________________

                      Improvements Needed in Management Review Controls
                      Criteria
                      The Government Accountability Office’s (GAO) Standard for Internal Control in the Federal Government
                      (the Standards) states that, “… control activities help to ensure that all transactions are completely and
                      accurately recorded.”
                      The Standards further define internal control as “an integral component of an organization’s management
                      that provides reasonable assurance that the following objectives are being achieved: effectiveness and
                      efficiency of operations, reliability of financial reporting, and compliance with applicable laws and
                      regulations.” Furthermore, the Standards list examples of control activities that include (1) top-level
                      reviews of actual performance, (2) reviews by management at the functional or activity level …
                      (4) controls over information processing … (6) Establishment and review of performance measures and
                      indicators, (7) segregation of duties, (8) proper execution of transactions and events, (9) accurate and
                      timely recording of transactions and events, (10) access restrictions to and accountability for resources and
                      records, and (11) appropriate documentation of transactions and internal control.
                      The Standards also state, “Internal control should generally be designed to assure that ongoing monitoring
                      occurs in the course of normal operations. It is performed continually and is ingrained in the agency’s
                      operations. It includes regular management and supervisory activities, comparisons, reconciliations, and
                      other actions people take in performing their duties.”
                      Appendix A, Section I, of the Office of Management and Budget (OMB) Circular No. A-123,
                      Management’s Responsibility for Internal Controls, states that “Internal control over financial reporting is
                      a process designed to provide reasonable assurance regarding the reliability of financial reporting.
                      Reliability of financial reporting means that management can reasonably make the following assertions:
                            •    All reported transactions actually occurred during the reporting period and all assets and liabilities
                                 exist as of the reporting date (existence and occurrence);
                            •    All assets, liabilities, and transactions that should be reported have been included and no
                                 unauthorized transactions or balances are included (completeness); and,
                            •    All assets and liabilities have been properly valued, and where applicable, all costs have been
                                 properly allocated (valuation).”
                      Conditions
                      During the fiscal year (FY) 2013 audit, we noted several instances whereby the FAA did not have adequate
                      controls in place to ensure that all transactions were properly recorded in the general ledger, including
                      sufficient review controls to validate the completeness and accuracy of key inputs and assumptions of
                      certain estimated amounts. For example, we identified errors totaling over $100 million in three of eight
                      overflight fee revenue transactions tested for the period July 1, 2013 through September 30, 2013.
                      One error was identified and corrected by management; however, the correction was not made timely.
                      Two errors were identified by us.




78   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
Federal Aviation Administration
Independent Auditors’ Report
Internal Control Over Financial Reporting                                   EXHIBIT I
                                                          SIGNIFICANT DEFICIENCIES
______________________________________________________________________________________

In addition, our testing of the grant accrual as of September 30, 2013 revealed the following errors in key
inputs and assumptions used in the calculation of the estimate:
    •   The grant disbursement data used in the calculation of the grant accrual was incomplete, as two
        months of data was erroneously excluded from the accrual calculation.
    •   The grant accrual calculation erroneously did not include an accrual for costs associated with one
        grant that was awarded in August 2013.
The errors above were not detected by management in the review of these accruals at year-end.
Cause/Effect
The errors above related to overflight fee revenue first occurred after personnel at the Enterprise Service
Center implemented a Dataloader tool in June 2013 to post overflight fee revenue transactions to the
general ledger. The Dataloader did not always properly capture overflight fee revenue and, as a result,
posted incorrect transactions to the general ledger. A manual review of the transactions posted by the
Dataloader tool was not consistently performed to ensure the recorded amounts were consistent with the
related source documentation and general ledger inputs.
The conditions above related to the grant accrual occurred because personnel within the Office of Financial
Reporting and Accountability did not perform procedures to validate the completeness and accuracy of key
inputs provided by other organizations within FAA for use in calculating year-end accruals. As a result,
Grants Payable and Expenses were overstated by $80 million as a result of the error related to incomplete
disbursements, and understated by $65 million as a result of the exclusion of one grant from the accrual.
The net impact was an overstatement to Grants Payable and Expenses of $15 million. The draft FY 2013
Performance and Accountability Report provided to us contained errors caused by the conditions described
above.
Failure to perform sufficient review controls over key general ledger inputs and outputs increases the risk
and the likelihood that material differences will not be detected or corrected timely.
Recommendations
We recommend that FAA design and implement policies and procedures 1) to ensure transactions are
recorded properly in the general ledger and 2) to validate the completeness and accuracy of key inputs and
assumptions that are the basis for transactions recorded to the general ledger.




                                                                                                                                                     FINANCI AL RE SULTS




                                                Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   79
     U.S. Department of Transportation
     FEDERAL AVIATION ADMINISTRATION


     MANAGEMENT’S RESPONSE TO THE FY 2013
     INDEPENDENT AUDITORS’ REPORT
     December 9, 2013




80   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
                          Office of Financial Services/CFO                              800 Independence Ave. S.W.
                                                                                        Washington, DC 20591




Ms. Hannah Padilla
KPMG LLP
1801 K Street, NW
Suite 12000
Washington, DC 20006

Dear Ms. Padilla:

We have received your Independent Auditors’ Report related to the Federal Aviation
Administration’s (FAA’s) fiscal year 2013 consolidated financial statements and offer the
following comments.

We concur with the significant deficiency contained in your report. To address the findings,
the Office of Financial Services will coordinate with other FAA offices as necessary to
develop a corrective action plan, and will submit it to the Office of Inspector General no
later than December 31, 2013. I will monitor implementation of the plan throughout the
corrective action process.

We reaffirm our commitment to continuously improving our financial management, and to
serving the public as cost-effective stewards of their investments. We look forward to
continuing to work with you in support of an efficient and effective audit.

As always, we welcome the opportunity to improve our processes and procedures. Thank
you for your candor and the professional manner in which you and your team conducted this
audit.
                                                                                                                                                       FINANCI AL RE SULTS



Sincerely,




Mark House




                                                  Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   81
                                                                            This page intentionally left blank.




82   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
FINANCIAL STATEMENTS
                                                   U.S. Department of Transportation
                                             FEDERAL AVIATION ADMINISTRATION
                                           CONSOLIDATED BALANCE SHEETS
                                                            As of September 30
                                                           (Dollars in Thousands)


Assets                                                                                                           2013                                       2012
Intragovernmental
   Fund balance with Treasury (Note 2)                                                         $          3,273,753                         $        3,085,202
   Investments, net (Note 3)                                                                             13,821,513                                 12,331,464
   Accounts receivable, prepayments, and other (Note 4)                                                     205,778                                    240,254
Total intragovernmental                                                                                  17,301,044                                 15,656,920

  Accounts receivable, prepayments, and other, net (Note 4)                                                  55,293                                     47,949
  Inventory, operating materials, and supplies, net (Note 5)                                                656,491                                    632,320
  Property, plant, and equipment, net (Note 6 and 9)                                                     13,420,806                                 13,442,573
Total assets                                                                                   $         31,433,634                         $       29,779,762

Liabilities
Intragovernmental liabilities
   Accounts payable                                                                            $               9,943                        $            15,656
   Employee related and other (Note 8)                                                                       362,017                                    425,300
Total intragovernmental liabilities                                                                          371,960                                    440,956

  Accounts payable                                                                                           365,311                                    417,445
  Grants payable                                                                                             772,822                                    640,646
  Environmental (Note 7, 15, and 16)                                                                         751,705                                    810,399
  Employee related and other (Note 8, 9, and 16)                                                           1,120,996                                  1,121,798
  Federal employee benefits (Note 10)                                                                        973,055                                    946,778
Total liabilities                                                                                          4,355,849                                  4,378,022

  Commitments and contingencies (Note 9 and 16)

Net position
  Unexpended appropriations—funds from dedicated collections (Note 12)                                       932,877                                  1,037,316
  Unexpended appropriations—all other funds                                                                   29,039                                     31,225
  Subtotal unexpended appropriations                                                                         961,916                                  1,068,541

  Cumulative results of operations—funds from dedicated collections (Note 12)                            15,513,924                                 14,859,763
                                                                                                                                                                      FINANCI AL RE SULTS


  Cumulative results of operations—all other funds                                                       10,601,945                                  9,473,436
  Subtotal cumulative results of operations                                                              26,115,869                                 24,333,199

Total net position                                                                                       27,077,785                                 25,401,740
Total liabilities and net position                                                             $         31,433,634                         $       29,779,762

                                                                            The accompanying notes are an integral part of these financial statements.




                                                                 Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   83
                                                                           U.S. Department of Transportation
                                                                    FEDERAL AVIATION ADMINISTRATION
                                                      CONSOLIDATED STATEMENTS OF NET COST
                                                                           For the Years Ended September 30
                                                                                  (Dollars in Thousands)


                                                                                                                                         2013                                 2012
      Line of Business programs (Note 11)
         Air Traffic Organization
         Expenses                                                                                                          $      11,142,570                    $      11,439,702
         Less earned revenues                                                                                                       (276,406)                            (281,226)
         Net costs                                                                                                                10,866,164                           11,158,476

         Aviation Safety
         Expenses                                                                                                                  1,417,207                            1,422,325
         Less earned revenues                                                                                                        (10,683)                             (12,016)
         Net costs                                                                                                                 1,406,524                            1,410,309

         Airports
         Expenses                                                                                                                  3,602,949                            3,139,685
         Less earned revenues                                                                                                             —                                   (86)
         Net costs                                                                                                                 3,602,949                            3,139,599

         Commercial Space Transportation
         Expenses                                                                                                                      19,139                               18,400
         Net costs                                                                                                                     19,139                               18,400

      Non-Line of Business programs
        Regions and Center Operations and other programs
        Expenses                                                                                                                      753,699                              783,696
        Less earned revenues                                                                                                         (423,137)                            (379,320)
        Net costs                                                                                                                     330,562                              404,376

      Net cost of operations
        Total expenses                                                                                                            16,935,564                           16,803,808
        Less earned revenues                                                                                                        (710,226)                            (672,648)
      Total net cost                                                                                                       $      16,225,338                    $      16,131,160

                                                                                                          The accompanying notes are an integral part of these financial statements.




84   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
                                                      U.S. Department of Transportation
                                                FEDERAL AVIATION ADMINISTRATION
                         CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
                                                       For the Years Ended September 30
                                                              (Dollars in Thousands)


                                                                                UNEXPENDED APPROPRIATIONS
                                                                  2013                                                                  2012
                                              Funds from                                                    Funds from
                                              dedicated         All other                                   dedicated                 All other
                                              collections        funds               Totals                 collections                funds              Totals

Beginning balances                        $ 1,037,316       $      31,225       $    1,068,541             $ 1,088,171            $      65,775     $    1,153,946
Budgetary financing sources
  Appropriations received (Note 14)            4,592,701                —            4,592,701               4,592,701                       —            4,592,701
  Appropriations transferred-in/out                   —                 —                   —                    14,082                      —                14,082
  Rescissions, cancellations and other          (287,566)               —             (287,566)                 (58,748)                     —               (58,748)
  Appropriations used                         (4,409,574)           (2,186)         (4,411,760)             (4,598,890)                 (34,550)         (4,633,440)

  Total budgetary financing sources             (104,439)           (2,186)           (106,625)                 (50,855)                (34,550)            (85,405)

Ending balances                           $      932,877    $      29,039       $      961,916             $ 1,037,316            $      31,225     $    1,068,541


                                                                              CUMULATIVE RESULTS OF OPERATIONS
                                                                  2013                                                                  2012
                                              Funds from                                                    Funds from
                                              dedicated         All other                                   dedicated                 All other
                                              collections        funds               Totals                 collections                funds              Totals

Beginning balances                        $ 14,859,763      $ 9,473,436         $ 24,333,199               $ 12,873,270           $ 9,606,578       $ 22,479,848
Budgetary financing sources
  Appropriations used                          4,409,574            2,186            4,411,760               4,598,890                   34,550          4,633,440
  Non-exchange revenue—excise
    taxes and other (Note 12)                 13,101,575           20,015           13,121,590              12,777,130                   24,456         12,801,586
  Transfers-in/out without
     reimbursement                              (236,568)                —            (236,568)               (199,016)                      (16)          (199,032)
Other financing sources
  Donations and forfeitures of property               —            78,599               78,599                        —                 156,817             156,817
  Transfers-in/out without
     reimbursement                            (2,314,873)       2,403,773               88,900                (951,817)               1,021,572              69,755
  Imputed financing from costs
     absorbed by others (Note 13)                509,371           61,656              571,027                 489,032                   63,112            552,144
  Other                                             (405)         (26,895)             (27,300)                    (37)                 (30,162)           (30,199)
                                                                                                                                                                          FINANCI AL RE SULTS



  Total financing sources                     15,468,674        2,539,334           18,008,008              16,714,182                1,270,329         17,984,511

Net cost of operations                        14,814,513        1,410,825           16,225,338              14,727,689                1,403,471         16,131,160

Net change                                       654,161        1,128,509            1,782,670               1,986,493                 (133,142)         1,853,351

Ending balances                           $ 15,513,924      $ 10,601,945        $ 26,115,869               $ 14,859,763           $ 9,473,436       $ 24,333,199

                                                                                The accompanying notes are an integral part of these financial statements.




                                                                     Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   85
                                                                           U.S. Department of Transportation
                                                                    FEDERAL AVIATION ADMINISTRATION
                                            COMBINED STATEMENTS OF BUDGETARY RESOURCES
                                                                           For the Years Ended September 30
                                                                                  (Dollars in Thousands)


                                                                                                                                         2013                                 2012
      Budgetary resources (Note 14)
        Unobligated balance brought forward, transfers and other                                                           $       3,519,678                    $       3,556,211
        Recoveries of prior year obligations                                                                                         373,662                              413,890
        Other changes in unobligated balance                                                                                         (85,116)                            (116,841)
        Unobligated balance from prior year budget authority		                                                                     3,808,224                            3,853,260
        Appropriations		                                                                                                          11,924,500                           12,552,370
        Contract authority                                                                                                         3,343,300                            3,350,000
        Spending authority from offsetting collections                                                                             5,910,887                            5,969,879
      Total budgetary resources                                                                                            $      24,986,911                    $      25,725,509

      Status of budgetary resources
        Obligations incurred                                                                                               $      21,380,109                    $      22,205,831
        Apportioned                                                                                                                1,388,704                            1,430,914
        Unapportioned                                                                                                              2,218,098                            2,088,764
      Total status of budgetary resources                                                                                  $      24,986,911                    $      25,725,509

      Change in obligated balance
        Obligated balance, net, beginning of period                                                                        $       8,938,047                    $      $8,955,059
        Obligations incurred                                                                                                      21,380,109                           22,205,831
        Gross outlays                                                                                                            (21,481,412)                         (21,766,301)
        Recoveries of prior year obligations		                                                                                      (373,662)                            (413,890)
        Change in uncollected customer payments from federal sources                                                                  54,842                               (42,652)
      Obligated balance, net, end of period                                                                                $       8,517,924                    $      $8,938,047

      Budget authority and outlays
        Budget authority, gross                                                                                            $      21,178,687                    $      21,872,249
        Actual offsetting collections                                                                                             (5,969,567)                          (5,927,227)
        Change in uncollected customer payments from federal sources                                                                  54,842                               (42,652)
      Budget authority, net                                                                                                $      15,263,962                    $      15,902,370

      Outlays
        Gross outlays                                                                                                      $      21,481,412                    $      21,766,301
        Collections, net of offsetting receipts                                                                                   (5,969,567)                          (5,927,227)
        Distributed offsetting receipts                                                                                                (2,801)                             (11,560)
      Net outlays                                                                                                          $      15,509,044                    $      15,827,514


                                                                                                          The accompanying notes are an integral part of these financial statements.




86   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
NOTES TO THE FINANCIAL STATEMENTS
 NOTE 1. Summary of Significant Accounting Policies

A.	 Basis of Presentation                                                 customer needs, economic conditions, and environmental
                                                                          concerns.
The financial statements have been prepared to report the
financial position, net cost of operations, changes in net                Congress annually enacts appropriations to permit the FAA
position, and status and availability of budgetary resources of           to incur obligations for specified purposes. In FY 2013 and
the Federal Aviation Administration (the FAA). The statements             2012, the FAA was accountable for amounts made available
are a requirement of the Chief Financial Officers Act of 1990,            in appropriations laws from the Airport and Airway Trust Fund
and the Government Management Reform Act of 1994. They                    (AATF), Revolving Funds, a Special Fund, and General Fund
have been prepared from, and are fully supported by, the books            appropriations. The FAA recognizes budgetary resources as
and records of the FAA in accordance with (1) the hierarchy of            assets when cash (funds held by the U.S. Treasury) is made
accounting principles generally accepted in the United States of          available through Department of Treasury General Fund warrants,
America and standards approved by the principals of the Federal           and transfers from the AATF are apportioned by OMB.
Accounting Standards Advisory Board (FASAB), (2) Office of
Management and Budget (OMB) Circular No. A-136, Financial                 The FAA has contract authority which allows the agency to enter
Reporting Requirements, and (3) Department of Transportation              into contracts prior to receiving an appropriation for the payment
(DOT) and the FAA significant accounting policies, the latter of          of obligations. A subsequently enacted appropriation provides
which are summarized in this note. These statements, with the             funding to liquidate the obligations. Current contract authority is
exception of the Statement of Budgetary Resources, are different          provided for the Airport Improvement Program (AIP) program and
from financial management reports, which are also prepared                funded by appropriations from the AATF.
pursuant to OMB directives that are used to monitor and control
the FAA’s use of budgetary resources. The statements are                  The FAA also has spending authority from offsetting collections
subjected to audit, as required by OMB Bulletin No. 14-02, Audit          primarily from a non-expenditure transfer from the AATF for
Requirements for Federal Financial Statements.                            Operations funding. The balance of the spending authority from
                                                                          offsetting collections comes from other federal agencies to fund
Notes 4 and 8 include the necessary information to present                reimbursable activities performed by the FAA on their behalf.
“other assets” and “other liabilities” as defined by OMB Circular
No. A-136. This presentation is used to support the preparation           The FAA reporting entity is comprised of the following major
of the consolidated financial statements of the U.S. Government.          funds:
                                                                            ¢¢   Airport and Airway Trust Fund (AATF). The AATF, a fund
Unless specified otherwise, all dollar amounts are presented in                  from dedicated collections (in prior years referred to as
thousands.                                                                       an “earmarked fund”), is funded by excise taxes that the
                                                                                 Internal Revenue Service (IRS) collects from airway system
B.	 Appropriations and Reporting Entity                                          users. As presented in Note 3, these receipts are held for
                                                                                 investment and unavailable until appropriated by the U.S.
The FAA, which was created in 1958, is a component of the DOT,
                                                                                                                                                                       FINANCI AL RE SULTS


                                                                                 Congress. Once appropriated for use, the FAA transfers AATF
a cabinet-level agency of the Executive Branch of the United
                                                                                 receipts necessary to meet cash disbursement needs to
States Government. The FAA’s mission is to provide a safe,
                                                                                 several other funds, from which expenditures are made. The
secure, and efficient global aerospace system that contributes to
                                                                                 AATF fully finances the following additional FAA funds:
national security and the promotion of United States aerospace
safety. As the leading authority in the international aerospace                  ¢¢   Grants-in-Aid to Airports-AATF. As authorized, grants
community, the FAA is responsive to the dynamic nature of                             are awarded with Grants-in-Aid to Airports funding
                                                                                      and used for planning and development to maintain a




                                                                  Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   87
                safe and efficient nationwide system of public airports.                                   competition within the public sector in the performance of a
                These grants fund approximately one-third of all capital                                   wide variety of support services.
                development at the nation’s public airports, and are                                  ¢¢   Other Funds. The consolidated financial statements include
                administered through the Airport Improvement Program.                                      other funds such as Aviation Overflight User Fees. Aviation
           ¢¢   Facilities and Equipment-AATF. The Facilities and                                          Overflight User Fees is a “special” fund from dedicated
                Equipment funds are the FAA’s principal means of                                           collections whose receipts come from charges to operators
                modernizing and improving air traffic control and                                          of aircraft that fly in U.S. controlled airspace, but neither take
                airway facilities. These funds also finance major capital                                  off nor land in the United States. Other funds also include
                improvements required by other the FAA programs as                                         Facilities, Engineering & Development General Fund and
                well as other improvements designed to enhance the                                         General Fund Miscellaneous Receipts accounts established
                safety and capacity of the national airspace system.                                       for receipts of non-recurring activity, such as fines, penalties,
           ¢¢   Research, Engineering and Development-AATF. Research,                                      fees, and other miscellaneous receipts for services and
                Engineering, and Development funds finance long-term                                       benefits.
                research programs to improve the air traffic control                                 The FAA has rights and ownership of all assets reported in these
                system.                                                                              financial statements. The FAA does not possess any non-entity
      ¢¢   Operations General Fund and Operations-AATF. Operations                                   assets.
           finances operating costs, maintenance, communications,
           and logistical support for the air traffic control and air
                                                                                                     C.	 Basis of Accounting
           navigation systems. It also finances the salaries and costs
           associated with carrying out the FAA’s safety and inspection                              Transactions are recorded on both an accrual accounting basis
           and regulatory responsibilities. Operations-AATF is financed                              and a budgetary accounting basis. Under the accrual method,
           through transfers from the AATF. For administrative ease in                               revenues are recognized when earned, and expenses are
           obligating and expending for operational activities, those                                recognized when a liability is incurred, without regard to receipt
           funds are then in turn transferred to the Operations General                              or payment of cash. Budgetary accounting facilitates compliance
           Fund, which is supplemented by appropriations from the U.S.                               with legal requirements on the use of federal funds. All material
           Treasury. Expenditures for operational activities, whether                                intra-agency transactions and balances have been eliminated for
           originally funded by the AATF or the General Fund of the U.S.                             presentation on a consolidated basis. However, the Statement
           Treasury, are generally made from the Operations General                                  of Budgetary Resources is presented on a combined basis, in
           Fund.                                                                                     accordance with OMB Circular No. A-136.

      ¢¢   Aviation Insurance Revolving Fund. Revolving funds are                                    Intra-governmental transactions and balances result from
           accounts established by law to finance a continuing cycle                                 exchange transactions made between the FAA and another
           of operations with receipts derived from such operations                                  federal government reporting entity, while those classified as
           usually available in their entirety for use by the fund                                   “with the public” result from exchange transactions between
           without further action by the U.S. Congress. The Aviation                                 the FAA and non-federal entities. For example, if the FAA
           Insurance Revolving Fund, a fund from dedicated collections,                              purchases goods or services from the public and sells them to
           provides products that address the insurance needs of the                                 another federal entity, the costs would be classified as “with the
           U.S. domestic airline industry not adequately met by the                                  public,” but the related revenues would be classified as “intra-
           commercial insurance market. The FAA is currently providing                               governmental.” This could occur, for example, when the FAA
           war risk insurance which includes hull loss and passenger,                                provides goods or services to another federal government entity
           crew, and third-party liability coverage as required by the                               on a reimbursable basis. The purpose of this classification is to
           Homeland Security Act of 2002 as amended by the Federal                                   enable the federal government to prepare consolidated financial
           Aviation Administration Extension Act of 2011 (see Note 16).                              statements, and not to match public and intra-governmental
           Current insurance coverage expires on December 31, 2013.                                  revenue with costs that are incurred to produce public and intra-
      ¢¢   Administrative Services Franchise Fund (Franchise Fund).                                  governmental revenue.
           The Franchise Fund is a revolving fund designed to create




88   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
D.	 Revenues and Other Financing Sources                                        The FAA recognizes as an imputed financing source the amount
                                                                                of accrued pension and post-retirement benefit expenses for
Congress enacts annual, multi-year, and no-year appropriations
                                                                                current employees paid on the FAA’s behalf by the Office of
to be used, within statutory limits, for operating, capital and
                                                                                Personnel Management (OPM), as well as amounts paid from
grant expenditures. Additional amounts are obtained from
                                                                                the U.S. Treasury Judgment Fund in settlement of claims or court
service fees (e.g., landing, registry, and overflight fees), Aviation
                                                                                assessments against the FAA.
Insurance Program premiums (see note 16), and through
reimbursements for products and services provided to domestic
and foreign governmental entities.                                              E.	Taxes
                                                                                The FAA, as a federal entity, is not subject to federal, state, or
The AATF is sustained by excise taxes that the IRS collects
                                                                                local income taxes and, accordingly, does not record a provision
from airway system users. Excise taxes collected are initially
                                                                                for income taxes in the accompanying financial statements.
deposited to the General Fund of the U.S. Treasury. The IRS does
not receive sufficient information at the time the excise taxes
are collected to determine how they should be distributed to                    F.	 Fund Balance with the U.S. Treasury
specific funds from dedicated collections. Therefore, the U.S.                  The U.S. Treasury processes cash receipts and disbursements.
Treasury makes initial semi-monthly distributions to funds from                 Funds held at the Treasury are available to pay agency liabilities.
dedicated collections based on estimates prepared by its Office                 The FAA does not maintain cash in commercial bank accounts
of Tax Analysis (OTA). These estimates are based on historical                  or foreign currency balances. Foreign currency payments are
excise tax data applied to current excise tax receipts. The FAA’s               made either by Treasury or the U.S. Department of State and are
September 30, 2013, financial statements reflect excise taxes                   reported by the FAA in the U.S. dollar equivalent.
certified (as actual collections) by IRS through June 30, 2013,
and excise taxes estimated by OTA for the period July 1 through
September 30, 2013, as specified by Statement of Federal                        G.	 Investment in U.S. Government Securities
Financial Accounting Standards (SFFAS) Number 7, Accounting                     Unexpended funds in the AATF and Aviation Insurance Revolving
for Revenue and Other Financing Sources. Actual excise tax                      Fund (Aviation Insurance Program premiums) are invested in U.S.
collections data for the quarter ended September 30, 2013, will                 Government securities at cost. A portion of the AATF investments
not be available from the IRS until February 2014. When actual                  is liquidated semi-monthly in amounts needed to provide cash
amounts are certified by the IRS, generally three to four months                for the FAA appropriation accounts, to the extent authorized.
after the end of each quarter, adjustments are made to the AATF                 Aviation Insurance Revolving Fund investments are usually held
to account for the difference. Historically, actual excise tax                  to maturity, but may be liquidated to pay for an insurance claim
collections certified by the IRS for the fourth quarter of the fiscal           when necessary. Investments, redemptions, and reinvestments
year have not been materially different from the OTA’s estimate.                are held and managed under the direction of the FAA by the U.S.
Additional information on this subject is disclosed in Note 12.                 Treasury.

The AATF also earns interest from investments in U.S.
Government securities. Interest income on investments is                        H.	 Accounts Receivable
recognized as revenue on the accrual basis.                                     Accounts receivable consists of amounts owed to the FAA by
                                                                                other federal agencies and the public. Amounts due from federal
Appropriations are recognized as a financing source when
                                                                                agencies are considered fully collectible. Accounts receivable
expended. Revenues from services provided by the FAA
                                                                                from the public include, for example, overflight fees, fines
associated with reimbursable agreements are recognized
                                                                                                                                                                             FINANCI AL RE SULTS


                                                                                and penalties, reimbursements from employees, and services
concurrently with the recognition of accrued expenditures for
                                                                                performed for foreign governments. These amounts due from the
performing the services. Aviation Insurance Program premiums
                                                                                public are presented net of an allowance for loss on uncollectible
are recognized as revenue on a straight-line basis over the period
                                                                                accounts based on historical collection experience or an analysis
of coverage. Aviation overflight user fees are recognized as
                                                                                of the individual receivables.
revenue in the period in which the flights take place.




                                                                        Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   89
     I.	Inventory                                                                                    K.	 Property, Plant and Equipment (PP&E)
     Within the FAA’s Franchise Fund, inventory is held for sale to                                  The FAA capitalizes acquisitions of Property Plant &Equipment
     the FAA field locations and other domestic entities and foreign                                 (PP&E) when the cost equals or exceeds $100 thousand and the
     governments. Inventory consists of materials and supplies                                       useful life equals or exceeds two years. The FAA records PP&E
     the FAA uses to support our nation’s airspace system and is                                     at original acquisition cost. However, where applicable, the
     predominantly located at the FAA Mike Monroney Aeronautical                                     FAA allocates an average cost of like assets within a program,
     Center in Oklahoma City. Inventory cost includes material, labor,                               commonly referred to as “unit costing.” The FAA purchases
     and applicable manufacturing overhead, and is determined using                                  some capital assets in large quantities, which are known as
     the weighted moving average cost method.                                                        “bulk purchases.” If the cost per unit is below the capitalization
                                                                                                     threshold of the FAA, but the aggregate bulk purchase equals
     The FAA field locations frequently exchange non-operational                                     or exceeds the capitalization threshold, then these items are
     repairable components with the Franchise Fund. These                                            capitalized.
     components are classified as “held for repair.” An allowance
     is established for repairable inventory based on the average                                    Depreciation expense is calculated using the straight-line
     historical cost of such repairs.                                                                method. Depreciation commences the first month after the asset
                                                                                                     is placed in service. The FAA does not recognize residual value of
     Inventory may be classified as “excess, obsolete, and                                           its PP&E.
     unserviceable” if, for example, the quantity exceeds projected
     demand for the foreseeable future, or if the item has been                                      Real property assets, such as buildings, air traffic control towers,
     technologically surpassed. An allowance is established for                                      en route air traffic control centers, mobile buildings, roads,
     “excess, obsolete, and unserviceable” inventory based on the                                    sidewalks, parking lots, and other structures, are depreciated
     condition of various inventory categories as well as the FAA’s                                  over a useful life of up to 40 years.
     historical experience with disposing of such inventory.
                                                                                                     Personal property assets, such as aircraft, decision support
                                                                                                     systems, navigation, surveillance, communications and weather-
     J.	 Operating Materials and Supplies                                                            related equipment, office furniture, internal use software,
     In contrast to inventory, which is held for sale by the Franchise                               vehicles, and office equipment, are depreciated over a useful life
     Fund, operating materials and supplies are used in the operations                               of up to 20 years.
     of the agency. Operating materials and supplies primarily consist
                                                                                                     Buildings and equipment acquired under capital leases are
     of unissued materials and supplies that will be used in the repair
                                                                                                     amortized over the lease term. If the lease agreement contains
     and maintenance of the FAA owned aircraft. They are valued
                                                                                                     a bargain purchase option or otherwise provides for transferring
     based on the weighted moving average cost method or on the
                                                                                                     title of the asset to the FAA, the building is depreciated over a
     basis of actual prices paid. Operating materials and supplies are
                                                                                                     40-year service life.
     expensed using the consumption method of accounting.
                                                                                                     Construction in Progress (CIP) is valued at actual direct costs plus
     Operating materials and supplies “held for use” are those items
                                                                                                     applied overhead and other indirect costs.
     that are consumed on a regular and ongoing basis. Operating
     materials and supplies “held for repair” are awaiting service to                                The FAA occupies certain real property that is leased by the
     restore their condition to “held for use.”                                                      DOT from the General Services Administration. Payments made
                                                                                                     by the FAA are based on the fair market value for similar rental
     Operating materials and supplies may be classified as “excess,
                                                                                                     properties.
     obsolete, and unserviceable” if, for example, the quantity
     exceeds projected demand for the foreseeable future, or if                                      The FAA conducts a significant amount of research and
     the item has been technologically surpassed. An allowance                                       development into new technologies to support nation’s airspace
     is established for “held for repair” and “excess, obsolete, and                                 system. Until such time as the research and development project
     unserviceable” operating materials and supplies based on                                        reaches “technological feasibility” the costs associated with the
     the condition of various asset categories as well as the FAA’s                                  project are expensed in the year incurred.
     historical experience with disposing of such assets.




90   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
L.	 Prepaid Charges                                                      P.	 Accrued Workers’ Compensation
The FAA generally does not pay for goods and services                    A liability is recorded for actual and estimated future payments
in advance, except for certain reimbursable agreements,                  to be made for workers’ compensation pursuant to the Federal
subscriptions, and payments to contractors and employees.                Employees’ Compensation Act (FECA). The actual costs incurred
Payments made in advance of the receipt of goods and services            are reflected as a liability because the FAA will reimburse the
are recorded as prepaid charges at the time of prepayment and            Department of Labor (DOL) two years after the actual payment
recognized as expenses when the related goods and services are           of expenses by the DOL. Future appropriations will be used
received.                                                                for the reimbursement to the DOL. The liability consists of (1)
                                                                         the net present value of estimated future payments calculated
                                                                         by the DOL, and (2) the unreimbursed cost paid by the DOL for
M.	Liabilities
                                                                         compensation to recipients under FECA.
Liabilities covered by budgetary or other resources are those
liabilities for which Congress has appropriated funds or funding
is otherwise available to pay amounts due. Liabilities not               Q.	 Retirement Plan
covered by budgetary or other resources represent amounts                The FAA employees participate in either the Civil Service
owed in excess of available, congressionally appropriated                Retirement System (CSRS) or the Federal Employees Retirement
funds or other amounts. The liquidation of liabilities not               System (FERS). The employees who participate in the CSRS
covered by budgetary or other resources is dependent on future           are beneficiaries of the FAA’s matching contribution, equal to 7
congressional appropriations or other funding, including the             percent of pay, distributed to their annuity account in the Civil
AATF. Intragovernmental liabilities are claims against the FAA by        Service Retirement and Disability Fund.
other federal agencies.
                                                                         FERS went into effect on January 1, 1987. FERS and Social
                                                                         Security automatically cover most employees hired after
N.	 Accounts Payable                                                     December 31, 1983. Employees hired prior to January 1, 1984
Accounts payable are amounts that the FAA owes to other                  could elect either to join FERS and Social Security or to remain in
federal agencies and the public. Accounts payable to federal             CSRS. FERS offers a savings plan to which the FAA automatically
agencies generally consist of amounts due under interagency              contributes 1 percent of pay and matches any employee
reimbursable agreements. Accounts payable to the public                  contribution up to an additional 4 percent of pay. For FERS
primarily consist of unpaid goods and services received by the           participants, the FAA also contributes the employer’s matching
FAA in support of our nation’s airspace system, and estimated            share for Social Security. The FAA’s matching contributions are
amounts incurred but not yet claimed by AIP grant recipients.            recognized as operating expenses.

                                                                         The FAA recognizes the full cost of pensions and other retirement
O.	 Annual, Sick, and Other Leave                                        benefits during an employee’s active years of service through
Annual leave is accrued as it is earned, and the accrual is              a combination of costs financed by the FAA’s appropriations
reduced as leave is taken. For each bi-weekly pay period,                and imputed costs. The OPM actuaries determine pension cost
the balance in the accrued annual leave account is adjusted              factors by calculating the value of pension benefits expected to
to reflect the latest pay rates and unused hours of leave.               be paid in the future and communicate these factors to the FAA.
Liabilities associated with other types of vested leave, including       The difference between the costs paid by the FAA during the
compensatory, credit hours, restored leave, and sick leave in            year and the full cost of pensions and other retirement benefits
                                                                         using the OPM’s costs factors is the imputed cost. The OPM also
                                                                                                                                                                      FINANCI AL RE SULTS


certain circumstances, are accrued based on latest pay rates and
unused hours of leave. Sick leave is generally nonvested, except         provides information regarding the full cost of health and life
for sick leave balances at retirement under the terms of certain         insurance benefits. The imputed costs are completely offset with
union agreements. Funding will be obtained from future financing         revenue which is reported as an imputed financing source to the
sources to the extent that current or prior year appropriations          extent that these costs will be paid by the OPM.
are not available to fund annual and other types of vested leave
earned but not taken. Nonvested leave is expensed when used.




                                                                 Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   91
     R.	Grants                                                                                       of hazardous materials when an asset presently in service is
                                                                                                     shutdown. The FAA estimates the environmental cleanup and
     The FAA records an obligation at the time a grant is awarded.
                                                                                                     decommissioning costs at the time that an FAA-owned asset is
     As grant recipients conduct eligible activities under the terms
                                                                                                     placed in service. For assets placed in service through FY 1998,
     of their grant agreement, they request payment by the FAA,
                                                                                                     the increase or decrease in the estimated environmental cleanup
     typically via an electronic payment process. Expenses are
                                                                                                     liability is charged to expense. Assets placed in service in
     recorded at the time of payment approval during the year.
                                                                                                     FY 1999 and after do not contain any hazardous materials, and
     The FAA also recognizes an accrued liability and expense for
                                                                                                     therefore do not have associated environmental liabilities.
     estimated eligible grant payments not yet requested by grant
     recipients. Grant expenses, including associated administrative                                 FAA environmental liabilities are recorded using un-inflated
     costs, are classified on the Consolidated Statements of Net Cost                                estimates. There are no known possible changes to these
     under the line of business program “Airports.”                                                  estimates based on inflation, deflation, technology or applicable
                                                                                                     laws and regulations.
     S.	 Use of Estimates
     Management has made certain estimates and assumptions                                           U.	Contingencies
     when reporting assets, liabilities, revenues, and expenses, and                                 Liabilities are deemed contingent when the existence or amount
     in the note disclosures. Actual results could differ from these                                 of the liability cannot be determined with certainty pending
     estimates. Significant estimates underlying the accompanying                                    the outcome of future events. The FAA recognizes contingent
     financial statements include (a) the allocation of AATF receipts                                liabilities, in the accompanying balance sheet and statement of
     by the OTA, (b) legal, environmental, and contingent liabilities,                               net cost, when they are both probable and can be reasonably
     (c) accruals of accounts and grants payable, (d) accrued workers’                               estimated. The FAA discloses contingent liabilities in the notes
     compensation, (e) allowance for doubtful accounts receivable, (f)                               to the financial statements (see Note 16) when the conditions for
     allowances for repairable and obsolete inventory balances, (g)                                  liability recognition are not met or when a loss from the outcome
     allocations of common costs to Construction in Progress (CIP), (h)                              of future events is more than remote. In some cases, once losses
     the allocation of an average cost of like assets within a program,                              are certain, payments may be made from the Judgment Fund
     commonly referred to as unit costing, (i) allocations of costs to                               maintained by the U.S. Treasury rather than from the amounts
     programs on the Statement of Net Cost , and (j) accrued benefits                                appropriated to the FAA for agency operations. Payments from
     and benefits payable.                                                                           the Judgment Fund are recorded as an “Other Financing Source”
                                                                                                     when made.
     T.	 Environmental Liabilities
     In compliance with applicable laws and regulations including                                    V.	 Funds from Dedicated Collections
     the Comprehensive Environmental Response, Compensation and                                      The FAA adopted SFFAS Number 27, Identifying and Reporting
     Liability Act of 1980 as amended by the Superfund Amendments                                    Earmarked Funds, effective October 1, 2005, subsequently
     and Reauthorization Act of 1986 and the Community                                               amended by SFFAS 43, Funds from Dedicated Collections,
     Environmental Response Facilitation Act of 1992, the FAA                                        effective October 1, 2012. SFFAS Numbers 27 and 43 define
     recognizes two types of environmental liabilities: environmental                                “funds from dedicated collections” as those being financed by
     remediation, and cleanup and decommissioning. The liability for                                 specifically identified revenues, often supplemented by other
     environmental remediation is an estimate of costs necessary to                                  financing sources, which remain available over time. These
     bring a known contaminated site into compliance with applicable                                 specifically identified revenues and financing sources are
     environmental standards. The increase or decrease in the annual                                 required by statute to be used for designated activities, benefits
     liability is charged to current year expense.                                                   or purposes, and must be accounted for separately from the
                                                                                                     government’s general revenues. The FAA’s financial statements
     Environmental cleanup and decommissioning is the estimated
                                                                                                     include the following funds, considered to be “funds from
     cost that will be incurred to remove, contain, and/or dispose
                                                                                                     dedicated collections”:




92   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 ¢¢   Airport and Airway Trust Fund (AATF)                               Treasury through annual appropriations. Because the Operations
 ¢¢   Operations–AATF                                                    General Fund is primarily funded from the AATF, and because
                                                                         it is not reasonably possible to differentiate cash balances
 ¢¢   Operations General Fund                                            between those originally flowing from the AATF versus General
 ¢¢   Grants-in-Aid for Airports–AATF                                    Fund appropriations, the Operations General Fund is presented
 ¢¢   Facilities and Equipment–AATF                                      as funds from dedicated collections. The funds from dedicated
                                                                         collections in the Facilities and Equipment fund are used to
 ¢¢   Research, Engineering, and Development–AATF                        purchase or construct PP&E. When funds from dedicated
 ¢¢   Aviation Insurance Fund                                            collections are used to purchase or construct PP&E, they are no
                                                                         longer available for future expenditure, have been used for their
 ¢¢   Aviation User Fees
                                                                         intended purpose, and are therefore classified as other funds on
The AATF is funded by excise taxes that the IRS collects from            the balance sheet and the statement of changes in net position.
airway system users. These receipts are unavailable until                The intended result of this presentation is to differentiate
appropriated by the U.S. Congress. Once appropriated for                 between funds from dedicated collections available for future
use, the FAA transfers the AATF receipts necessary to meet               expenditure and funds from dedicated collections previously
cash disbursement needs to several other funds, from which               expended on PP&E projects and therefore unavailable for future
expenditures are made. Those funds that receive transfers from           expenditure.
the AATF are the Operations–AATF Trust Fund, Grants-in-Aid for
                                                                         Additional disclosures concerning funds from dedicated
Airports, Facilities and Equipment, and Research, Engineering
                                                                         collections can be found in Note 12.
and Development, all of which are funded exclusively by the
AATF. These funds represent the majority of the FAA annual
expenditures.                                                            W.	Reclassifications
In addition, while the Operations General Fund is primarily              In FY 2013, Note 2, Fund Balance with Treasury was reclassified
funded through transfers from Operations–AATF, it is also                to conform to the current year presentation requirements of OMB
supplemented by funding from the General Fund of the U.S.                Circular No. A-136.




                                                                                                                                                                      FINANCI AL RE SULTS




                                                                 Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   93
      NOTE 2. Fund Balance with Treasury

     Fund balance with Treasury (FBWT) account balances as of September 30, 2013 and 2012 were:

                                                                                                                                      2013                         2012
      Trust funds                                                                                                          $      1,357,195              $    1,140,692
      General funds                                                                                                               1,525,042                   1,547,603
      Revolving funds                                                                                                               344,620                     291,338
      Other fund types                                                                                                               46,896                     105,569
      Total                                                                                                                $      3,273,753              $    3,085,202

      Status of fund balance with Treasury
      Unobligated balance
          Available                                                                                                        $      1,388,704              $     1,430,914
          Not available                                                                                                           2,218,098                    2,088,764
      Obligated balance not yet disbursed                                                                                         8,517,924                    8,938,047
      Investments and Contract Authority supporting obligated and unobligated balances                                           (9,840,701)                  (9,904,858)
      Non-budgetary FBWT                                                                                                            989,728                      532,335
      Total                                                                                                                $      3,273,753              $     3,085,202



     Unobligated fund balances are either available or not available.                                used for upward adjustments of obligations that were incurred
     Amounts are reported as not available when they are no longer                                   during the period of availability or for paying claims attributable
     legally available to the FAA for obligation. However, balances                                  to that time period.
     that are not available can change over time, because they can be




94   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 NOTE 3. Investments

As of September 30, 2013 and 2012, the FAA’s investment balances were as follows:
                                                                                                         2013
                                                                                Amortized                                                       Market Value
 Intragovernmental Securities                            Cost               (Premium) Discount                 Investments (Net)                 Disclosure

     Non-marketable par value                         $ 11,807,771              $             —                  $ 11,807,771                   $    11,807,771
     Non-marketable market-based                         1,936,922                        20,697                    1,957,619                         1,962,650
     Subtotal                                           13,744,693                        20,697                   13,765,390                        13,770,421
  Accrued interest                                          56,123                                                     56,123
 Total Intragovernmental Securities                   $ 13,800,816              $         20,697                 $ 13,821,513                   $ $13,770,421

                                                                                                        2012
                                                                                Amortized                                                       Market Value
 Intragovernmental Securities                            Cost               (Premium) Discount                 Investments (Net)                 Disclosure

     Non-marketable par value                         $ 10,424,961              $             —                  $ 10,424,961                   $    10,424,961
     Non-marketable market-based                         1,818,209                        28,377                    1,846,586                         1,860,331
     Subtotal                                           12,243,170                        28,377                   12,271,547                        12,285,292
  Accrued interest                                          59,917                                                     59,917
 Total Intragovernmental Securities                   $ 12,303,087              $         28,377                 $ 12,331,464                   $    12,285,292



The Secretary of the Treasury invests AATF funds on behalf                Nonmarketable, market-based Treasury securities are debt
of the FAA. The FAA investments are considered investment                 securities that the Treasury issues to federal entities without
authority and are available to offset the cost of operations to the       statutorily fixed interest rates. Although the securities are
extent authorized by Congress. As of September 30, 2013 and               not marketable, their terms (prices and interest rates) mirror
2012, $11.8 billion and $10.4 billion were invested respectively          the terms of marketable Treasury securities. The FAA invests
in U.S. Treasury Certificates of Indebtedness. Nonmarketable              Aviation Insurance Fund collections in nonmarketable market-
par value Treasury Certificates of Indebtedness are special               based securities and amortizes premiums and discounts over the
series debt securities issued by the Bureau of Public Debt to             life of the security using the interest method. As of September
federal accounts, and are purchased and redeemed at par                   30, 2013, these nonmarketable, market-based securities have
(face value) exclusively through the Federal Investment Branch            maturity dates ranging from October 2013 to November 2015
of the U.S. Treasury’s Bureau of Public Debt. The securities              and have an average rate of return of approximately 1.5 percent.
are held to maturity and redeemed at face value on demand;                As of September 30, 2012, these nonmarketable, market-based
thus, investing entities recover the full amount invested plus            securities had maturity dates ranging from October 2012 to
interest. Investments as of September 30, 2013, mature on                 August 2015 and had an average rate of return of approximately
various dates through June 30, 2014, and investments as of                2.1 percent.
September 30, 2012, matured on various dates through June 30,
                                                                                                                                                                       FINANCI AL RE SULTS


2013. The annual rate of return on Certificates of Indebtedness           The U.S. Treasury does not set aside assets to pay the future
is established in the month of issuance. The average rate of              expenditures of the AATF and the Aviation Insurance Fund.
return for certificates issued during FY 2013 and FY 2012 was 2.0         Instead, the cash collected from the public for the AATF and the
percent and 2.2 percent, respectively.                                    Aviation Insurance Fund is deposited in the U.S. Treasury, and
                                                                          used for general government purposes. Treasury securities are
                                                                          issued to the FAA as evidence of the collections by the AATF and




                                                                  Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   95
     Aviation Insurance Fund. Treasury securities are an asset to the                                To the extent authorized by law, the FAA has the ability to
     FAA and a liability to the U.S. Treasury. Because the FAA and the                               redeem its Treasury securities to make expenditures. When the
     U.S. Treasury are both parts of the U.S. Government, these assets                               FAA redeems these securities, the U.S. Government finances
     and liabilities offset each other from the standpoint of the U.S.                               those expenditures out of accumulated cash balances by raising
     Government as a whole. For this reason, they do not represent                                   tax or other receipts, borrowing from the public, repaying less
     an asset or a liability in the U.S. Government-wide financial                                   debt, or curtailing other expenditures. This is the same way that
     statements.                                                                                     the U.S. Government finances all other expenditures.




      NOTE 4. Accounts Receivable, Prepayments, and Other Assets

     Accounts receivable, prepayments, and other assets as of September 30, 2013 and 2012 were comprised of the following:

                                                                                                                2013                    2012
      Intragovernmental
      Accounts receivable                                                                                 $    48,477             $    68,236
      Prepayments and other                                                                                   157,301                 172,018
        Intragovernmental total                                                                               205,778                 240,254

      With the public
      Accounts receivable, net                                                                                 53,760                44,739
      Prepayments                                                                                               1,027                 2,709
      Other assets	                                                                                               506                   501
        With the public total                                                                                  55,293                47,949
      Total accounts receivable, prepayments, and other                                                   $   261,071             $ 288,203


     Intragovernmental prepayments represent advance payments to                                     Accounts receivable from the public are shown net of allowances
     other federal government entities for agency expenses not yet                                   for uncollectible amounts of $11.2 million and $16.5 million, as of
     incurred or for goods or services not yet received.                                             September 30, 2013 and 2012, respectively.




96   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 NOTE 5. Inventory, Operating Materials, and Supplies
As of September 30, 2013 and 2012, inventory, operating materials, and supplies were:

                                                                                                                 2013
                                                                           Cost                               Allowance                                 Net
 Inventory
 Held for sale                                                        $        88,851                        $            —                       $        88,851
 Held for repair                                                              613,198                              (140,456)                              472,742
 Raw materials, finished goods and other                                       49,976                                (10,590)                              39,386
 Excess, obsolete, and unserviceable                                           13,945                                (13,945)                                  —
   Inventory total                                                            765,970                              (164,991)                              600,979

 Operating materials and supplies
 Held for use                                                                  42,198                                     —                                42,198
 Held for repair                                                               25,534                                (12,767)                              12,767
 Excess, obsolete, and unserviceable                                            1,358                                   (811)                                 547
  Operating materials and supplies total                                       69,090                                (13,578)                              55,512
 Total inventory, operating materials, and supplies                   $       835,060                        $     (178,569)                      $       656,491

                                                                                                                 2012
                                                                           Cost                               Allowance                                 Net
 Inventory
 Held for sale                                                        $        90,540                        $             —                      $        90,540
 Held for repair                                                              582,567                              (135,234)                              447,333
 Raw materials, finished goods and other                                       51,030                                (10,591)                              40,439
 Excess, obsolete, and unserviceable                                            8,956                                  (8,956)                                 —
   Inventory total                                                            733,093                              (154,781)                              578,312

 Operating materials and supplies
 Held for use                                                                  40,969                                     —                                40,969
 Held for repair                                                               24,387                                (12,193)                              12,194
 Excess, obsolete, and unserviceable                                            1,888                                 (1,043)                                 845
  Operating materials and supplies total                                       67,244                                (13,236)                              54,008
 Total inventory, operating materials, and supplies                   $       800,337                        $     (168,017)                      $       632,320



Inventory is considered held for repair based on the condition             automated disposal system. Disposal proceeds, recognized upon
of the asset or item, and the allowance for repairable inventory           receipt, may go to the U.S. Treasury’s General Fund or to an
is based on the average historical cost of such repairs. The FAA           FAA appropriation, depending on the nature of the item and the
                                                                                                                                                                        FINANCI AL RE SULTS


transfers excess items for disposal into the government-wide               disposal method.




                                                                   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   97
      NOTE 6. Property, Plant, and Equipment, Net

     Property, plant, and equipment balances as of September 30, 2013 and 2012 were:

                                                                                                                              2013
                                                                                                                           Accumulated
      Class of fixed asset                                                              Acquisition value                  depreciation              Net book value

      Real property, including land                                                      $     6,062,911               $        (3,397,715)          $    2,665,196
      Personal property                                                                       20,541,827                      (12,314,107)                8,227,720
      Assets under capital lease (Note 9)                                                        114,063                            (42,817)                 71,246
      Construction in progress (CIP)                                                           2,456,644                                 —                2,456,644

      Total property, plant and equipment                                                $    29,175,445               $      (15,754,639)           $   13,420,806

                                                                                                                              2012
                                                                                                                           Accumulated
      Class of fixed asset                                                              Acquisition value                  depreciation              Net book value

      Real property, including land                                                      $     5,907,540               $        (3,255,262)          $    2,652,278
      Personal property                                                                       18,436,951                      (11,460,530)                6,976,421
      Assets under capital lease (Note 9)                                                        126,629                            (49,669)                 76,960
      Construction in progress                                                                 3,736,914                                 —                3,736,914

      Total property, plant and equipment                                                $    28,208,034               $      (14,765,461)           $   13,442,573



     The FAA’s CIP relates primarily to national airspace assets, which                              deployed at the 9 remaining sites by the end of FY 2015. When
     are derived from centrally funded national systems development                                  fully deployed and operational, the ERAM system will replace
     contracts, site preparation and testing, raw materials, and                                     four legacy air traffic systems currently being depreciated over
     internal labor charges.                                                                         service lives ranging from 5–20 years.

     The FAA is currently developing and testing the En Route                                        The net acquisition cost of the four air traffic legacy systems
     Automation Modernization (ERAM) system to upgrade the                                           in use at September 30, 2013, was $1,899 million, down from
     management of air traffic in the en route space and enable the                                  $2,143 million at September 30, 2012, with a net book value
     implementation of NextGen capabilities. As of September 30,                                     of $439 million and $634 million, respectively. Depreciation
     2013, construction in progress includes $1,098 million related to                               on these air traffic legacy systems was $171 million and $111
     the ERAM system.                                                                                million in FY 2013 and 2012, respectively. For the legacy assets
                                                                                                     not already retired or placed in Not in Use status, the FAA
     The FAA has fully deployed ERAM at 11 air route traffic control                                 adjusted the useful life to end one year from ERAM’s site specific
     centers through September 30, 2013. ERAM is scheduled to be                                     operational readiness decision date.




98   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 NOTE 7. Environmental Liabilities

The FAA’s environmental liabilities as of September 30, 2013 and 2012 were:

                                                             2013                     2012
Environmental remediation                              $   454,538          $       517,273
Environmental cleanup and decommissioning                  297,167                  293,126

Total environmental liabilities                        $   751,705          $       810,399

Additional information on contingencies related to environmental projects is disclosed in Note 16.




 NOTE 8. Employee Related and Other Liabilities
As of September 30, 2013 and 2012, the FAA’s employee related and other liabilities were:
                                                                                                                     2013
                                                                                Non-current                         Current
                                                                                 liabilities                       liabilities                      Total
Intragovernmental
Advances received                                                               $           —                  $          60,790               $        60,790
Accrued payroll & benefits payable to other agencies                                        —                             75,453                        75,453
  Liabilities covered by budgetary resources                                                —                            136,243                       136,243
Federal Employees' Compensation Act payable                                           114,561                             86,761                       201,322
Other                                                                                      —                              24,452                        24,452
  Liabilities not covered by budgetary resources	                                     114,561                            111,213                       225,774
     Intragovernmental total                                                          114,561                            247,456                       362,017

With the public
Advances received and other                                                                 —                            114,436                       114,436
Accrued payroll & benefits payable to employees                                             —                            376,722                       376,722
 Liabilities covered by budgetary resources                                                 —                            491,158                       491,158
Accrued unfunded annual & other leave & assoc. benefits                                    —                             407,611                       407,611
Sick leave compensation benefits for eligible employees                                73,820                             45,161                       118,981
Capital leases (Notes 9 and 15)                                                        69,324                              8,681                        78,005
Legal claims                                                                               —                               2,667                         2,667
Other accrued liabilities                                                                  —                              22,574                        22,574
  Liabilities not covered by budgetary resources                                      143,144                            486,694                       629,838
                                                                                                                                                                     FINANCI AL RE SULTS


     Public total                                                                     143,144                            977,852                     1,120,996
Total employee related and other liabilities                                    $     257,705                  $     1,225,308                 $     1,483,013




                                                                Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   99
                                                                                                                                          2012
                                                                                                           Non-current                   Current
                                                                                                            liabilities                 liabilities              Total
       Intragovernmental
       Advances received                                                                                   $          —             $         53,654         $       53,654
       Accrued payroll & benefits payable to other agencies                                                           —                       90,156                 90,156
         Liabilities covered by budgetary resources                                                                   —                      143,810                143,810
       Federal Employees' Compensation Act payable                                                               115,495                      90,623                206,118
       Other                                                                                                          —                       75,372                 75,372
         Liabilities not covered by budgetary resources	                                                         115,495                     165,995                281,490
            Intragovernmental total                                                                              115,495                     309,805                425,300

       With the public
       Advances received and other                                                                                    —                      108,444                108,444
       Accrued payroll & benefits payable to employees                                                                —                      344,809                344,809
        Liabilities covered by budgetary resources                                                                    —                      453,253                453,253
       Accrued unfunded annual & other leave & assoc. benefits                                                        —                      404,714                404,714
       Sick leave compensation benefits for eligible employees                                                    65,264                      61,439                126,703
       Capital leases (Notes 9 and 15)                                                                            73,452                       8,852                 82,304
       Legal claims                                                                                                   —                       34,300                 34,300
       Other accrued liabilities                                                                                      —                       20,524                 20,524
         Liabilities not covered by budgetary resources                                                          138,716                     529,829                668,545
            Public total                                                                                         138,716                     983,082              1,121,798
       Total employee related and other liabilities                                                        $     254,211            $ $1,292,887             $    1,547,098


      Accrued payroll and benefits payable to other agencies consist of                               The estimated liability for accrued unfunded leave and
      FAA contributions payable to other federal agencies for employee                                associated benefits includes annual and other types of vested
      benefits. These include FAA contributions payable toward                                        leave. Additionally, under the terms of various bargaining unit
      life, health, retirement benefits, Social Security, and matching                                agreements, employees who are in FERS, have the option to
      contributions to the Thrift Savings Plan.                                                       receive a lump sum payment for 40 percent of their accumulated
                                                                                                      sick leave as of their effective retirement date. Based on sick
      An unfunded liability is recorded for the actual cost of workers’                               leave balances, this estimated liability was $119.0 million and
      compensation benefits to be reimbursed to the DOL, pursuant to                                  $126.7 million as of September 30, 2013 and 2012, respectively.
      the FECA. Because the DOL bills the FAA two years after it pays
      such claims, the FAA’s accrued liability as of September 30, 2013,                              The FAA estimated that 100 percent of its $2.7 million and
      includes workers’ compensation benefits paid by DOL during                                      $34.3 million legal claims liabilities as of September 30, 2013
      the periods July 1, 2011, through June 30, 2013, and accrued                                    and 2012, respectively, would be paid from the permanent
      liabilities for the quarter July 1, 2013, through September 30,                                 appropriation for judgments, awards, and compromise
      2013. The FAA’s liability accrued as of September 30, 2012,                                     settlements (Judgment Fund) administered by the Department of
      included workers’ compensation benefits paid by the DOL during                                  Treasury.
      the period July 1, 2010, through June 30, 2012, and accrued
      liabilities for the quarter July 1, 2012, through September 30,                                 Other Accrued Liabilities with the Public is composed primarily
      2012.                                                                                           of accruals for utilities, leases, and travel. Total liabilities not
                                                                                                      covered by budgetary resources are presented in Note 15.




100   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 NOTE 9. Leases

Capital Leases                                                               Operating Leases
Following is a summary of the FAA’s assets under capital lease as            The FAA has operating leases for real property, aircraft, and
of September 30, 2013 and 2012:                                              telecommunications equipment. Future operating lease payments
                                                                             due as of September 30, 2013, are as follows:
                                             2013                2012

Land, Buildings, and Machinery        $ 114,063             $ 126,629          Fiscal year
Accumulated Depreciation                (42,817)              (49,669)           Year 1 (FY 2014)                                                     $    196,616
Assets Under Capital Lease, net       $ 71,246              $ 76,960             Year 2 (FY 2015)                                                          179,156
                                                                                 Year 3 (FY 2016)                                                          147,930
                                                                                 Year 4 (FY 2017)                                                          118,447
As of September 30, 2013, the FAA’s future payments due on                       Year 5 (FY 2018)                                                           68,537
assets under capital lease were:                                                  After 5 Years                                                            144,543
                                                                               Total future operating lease payments                                  $    855,229
Future payments due by fiscal year
(Liabilities not covered by budgetary or other resources)
   Year 1 (FY 2014)                                     $        8,681       Operating lease expense incurred during the years ended
   Year 2 (FY 2015)                                              8,648       September 30, 2013 and 2012 was $224.4 million and $231.9
   Year 3 (FY 2016)                                              8,639       million, respectively, including General Services Administration
   Year 4 (FY 2017)                                              8,639       (GSA) leases that have a short termination privilege. However,
   Year 5 (FY 2018)                                              8,640       the FAA intends to remain in the lease. The operating lease
   After 5 Years                                                62,013       amounts due after five years do not include estimated payments
   Less: Imputed interest                                      (27,255)      for leases with annual renewal options. Estimates of the lease
   Total capital lease liability                        $       78,005       termination dates are subjective, and any projection of future
                                                                             lease payments would be arbitrary.
The FAA’s capital lease payments are authorized to be funded
annually as codified in the United States Code–Title 49–Section
40110(c)(1) which addresses general procurement authority. The
remaining principal payments are recorded as unfunded lease
liabilities. The imputed interest is funded and expensed annually.




                                                                                                                                                                          FINANCI AL RE SULTS




                                                                     Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   101
       NOTE 10. Federal Employee Benefits Payable

      As of September 30, 2013 and 2012, FECA actuarial liabilities                                   liability for death, disability, medical, and miscellaneous costs
      were $973.1 million and $946.8 million, respectively. The                                       for approved compensation cases, plus a component for incurred
      DOL calculates the FECA liability for the DOT, and the DOT                                      but not reported claims. The estimated liability is not covered
      allocates the liability amount to the FAA based on actual                                       by budgetary or other resources and thus will require future
      workers’ compensation payments to FAA employees over the                                        appropriated funding.
      preceding four years. FECA liabilities include the expected




       NOTE 11. Net Cost by Program and Other Statement of Net Cost Disclosures

      The FAA’s four lines of business represent the programs reported                                costs that are not directly traced to each line of business, such as
      on the Statement of Net Cost. Cost centers assigned to each                                     agency overhead, are allocated.
      line of business permit the direct accumulation of costs. Other

      The following are net costs for the years ended September 30, 2013 and 2012 by strategic goal:

                                                                                                      For the Year Ended September 30, 2013
                                                                                                               Strategic Goal Areas
                                                                       Next level            Workplace        Aviation         Sustain our       Global
                                                                       of Safety             of Choice        Access             Future      Collaboration       Total
       Line of Business programs
         Air Traffic Organization                                    $ 6,272,408         $     472,175     $ 4,073,238     $       44,930    $      3,413    $ 10,866,164
         Aviation Safety                                               1,395,511                 9,114             526              1,357              16       1,406,524
         Airports                                                      1,884,688                   421       1,705,396             12,444              —        3,602,949
         Commercial Space Transportation                                  13,709                    23           4,985                375              47          19,139
       Non-Line of Business programs
        Regions and Center Operations and other                           347,098              102,862         (126,982)            7,584             —          330,562

       Net cost                                                      $ 9,913,414         $     584,595     $ 5,657,163     $       66,690    $      3,476    $ 16,225,338



                                                                                                      For the Year Ended September 30, 2012
                                                                                                               Strategic Goal Areas
                                                                       Next level            Workplace        Aviation         Sustain our       Global
                                                                       of Safety             of Choice        Access             Future      Collaboration       Total
       Line of Business programs
         Air Traffic Organization                                    $ 6,283,426         $     473,312     $ 4,332,169     $       63,006    $      6,563    $ 11,158,476
         Aviation Safety                                               1,401,860                 6,747             456              1,213              33       1,410,309
         Airports                                                      1,641,995                   429       1,485,436             11,739              —        3,139,599
         Commercial Space Transportation                                  11,204                   182           6,740                197              77          18,400

       Non-Line of Business programs
        Regions and Center Operations and other                           346,398              206,232         (163,341)           15,083               4        404,376

       Net cost                                                      $ 9,684,883         $     686,902     $ 5,661,460     $       91,238    $      6,677    $ 16,131,160




102   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
The following is the FAA’s distribution of FY 2013 and FY 2012 net costs by intra-governmental related activity versus with the public:

                                                                                       For the Year Ended September 30, 2013
                                                                          Intra-
                                                                       governmental                       With the Public                            Total
Line of Business programs
   Air Traffic Organization
   Expenses                                                           $      2,237,425                     $      8,905,145                    $    11,142,570
   Less earned revenues                                                       (236,416)                             (39,990)                          (276,406)
   Net costs                                                                 2,001,009                            8,865,155                         10,866,164

   Aviation Safety
   Expenses                                                                    358,890                            1,058,317                          1,417,207
   Less earned revenues                                                         (2,475)                              (8,208)                           (10,683)
   Net costs                                                                   356,415                            1,050,109                          1,406,524

   Airports
   Expenses                                                                      61,984                           3,540,965                          3,602,949
   Net costs                                                                     61,984                           3,540,965                          3,602,949

   Commercial Space Transportation
   Expenses                                                                       3,647                               15,492                             19,139
   Net costs                                                                      3,687                               15,492                             19,139

Non-Line of Business programs
  Regions and Center Operations and other programs
  Expenses                                                                     150,143                              603,556                             753,699
  Less earned revenues                                                         (67,753)                            (355,384)                           (423,137)
  Net costs                                                                     82,390                              248,172                             330,562

Net cost of operations
  Total expenses                                                             2,812,089                          14,123,475                          16,935,564
  Less earned revenues                                                        (306,644)                           (403,582)                           (710,226)
Total net costs                                                       $      2,505,445                     $    13,719,893                     $    16,225,338




                                                                                                                                                                      FINANCI AL RE SULTS




                                                                 Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   103
                                                                                                                  For the Year Ended September 30, 2012
                                                                                                      Intra-
                                                                                                   governmental               With the Public             Total
       Line of Business programs
          Air Traffic Organization
          Expenses                                                                                 $       2,252,662          $    9,187,040          $   11,439,702
          Less earned revenues                                                                              (228,401)                (52,825)               (281,226)
          Net costs                                                                                        2,024,261               9,134,215              11,158,476

          Aviation Safety
          Expenses                                                                                          348,062                1,074,263               1,422,325
          Less earned revenues                                                                               (2,551)                  (9,465)                (12,016)
          Net costs                                                                                         345,511                1,064,798               1,410,309

          Airports
          Expenses                                                                                           36,451                3,103,234               3,139,685
          Less earned revenues                                                                                   —                       (86)                    (86)
          Net costs                                                                                          36,451                3,103,148               3,139,599

          Commercial Space Transportation
          Expenses                                                                                             3,474                  14,926                  18,400
          Net costs                                                                                            3,474                  14,926                  18,400

       Non-Line of Business programs
         Regions and Center Operations and other programs
         Expenses                                                                                           136,181                  647,515                 783,696
         Less earned revenues                                                                               (72,401)                (306,919)               (379,320)
         Net costs                                                                                           63,780                  340,596                 404,376

       Net cost of operations
         Total expenses                                                                                    2,776,830              14,026,978              16,803,808
         Less earned revenues                                                                               (303,353)               (369,295)               (672,648)
       Total net costs                                                                             $       2,473,477          $   13,657,683          $   16,131,160




104   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 NOTE 12. Funds from Dedicated Collections
The FAA’s funds from dedicated collections are presented among            and amounts estimated by OTA for the fourth quarter. Excise
two classifications. The first classification is comprised of the         taxes estimated by OTA in the 1st quarter overstated the amount
financial statement balances in AATF as of the end of each fiscal         subsequently certified as actual by the IRS by $451.7 million,
year.                                                                     overstated the amount certified in the 2nd quarter by $69.5
                                                                          million and understated the amount certified in the 3rd quarter by
The second classification of other funds from dedicated                   $194.5 million.
collections is comprised of the financial statement balances
of all the related funds that receive funding from the AATF               The following table summarizes the 4th quarter excise taxes
and includes the Operations–AATF, Grants-in-Aid for Airports,             accrued in the FAA’s FY 2012 and 2011 financial statements and
Facilities and Equipment, and Research Engineering and                    the amounts certified as actual by the IRS several months after
Development, all of which are funded exclusively by the AATF.             the issuance of those financial statements:
The other funds from dedicated collections classification also
includes the Operations General Fund, which is primarily funded                                                       4th Quarter                  4th Quarter
                                                                                                                            2012                         2011
through transfers from Operations–AATF, but is additionally
                                                                           Estimates                                $ 2,855,461                  $ 2,423,294
supplemented by the General Fund of the U.S. Treasury through
                                                                           Actuals                                      3,194,131                    2,652,178
annual appropriations. However, since the Operations account
                                                                             Under (Over) Accrual                   $     338,670                $     228,884
is primarily funded from the AATF, it is properly presented as
a fund from dedicated collections. The second classification of
other funds from dedicated collections also includes the Aviation         Other Funds from Dedicated Collections
Insurance Revolving Fund and Aviation User Fees.                            ¢¢   The FAA has authority under the Aviation Insurance Program
                                                                                 to insure commercial airlines that may be called upon to
In addition, this note presents only the funds from dedicated
                                                                                 perform various services considered necessary to the foreign
collections that retain available financing sources for future
                                                                                 policy interests of the United States, when insurance is not
expenses. As such, the balances in the PP&E fund, though funded
                                                                                 available commercially or is available only on unreasonable
from Facilities and Equipment, are excluded from this note.
                                                                                 terms and conditions. The insurance issued, commonly
                                                                                 referred to as war-risk insurance, covers losses resulting
Airport and Airway Trust Fund                                                    from war, terrorism, or other hostile acts. The FAA reported
The FAA’s consolidated financial statements include the results                  premium insurance revenues of $164.2 million and $160.6
of operations and the financial position of the AATF. Congress                   million for the periods ended September 30, 2013 and 2012,
created the AATF with the passage of the Airport and Airway                      respectively. The Aviation Insurance Program activity is
Revenue Act of 1970.                                                             reported below in all other funds from dedicated collections.
                                                                                 The Aviation Insurance Program is discussed further at Notes
The Act provides a dedicated source of funding for the nation’s                  1.V. and 16.
aviation system through the collection of several aviation-related
                                                                            ¢¢   Overflight fees are charged to commercial airlines that fly in
excise taxes. The IRS collects these taxes on behalf of the
                                                                                 U.S. controlled air space, but neither take off nor land in the
FAA’s AATF. These taxes can be withdrawn only as appropriated
                                                                                 U.S. The FAA reported overflight fees of $73.5 million and
by the U.S. Congress. Twice a month, Treasury estimates the
                                                                                 $64.9 million for the periods ended September 30, 2013 and
amount collected and subsequently adjusts the estimates to
                                                                                                                                                                       FINANCI AL RE SULTS


                                                                                 2012, respectively. Overflight fees activity is reported below
reflect actual collections quarterly. The total taxes recognized in
                                                                                 in all other funds from dedicated collections.
FY 2013 included OTA’s estimate of $2.8 billion for the quarter
ended September 30, 2013 and $2.7 billion for the quarter ended           Fiscal data as of, and for the years ended September 30, 2013
September 30, 2012.                                                       and 2012 are summarized in the following charts. Intra-agency
                                                                          transactions have not been eliminated in the amounts presented.
As discussed in Note 1 E., FY 2013 excise tax revenue includes
amounts certified as actual by the IRS for the first three quarters




                                                                  Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   105
                                                                                                                         2013
                                                                                                                 All other funds from     Total funds from
                                                                                                 AATF           dedicated collections   dedicated collections

       Balance Sheet
       Assets
       Fund balance with Treasury                                                           $       964,255       $       2,012,978       $       2,977,233
       Investments, net                                                                          11,855,481               1,966,032              13,821,513
       Accounts receivable, net                                                                          —                4,522,390               4,522,390
       Other assets                                                                                      —                2,915,604               2,915,604
       Total assets                                                                         $    12,819,736       $      11,417,004       $      24,236,740

       Liabilities and net position
       AATF amounts due to the FAA                                                          $     4,444,060       $              —        $       4,444,060
       Other liabilities                                                                                 —                3,345,879               3,345,879
       Unexpended appropriations                                                                         —                  932,877                 932,877
       Cumulative results of operations                                                           8,375,676               7,138,248              15,513,924
       Total liabilities and net position                                                   $    12,819,736       $      11,417,004       $      24,236,740

       Statement of net cost
       Program costs                                                                        $              —      $      15,324,734       $      15,324,734
       Less earned revenue:
       Aviation insurance premiums                                                                         —               (164,170)               (164,170)
       Overflight user fees                                                                                —                 (73,507)                (73,507)
       Other revenue                                                                                       —               (272,544)               (272,544)
       Net cost of operations                                                               $              —      $      14,814,513       $      14,814,513

       Statement of changes in net position
       Cumulative results beginning of period                                               $      6,384,206      $       8,475,557       $      14,859,763
       Non-exchange revenue:
       Passenger ticket tax                                                                       8,769,362                       —                8,769,362
       International departure tax                                                                2,911,287                       —                2,911,287
       Investment income                                                                            233,555                       —                  233,555
       Fuel taxes                                                                                   572,289                       —                  572,289
       Waybill tax                                                                                  618,896                       —                  618,896
       Tax refunds and credits                                                                       (18,274)                     —                  (18,274)
       Other revenue                                                                                      —                   14,460                  14,460
       Budgetary financing sources                                                              (11,095,645)             15,268,651                4,173,006
       Other financing sources                                                                            —               (1,805,907)             (1,805,907)
       Net cost of operations                                                                             —             (14,814,513)            (14,814,513)
       Cumulative results end of period                                                           8,375,676                7,138,248             15,513,924
       Unexpended appropriations                                                                          —                  932,877                 932,877

       Net position end of period                                                           $      8,375,676      $       8,071,125       $      16,446,801




106   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
                                                                                     2012
                                                                        All other funds from                       Total funds from
                                             AATF                      dedicated collections                     dedicated collections

Balance Sheet
Assets
Fund balance with Treasury               $      442,966                    $          2,222,507                    $         2,665,473
Investments, net                             10,473,786                               1,857,678                             12,331,464
Accounts receivable, net                             —                                4,622,538                              4,622,538
Other assets                                         —                                3,996,271                              3,996,271
Total assets                             $   10,916,752                    $         12,698,994                    $        23,615,746

Liabilities and net position
AATF amounts due to the FAA              $    4,532,546                    $                 —                     $         4,532,546
Other liabilities                                    —                                3,186,121                              3,186,121
Unexpended appropriations                            —                                1,037,316                              1,037,316
Cumulative results of operations              6,384,206                               8,475,557                             14,859,763
Total liabilities and net position       $   10,916,752                    $         12,698,994                    $        23,615,746

Statement of net cost
Program costs                            $             —                   $         15,181,396                    $        15,181,396
Less earned revenue:
Aviation insurance premiums                            —                               (160,558)                              (160,558)
Overflight user fees                                   —                                 (64,861)                               (64,861)
Other revenue                                          —                               (228,288)                              (228,288)
Net cost of operations                   $             —                   $         14,727,689                    $        14,727,689

Statement of changes in net position
Cumulative results beginning of period   $     5,092,201                   $          7,781,069                    $        12,873,270
Non-exchange revenue:
Passenger ticket tax                           8,711,445                                     —                               8,711,445
International departure tax                    2,728,594                                     —                               2,728,594
Investment income                                224,628                                     —                                 224,628
Fuel taxes                                       622,794                                     —                                 622,794
Waybill tax                                      491,845                                     —                                 491,845
Tax refunds and credits                           (22,464)                                   —                                 (22,464)
Other revenue                                          —                                 20,288                                 20,288
Budgetary financing sources                  (11,464,837)                            15,864,711                              4,399,874
Other financing sources                                —                               (462,822)                              (462,822)
Net cost of operations                                 —                            (14,727,689)                           (14,727,689)
Cumulative results end of period               6,384,206                              8,475,557                             14,859,763
                                                                                                                                              FINANCI AL RE SULTS


Unexpended appropriations                              —                              1,037,316                              1,037,316

Net position end of period               $     6,384,206                   $          9,512,873                    $        15,897,079




                                         Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   107
       NOTE 13. Imputed Financing Sources

      The FAA recognizes as imputed financing the amount of accrued pension and post-retirement benefit expenses for current employees.
      The assets and liabilities associated with such benefits are the responsibility of the administering agency, the OPM. Amounts paid
      from the U.S. Treasury’s Judgment Fund in settlement of claims or court assessments against the FAA are also recognized as imputed
      financing. For the fiscal years ended September 30, 2013 and 2012, imputed financing was as follows:

                                                                                                                               2013                         2012
       Office of Personnel Management                                                                                $       533,686              $       504,516
       Treasury Judgment Fund                                                                                                 37,341                       47,628

       Total imputed financing sources                                                                               $       571,027              $       552,144




       NOTE 14. Statement of Budgetary Resources Disclosures

      The Required Supplementary Information section of this report includes a schedule of budgetary resources by each of the FAA’s major
      fund types. Budget authority as reported in the Combined Statements of Budgetary Resources includes amounts made available to
      the FAA from general, revolving and special funds, as well as funds from dedicated collections. In contrast, appropriations received as
      reported in the Consolidated Statements of Changes in Net Position pertain only to amounts made available to the FAA from general
      funds. The following is a reconciliation of these amounts as of September 30:

                                                                                                                                2013                         2012
       Combined Statement of Budgetary Resources–budget authority, net                                               $    15,263,962              $    15,902,370

       Less amounts made available to the FAA from AATF dedicated collections                                            (10,670,415)                  (11,308,981)
       Less other dedicated resources                                                                                           (846)                         (688)
       Consolidated Statement of Changes in Net Position–appropriations received                                     $     4,592,701              $     4,592,701



      The FAA had rescissions of $240 million of budgetary resources                                  and $758 million of certain reimbursable and revolving fund
      in FY 2013 due to sequestration; there were no rescissions in                                   obligations incurred that are not presented in the Budget of
      FY 2012.                                                                                        the United States Government. As a result, the FAA’s FY 2012
                                                                                                      Combined Statement of Budgetary Resources differs from the
      As of September 30, 2013 and 2012, the amount of budgetary                                      FY 2012 “actuals” reported in the appendix of the FY 2013
      resources obligated for undelivered orders was $7.2 billion and                                 Budget of the United States Government. (The Budget of the
      $7.8 billion, respectively.                                                                     United States Government is available on the Internet at www.
      There is no difference between Budgetary Authority as reported                                  whitehouse.gov/omb.) As of the date of issuance of the FAA’s
      in FAA’s FY 2012 Combined Statement of Budgetary Resources                                      FY 2013 Combined Statement of Budgetary Resources, the
      and the Budget of the United States Government.                                                 Budget of the United States Government for FY 2015, which will
                                                                                                      contain “actual” FY 2013 amounts, was not yet published. The
      Obligations incurred on the FY 2012 Combined Statement of                                       OMB is expected to publish this information early in calendar
      Budgetary Resources includes $62 million of expired funds                                       year 2014.




108   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
Statement of Budgetary Resources vs. Budget of the United States Government:
                                                                                Budgetary                      Obligations
                                                                                Authority                       Incurred                        Net Outlays
FAA Combined Statement of Budgetary Resources                               $    15,902,000                $     21,377,000                 $     15,828,000

Reconciliation to Budget of the United States Government:
   Obligation from Trust Funds                                                              —                     (5,051,000)                             —
   Distributed Offsetting Receipts                                                          —                             —                           12,000

Budget of the United States Government                                      $    15,902,000                $     16,326,000                 $     15,840,000



OMB Circular No. A-136 requires the following additional Combined Statement of Budgetary Resources disclosure:
 ¢¢   The FAA does not have obligations classified as “exempt from apportionment.” However, during FY 2013 and FY 2012, direct and
      reimbursable obligations incurred against amounts apportioned under categories A and B, as defined in OMB Circular No. A-11,
      Part 4, Instructions on Budget Execution, were as follows:

                                                  2013                                                                        2012
                                    Direct                  Reimbursable                                 Direct                         Reimbursable
Category A                      $     5,359,826             $       447,896                        $        5,636,863                   $            488,819
Category B                           15,321,999                     250,388                                15,810,304                                269,845
Total                           $    20,681,825             $       698,284                        $       21,447,167                   $            758,664


Unobligated balances of budgetary resources for unexpired                  cancelled at year-end pursuant to 31 U.S.C. 1552 and thus have
accounts are available in subsequent years until expiration, upon          not been brought forward to FY 2013. Additionally, transfers
receipt of an apportionment from the OMB. Unobligated balances             in FY 2013 to the DOT for Essential Air Services also reduced
of expired accounts are not available. At the end of FY 2012,              balances available for obligation.
$29.4 million of obligated balances were in appropriations




                                                                                                                                                                      FINANCI AL RE SULTS




                                                                 Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   109
       NOTE 15. Financing Sources Yet to Be Provided
      The following table shows the relationship between liabilities not covered by budgetary or other resources as reported on the balance
      sheets as of September 30, 2013 and 2012, and the change in components of net cost of operations that will require or generate
      resources in future periods.

                                                                                                                   2013            2012        Change
       FECA actuarial (Note 10)                                                                            $    973,055    $    946,778    $    26,277
       Unfunded annual & other leave & assoc. benefits (Note 8)                                                 407,611         404,714          2,897
          Increases – components of net cost of operations
          requiring or generating resources in future periods (Note 17)                                                                         29,174

       FECA payable (Note 8)                                                                                    201,322         206,118          (4,796)
       Sick leave compensation benefits for eligible employees (Note 8)	                                        118,981         126,703           (7,722)
       Legal claims (Note 8 and 16)                                                                               2,667          34,300         (31,633)
       Environmental liabilities (Note 7 and 16)                                                                751,705         810,399         (58,694)
       Capital Leases (Note 8 and 9)	                                                                            78,005          82,304          (4,299)
       Other accrued liabilities (Note 8)                                                                        47,026          95,896         (48,870)
          Decreases – resources that fund expenses
          recognized in prior periods (Note 17)                                                                                                (156,014)

       Total liabilities not covered by budgetary resources                                                    2,580,372       2,707,212       (126,840)

       Total liabilities covered by budgetary resources                                                        1,775,477       1,670,810       104,667

       Total liabilities                                                                                   $   4,355,849   $ 4,378,022     $    (22,173)




110   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 NOTE 16. Commitments, Contingencies, and Other Disclosures

Subsequent Event. Due to a lapse in annual appropriations                    30, 2012, the FAA had obligated $5.8 billion of this total amount,
from October 1, 2013, through October 16, 2013, the FAA ceased               leaving $1.6 billion unobligated.
all non-excepted activities pursuant to the Antideficiency Act,
U.S.C. Section 1341 et seq, and all non-exempt activities.                   Aviation Insurance Program. Under the Aviation Insurance
This partial shutdown included issuing stop work orders for                  Program, the FAA is authorized to issue hull and liability
approximately 1,000 contracts. The financial impact of these stop            insurance for air carrier operations for which commercial
work orders is undetermined at this time.                                    insurance is not available on reasonable terms and when
                                                                             continuation of U.S. flag commercial air service is necessary in
Reauthorization. Effective October 17, 2013, the FAA is                      the interest of air commerce, national security, and the foreign
operating under a continuing resolution (CR), Public Law 113-46              policy of the United States. The FAA may issue non-premium
for its FY 2014 appropriation and many of its programmatic                   insurance and premium insurance for which a risk-based
and financing authorities. The CR will be in effect through                  premium is charged to the air carrier, to the extent practical.
January 15, 2014, and includes a provision that allows the FAA
to collect aviation-related excise taxes and to continue spending            During FY 2013, the FAA provided premium war-risk insurance
at FY 2013 rates. It also provides sufficient contract authority to          to 49 airlines. For these airlines, combined hull and liability per
the Airport Improvement Program.                                             occurrence coverage limits range from $100 million to $4 billion.
                                                                             The FAA also provided non-premium war-risk insurance to 37
In addition, the passage of the FAA Modernization and                        carriers with 2,068 aircraft for U.S. Department of Defense
Reform Act of 2012, Public Law 112-95, authorizes the FAA’s                  charter operations for Central Command.
programmatic and financing authorities, the Airport Improvement
Program contract authority and the authority to collect and                  As of September 30, 2013, there are pending aviation insurance
deposit excise taxes into and make expenditures from the AATF.               claims in the amount of $7.0 million. There is approximately $2.0
The new authority expires on September 30, 2015.                             billion available in the Aviation Insurance Revolving Fund to pay
                                                                             claims to carriers covered by premium insurance. If premium
Airport Improvement Program. The Airport Improvement                         insurance claims should exceed that amount, additional funding
Program provides grants for the planning and development of                  could be appropriated from the General Fund. The Department of
public-use airports that are included in the National Plan of                Defense and the State Department have agreed to pay claims to
Integrated Airport Systems. Eligible projects generally include              the carriers covered by non-premium insurance.
improvements that address airport safety, capacity, security,
and environmental concerns. The FAA’s share of eligible costs                Legal Claims. As of September 30, 2013 and 2012, the FAA’s
for large and medium primary hub airports is 75 percent with                 contingent liabilities for asserted and pending legal claims
the exception of noise program implementation, for which the                 probable and reasonably possible of loss were estimated at $76
FAA’s share is 80 percent. For remaining airports (small primary,            million and $93 million, respectively. There are other claims that
reliever, and general aviation), the FAA’s share of eligible costs is        could result in significant pay-outs; however, it is not possible at
95 percent.                                                                  this time to determine the probability of an unfavorable outcome,
                                                                             or to estimate the amount of potential loss in the event of such
The FAA has authority under 49 U.S.C. 47110(e) to issue letters              an outcome.
of intent to enter into a series of annual Airport Improvement
Program grant agreements. The FAA records an obligation when                 Environmental Liabilities. As of September 30, 2013, the
                                                                                                                                                                          FINANCI AL RE SULTS



a grant is awarded. As of September 30, 2013, the FAA had                    FAA estimated contingent liabilities, categorized as reasonably
letters of intent extending through FY 2028 totaling $7.4 billion.           possible at $165.2 million related to environmental remediation.
As of September 30, 2013, the FAA had obligated $6.0 billion of              Contingency costs are defined for environmental liabilities as
this total amount, leaving $1.4 billion unobligated.                         those costs that may result from incomplete design, unforeseen
                                                                             and unpredictable conditions or uncertainties within a defined
As of September 30, 2012, the FAA had letters of intent                      project scope. Note 7 discloses the environmental liability
extending through FY 2028 totaling $7.4 billion. As of September             accrual.




                                                                     Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   111
       NOTE 17. Reconciliation of Net Cost of Operations to Budget

      This note reconciles the resources available to the FAA to finance operations and the net cost of operating the FAA’s programs.

                                                                                                                                              2013                   2012
       Resources used to finance activities
       Budgetary resources obligated
          Obligations incurred                                                                                                     $    21,380,109         $ 22,205,831
          Less: Spending authority from offsetting collections and receipts and recoveries of prior year
             obligations                                                                                                                 6,339,143             6,460,246
          Obligations, net of offsetting collections                                                                                    15,040,966            15,745,585
       Other resources
          Donations and forfeitures of property                                                                                              78,599              156,817
          Transfers in/(out) without reimbursement                                                                                           88,900                69,755
          Imputed financing from costs absorbed by others                                                                                  571,027               552,144
          Other                                                                                                                            (27,301)              (30,199)
          Net other resources used to finance activities                                                                                   711,225               748,517
             Total resources used to finance activities                                                                                 15,752,191            16,494,102

       Resources used to finance items not part of the net cost of operations
         Change in budgetary resources obligated for goods, services and benefits ordered but not yet
           received                                                                                                                       (598,115)               141,135
         Resources that fund expenses recognized in prior periods (decreases in unfunded liabilities)
              (Note 15)                                                                                                                    156,014                 58,308
         Resources that finance the acquisition of assets                                                                                1,251,875              1,464,254
         Other resources or adjustments to net obligated resources that do not affect net cost of operations                               120,275                195,449
           Total resources used to finance items not part of net cost of operations                                                        930,049              1,859,146
                  Total resources used to finance net cost of operations                                                                14,822,142            14,634,956

       Components of net cost of operations that will not require or generate resources in the
       current period
       Components requiring or generating resources in future periods
          Increases in annual leave liability and other unfunded liabilities (Note 15)                                                      29,174                152,877
       Components not requiring or generating resources in future periods
          Depreciation and amortization                                                                                                  1,270,958              1,136,914
          Other                                                                                                                            103,064                206,413
             Total components of net cost of operations that will not require or generate resources                                      1,374,022              1,343,327
                Total components of net cost of operations that will not require
                or generate resources in the current period                                                                              1,403,196              1,496,204
                  Net cost of operations                                                                                           $    16,225,338         $ 16,131,160

                                                                                                           The accompanying notes are an integral part of these statements.




112   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
                                 U.S. Department of Transportation
                            FEDERAL AVIATION ADMINISTRATION
                              STEWARDSHIP INVESTMENT
                           NON FEDERAL PHYSICAL PROPERTY
                           AIRPORT IMPROVEMENT PROGRAM
                              For the Fiscal Years Ended September 30
                                              Unaudited


State/Territory              2013                2012                          2011                          2010                      2009

Alabama                $    69,580      $      54,765             $       41,267               $           70,995           $        88,006
Alaska                     211,385            234,242                    185,504                          217,745                   258,493
Arizona                     59,764             73,272                     81,577                           74,873                    81,016
Arkansas                    54,673             35,746                     58,152                           44,485                    41,746
California                 231,174            212,080                    242,701                          330,976                   257,045
Colorado                    95,027             74,102                    115,029                          112,610                   127,959
Connecticut                 21,374             16,637                     20,654                           29,152                    36,016
Delaware                    15,745              5,352                      8,240                           11,841                    15,112
District of Columbia         5,354             44,565                      7,862                           20,336                    19,052
Florida                    159,803            160,509                    143,266                          198,920                   209,747
Georgia                     69,999             90,864                     84,877                           62,908                   112,453
Hawaii                      29,153             29,024                     29,391                           32,954                    81,303
Idaho                       23,593             18,813                     21,529                           19,925                    26,444
Illinois                   178,873            161,320                    120,826                          123,683                   126,249
Indiana                     79,478             42,460                     68,204                           65,839                    63,444
Iowa                        58,577             41,221                     31,191                           40,461                    30,776
Kansas                      51,988             31,476                     24,293                           55,251                    43,475
Kentucky                    37,744             24,432                     25,941                           43,532                    47,411
Louisiana                   50,276             55,676                     63,079                           94,206                    66,617
Maine                       35,512             18,257                     26,882                           29,465                    21,130
Maryland                    32,286             15,011                     21,000                           23,741                    26,262
Massachusetts               53,349             66,044                     55,491                           77,362                    77,193
Michigan                    72,910             76,900                     85,698                          126,271                    95,534
Minnesota                   53,843             48,313                     54,819                           81,733                    62,844
Mississippi                 41,555             35,713                     60,065                           47,301                    43,608
Missouri                    55,522             46,445                     38,719                          105,807                    79,620
Montana                     44,474             48,128                     36,530                           41,271                    44,214
Nebraska                    31,781             34,711                     50,130                           28,140                    46,884
                                                                                                                                                  FINANCI AL RE SULTS


Nevada                      36,441             50,051                     45,926                           60,035                    62,106
New Hampshire               17,623             21,070                     14,752                           15,634                    21,930
New Jersey                  99,443             47,444                     75,939                          121,679                    81,388
New Mexico                  27,787             26,163                     26,387                           30,488                    25,966

                                                                                                                    (continued on next page)




                                             Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   113
                                                                            U.S. Department of Transportation
                                                                     FEDERAL AVIATION ADMINISTRATION
                                                                      STEWARDSHIP INVESTMENT
                                                                   NON FEDERAL PHYSICAL PROPERTY
                                                                   AIRPORT IMPROVEMENT PROGRAM
                                                                        For the Fiscal Years Ended September 30
                                                                                        Unaudited


       State/Territory                                                 2013                       2012                  2011                  2010                   2009

       New York                                           $          98,699            $       94,424          $      93,252         $     111,390         $     111,873
       North Carolina                                               101,080                    51,337                 77,725               109,685               105,959
       North Dakota                                                  53,066                    28,723                 23,127                26,195                21,948
       Ohio                                                          81,205                    79,962                 97,423                83,681               106,927
       Oklahoma                                                      59,213                    37,892                 41,488                46,774                49,832
       Oregon                                                        58,929                    36,671                 56,134                80,910                62,678
       Pennsylvania                                                  53,146                    82,029                 91,215               106,319               112,739
       Rhode Island                                                  11,939                     3,675                  8,059                20,554                 7,441
       South Carolina                                                54,621                    49,512                 56,367                45,763                42,403
       South Dakota                                                  39,320                    32,712                 29,846                32,330                32,142
       Tennessee                                                     84,893                    59,545                 75,136               101,234                96,655
       Texas                                                        235,366                   195,321                240,380               249,084               289,801
       Utah                                                          59,188                    42,705                 49,029                34,482                39,329
       Vermont                                                        8,661                     9,998                 26,103                21,628                 8,179
       Virginia                                                      60,272                    42,571                 32,379                57,930                81,283
       Washington                                                    79,861                    89,797                120,976                98,228               133,508
       West Virginia                                                 24,015                    26,544                 27,167                27,634                28,280
       Wisconsin                                                     75,601                    51,167                 65,061                78,599                61,043
       Wyoming                                                       30,746                    20,108                 22,845                34,190                25,486
       American Samoa                                                 2,795                     4,952                 12,315                 6,650                 9,273
       Guam                                                          10,324                     3,238                 11,952                19,574                38,245
       Northern Mariana Islands                                      17,070                     5,714                 10,502                14,420                 8,678
       Puerto Rico                                                   18,303                    11,492                  6,569                12,019                20,625
       Virgin Islands                                                31,012                     2,545                 16,076                 7,602                 3,698
       Marshall Islands                                               4,226                     2,669                  4,463                24,514
       Administration                                               143,312                   133,576                127,202               124,454               115,902

       Totals                                             $        3,602,949           $    3,139,685          $    3,388,712        $    4,015,462        $    4,034,970



      The FAA makes project grants for airport planning and                                           The FAA works to improve the infrastructure of the nation’s
      development under the Airport Improvement Program to maintain                                   airports, in cooperation with airport authorities, local and state
      a safe and efficient nationwide system of public-use airports that                              governments, and metropolitan planning authorities.
      meets both the present and future needs of civil aeronautics.




114   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
                                                    U.S. Department of Transportation
                                              FEDERAL AVIATION ADMINISTRATION
                                                STEWARDSHIP INVESTMENT
                                               RESEARCH AND DEVELOPMENT
                                                 For the Fiscal Years Ended September 30
                                                                 Unaudited



Expenses                                         2013                     2012                          2011                          2010                      2009

Applied Research                         $   119,952           $       133,932              $     129,954                 $        103,042             $      95,764
Development                                      312                     1,311                      2,238                            2,008                     1,102
Administration                                35,929                    37,482                     35,875                           36,723                    35,055
R&D Plant                                     26,086                    18,974                      5,848                            5,590                     3,381
Total                                    $    182,279          $       191,699              $     173,915                 $        147,363             $     135,302


The FAA conducts research and provides the essential air traffic              the ability of a large transport airplane-under the most realistic
control infrastructure to meet increasing demands for higher                  conditions possible-to withstand a fire involving a large number
levels of safety, efficiency, and environmental protection.                   of lithium batteries.
                                                                              In FY 2014, the 727 freighter will be used to examine the
Research priorities include aircraft structures and materials; fire
                                                                              effectiveness of fire containment covers (used on cargo pallets)
and cabin safety; crash injury protection; explosive detection
                                                                              and hardened fire containers for protecting against lithium
systems; ground de-icing operations and decreased in-flight ice
                                                                              battery fires. Moreover, a zoned water spray system will be
buildup; better tools to predict and warn of weather hazards,
                                                                              developed and evaluated for lithium battery fire suppression in
turbulence, and wake vortices; aviation medicine; and human
                                                                              the main deck (Class E) cargo compartment.
factors. Human factors refer to research on how people (e.g., air
traffic controllers and pilots) perform when interacting with, for
example, technology and equipment, under various conditions.                  In-Flight Icing Product Enhancement
Optimizing this interaction contributes to safer air travel.                  In-flight icing causes more than 25 accidents annually, with more
                                                                              than half resulting in fatalities and destroyed aircraft according
Lithium Battery Testing for Cargo Aircraft                                    to National Transportation Safety Board data. This equates to
                                                                              more than $100 million in injuries, fatalities, and aircraft damage
In FY 2013, FAA completed full-scale fire tests on bulk shipments
                                                                              annually. To address this problem, the FAA’s Aviation Weather
of large numbers of lithium batteries in a fully operational but
                                                                              Research Program developed the Current and Forecast Icing
non-flyable 727 freighter. The bulk shipment consisted of 5000
                                                                              Products (CIP and FIP) which provide more accurate and timely
lithium batteries, either lithium primary (non-rechargeable) or
                                                                              diagnoses and forecasts of atmospheric conditions leading to ice
rechargeable lithium ion batteries, commonly employed in lap
                                                                              accretion on aircraft during flight. CIP and FIP were implemented
top computers, I pads, and other portable electronic devices. The
                                                                              operationally on the web-based Aviation Digital Data Service at
727 was fire hardened and a water spray system was employed
                                                                              the National Oceanic and Atmospheric Administration’s Aviation
to protect the test article to allow for repeated tests. Non-lithium
                                                                              Weather Center in Kansas City.
batteries were also tested for comparison. Tests were conducted
                                                                                                                                                                           FINANCI AL RE SULTS


in the main deck Class E cargo compartment, which requires a                  In FY 2013, the Weather Program upgraded the CIP and FIP
fire detection system and ventilation controls to minimize air                algorithms to meet requirements of a High Resolution diagnoses
flow into the compartment and prevent smoke build-up in the                   and forecast of atmospheric conditions conducive to aircraft
flight deck. Tests were also conducted in the lower Class C cargo             icing. These upgraded algorithms, also known as CIP/FIP High
compartment, which had a halon fire suppression system in the                 Resolution improve the horizontal and vertical resolution and
727. FAA requires that all large passenger carrying airplanes                 extend the forecast from 12 hours out to 18 hours.
have Class C cargo compartments. The test results demonstrated




                                                                      Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   115
      Wind Information Quality Standards                                                              The wind study research developed a Wind Information
      Development                                                                                     Analysis Framework that provided a capability to simulate
                                                                                                      NextGen operational performance using selected scenarios (e.g.
      Accurate wind information is critical to the development and
                                                                                                      aircraft type, phase of flight, flight scenario) in varying wind
      delivery of Next Generation Air Transportation System (NextGen)
                                                                                                      conditions (i.e. vertical wind shears). Using the Wind Information
      system enhancements. Wind information requirements include
                                                                                                      Analysis Framework, simulations were run by modeling various
      the need for accurate wind forecasts, consistent winds between
                                                                                                      levels of wind information quality in the cockpit, the Flight
      various ground and airborne systems, and consideration of how
                                                                                                      Management System (FMS), and on the ground, and various
      those winds are being used by ground and airborne system
                                                                                                      aircraft capabilities, to determine the resulting performance
      algorithms. The FAA Weather Technology in the Cockpit (WTIC)
                                                                                                      of the NextGen operation and scenario being evaluated. The
      program performed research to determine the relationships
                                                                                                      results of the simulations will be used by stakeholders to identify
      between wind information quality and the performance of the
                                                                                                      quantitative requirements for a minimum level of wind quality in
      NextGen operational improvements they enable. The overall goal
                                                                                                      cockpits and FMS to enable the desired level of performance of a
      of this research was to support the development of quantitative
                                                                                                      specific NextGen operation.
      requirements for wind diagnosis and forecast capabilities that
      enable NextGen operations that are impacted by winds to deliver
      their desired level of benefits.




116   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
REQUIRED SUPPLEMENTARY INFORMATION
                                                U.S. Department of Transportation
                                          FEDERAL AVIATION ADMINISTRATION
                                          SUPPLEMENTARY INFORMATION
                                            DEFERRED MAINTENANCE
                                                     As of September 30, 2013
                                                            Unaudited


                                                                                                                                        Costs to return to
 Category                                              Method                                 Asset condition*                        acceptable condition

 Buildings                                      Condition assessment                                     4&5                                   $        89,183
 Other structures and facilities                Condition assessment                                     4&5                                   $      413,297
* Condition Rating Scale: 4–Poor; 5–Very Poor
	


Deferred maintenance and repair is maintenance or repair                (amends SFFAS’s 6 and 8), and SFFAS Number 40, “Definitional
that was not performed when it should have been, or was                 Changes Related to Deferred Maintenance and Repairs” (amends
scheduled to be performed but was delayed until a future                SFFAS 6).
period due to a lack of resources or funding. The FAA reports
deferred maintenance and repair only on assets with condition           Deferred maintenance and repair is estimated using condition
ratings of 4 and 5, in compliance with the SFFAS Number 6,              assessment surveys and includes the following FAA buildings,
“Accounting for Property, Plant, and Equipment,” SFFAS                  structures, and facilities: En Route, Terminal, the William J.
Number 8, “Supplemental Stewardship Reporting,“ SFFAS                   Hughes Technical Center, the Mike Monroney Aeronautical
Number 14, “Amendments to Deferred Maintenance Reporting”               Center and unstaffed facilities. The FAA recognizes maintenance
                                                                        and repair expense as incurred.




                                                                                                                                                                     FINANCI AL RE SULTS




                                                                Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   117
118
                                                                                                                              U. S. Department of Transportation
                                                                                                                          FEDERAL AVIATION ADMINISTRATION
                                                                                                SCHEDULE OF BUDGETARY RESOURCES BY MAJOR FUND TYPE
                                                                                                                                     As of September 30, 2013
                                                                                                                                            Unaudited

                                                                                                           Trust Fund       Trust Fund         Trust Fund             Aviation
                                                                                                        Grants-in-Aid      Facilities &    Research, Eng.           Insurance         Franchise                              Other          Combined
                                                                                                          to Airports      Equipment       & Development             Revolving            Fund         Operations            Funds              Total




Federal Aviation Administration
|
                                        BUDGETARY RESOURCES
                                         Unobligated balance brought forward, transfers and other       $      14,221      $ 1,265,817      $      80,769       $ 1,834,339       $     109,077    $      172,855     $      42,600     $    3,519,678
                                         Recoveries of prior year obligations                                 133,136          100,788              6,363                  —             35,127            96,295             1,953            373,662
                                         Other changes in unobligated balance                                      —            (43,508)           (2,545)                384               —              (43,840)           4,393             (85,116)




Fiscal Year 2013
                                         Appropriations                                                            —         2,616,397            158,798                  —                —           4,352,475         4,796,830         11,924,500




|
                                         Contract authority                                                 3,343,300               —                 —                    —                —                  —                 —           3,343,300
                                         Spending authority from offsetting collections                           771           98,923              1,520             190,656           424,820         5,193,231               966          5,910,887
                                        Total Budgetary Resources                                       $   3,491,428      $ 4,038,417      $     244,905       $ 2,025,379       $     569,024    $ 9,771,016        $ $,846,742       $ 24,986,911

                                        STATUS OF BUDGETARY RESOURCES
                                         Obligations incurred                                           $   3,476,065      $ 2,869,633      $     154,563       $      13,632     $     447,895    $ 9,622,011        $ 4,796,310       $ 21,380,109
                                         Apportioned	                                                           1,446        1,096,339             85,295              43,496           113,785            47,669               674          1,388,704
                                         Unapportioned                                                         13,917           72,445              5,047            1,968,251            7,344           101,336            49,758          2,218,098
                                        Total Status of Budgetary Resources                             $   3,491,428      $ 4,038,417      $     244,905       $ 2,025,379       $     569,024    $ 9,771,016        $ 4,846,742       $ 24,986,911




Performance and Accountability Report
                                        CHANGE IN OBLIGATED BALANCES
                                         Obligated balance, net, beginning of period                    $   5,427,782      $ 1,861,296      $     136,424       $       1,747     $     162,443    $ 1,343,022        $       5,333     $    8,938,047
                                         Obligations incurred                                               3,476,065        2,869,633            154,563              13,632           447,895         9,622,011         4,796,310         21,380,109
                                         Gross outlays                                                      (3,653,396)      (2,848,772)         (158,301)             (13,779)        (423,697)        (9,585,108)       (4,798,359)       (21,481,412)
                                         Recoveries of prior year obligations                                (133,136)        (100,788)            (6,363)                 —            (35,127)           (96,295)           (1,953)         (373,662)
                                         Change in uncollected customer payments from Federal sources              —             (6,165)            4,760                  —             (5,308)           61,555                —              54,842
                                        Obligated Balance, net, end of period                           $   5,117,315      $ 1,775,204      $     131,083       $       1,600     $     146,206    $ 1,345,185        $       1,331     $    8,517,924

                                        BUDGET AUTHORITY AND OUTLAYS
                                         Budget authority, gross                                        $   3,344,071      $ 2,715,320      $     160,318       $     190,656     $     424,820    $ 9,545,706        $ 4,797,796       $ 21,178,687
                                         Actual offsetting collections                                            (849)         (95,918)           (6,280)            (190,727)        (419,512)        (5,255,314)             (967)        (5,969,567)
                                         Change in uncollected customer payments from Federal sources              —             (6,165)            4,760                  —             (5,308)           61,555                —              54,842
                                        Budget Authority, net			                                        $   3,343,222      $ 2,613,237      $     158,798       $          (71)   $         —      $ 4,351,947        $ 4,796,829       $ 15,263,962

                                        NET OUTLAYS
                                         Gross outlays                                                  $   3,653,396      $ 2,848,772      $     158,301       $      13,779     $     423,697    $ 9,585,108        $ 4,798,359       $ 21,481,412
                                         Collections, net of offsetting receipts                                  (849)         (95,918)           (6,280)            (190,727)        (419,512)        (5,255,314)             (967)        (5,969,567)
                                         Distributed offsetting receipts                                           —                —                 —                    —                —                  —              (2,801)            (2,801)
                                        Net Outlays                                                     $   3,652,547      $ 2,752,854      $     152,021       $     (176,948)   $       4,185    $ 4,329,794        $ 4,794,591       $ 15,509,044
                                                                                                                              U. S. Department of Transportation
                                                                                                                          FEDERAL AVIATION ADMINISTRATION
                                                                                               SCHEDULE OF BUDGETARY RESOURCES BY MAJOR FUND TYPE
                                                                                                                                     As of September 30, 2012
                                                                                                                                            Unaudited

                                                                                                           Trust Fund        Trust Fund        Trust Fund             Aviation
                                                                                                        Grants-in-Aid       Facilities &   Research, Eng.           Insurance         Franchise                              Other          Combined
                                                                                                          to Airports       Equipment      & Development             Revolving            Fund         Operations            Funds              Total
                                        BUDGETARY RESOURCES
                                         Unobligated balance brought forward, transfers and other       $      12,531      $ 1,479,618       $     82,707       $ 1,671,936       $     127,592    $      162,187     $      19,640     $    3,556,211
                                         Recoveries of prior year obligations                                 145,952          122,692              6,676                  53            18,850           112,754             6,913            413,890
                                         Other changes in unobligated balance                                      —            (70,177)           (1,966)                 —                —              (60,234)          15,536           (116,841)
                                         Appropriations                                                            —          2,730,732           167,572                  —                —           4,592,701         5,061,365         12,552,370
                                         Contract authority                                                 3,350,000                —                —                    —                —                  —                 —           3,350,000
                                         Spending authority from offsetting collections                           230            56,548             6,154             161,763           451,454         5,293,517               213          5,969,879
                                        Total Budgetary Resources                                       $   3,508,713      $ 4,319,413       $    261,143       $ 1,833,752       $     597,896    $ 10,100,925       $ 5,103,667       $ 25,725,509

                                        STATUS OF BUDGETARY RESOURCES
                                         Obligations incurred                                           $   3,494,492      $ 3,053,596       $    180,374       $         (587)   $     488,819    $ 9,928,070        $ 5,061,067       $ 22,205,831
                                         Apportioned	                                                           2,473         1,172,189            49,167              43,634            98,125            65,325                  1         1,430,914
                                         Unapportioned                                                         11,748            93,628            31,602            1,790,705           10,952           107,530            42,599          2,088,764
                                        Total Status of Budgetary Resources                             $   3,508,713      $ 4,319,413       $    261,143       $ 1,833,752       $     597,896    $ 10,100,925       $ 5,103,667       $ 25,725,509

                                        CHANGE IN OBLIGATED BALANCES
                                         Obligated balance, net, beginning of period                    $   5,223,111      $ 1,905,142       $    152,482       $       5,546     $     129,561    $ 1,491,128        $      48,089     $    8,955,059
                                         Obligations incurred                                               3,494,492         3,053,596           180,374                 (587)         488,819         9,928,070         5,061,067         22,205,831
                                         Gross outlays                                                      (3,143,869)      (2,968,584)         (187,866)              (3,159)        (443,427)        (9,922,552)       (5,096,844)       (21,766,301)




Federal Aviation Administration
|
                                         Recoveries of prior year obligations                                (145,952)         (122,692)           (6,676)                 (53)         (18,850)         (112,754)            (6,913)         (413,890)
                                         Change in uncollected customer payments from Federal sources              —             (6,166)           (1,890)                 —              6,340            (40,870)              (66)           (42,652)
                                        Obligated Balance, net, end of period                           $   5,427,782      $ 1,861,296       $    136,424       $       1,747     $     162,443    $ 1,343,022        $       5,333     $    8,938,047

                                        BUDGET AUTHORITY AND OUTLAYS




Fiscal Year 2013
|
                                         Budget authority, gross                                        $   3,350,230      $ 2,787,280       $    173,726       $     161,763     $     451,454    $ 9,886,218        $ 5,061,578       $ 21,872,249
                                         Actual offsetting collections                                            (230)         (50,382)           (4,264)            (161,763)        (457,794)        (5,252,647)             (147)        (5,927,227)
                                         Change in uncollected customer payments from Federal sources              —             (6,166)           (1,890)                 —              6,340            (40,870)              (66)           (42,652)
                                        Budget Authority, net			                                        $   3,350,000      $ 2,730,732       $    167,572       $          —      $         —      $ 4,592,701        $ 5,061,365       $ 15,902,370

                                        NET OUTLAYS
                                         Gross outlays                                                  $   3,143,869      $ 2,968,584       $    187,866       $       3,159     $     443,427    $ 9,922,552        $ 5,096,844       $ 21,766,301
                                         Collections, net of offsetting receipts                                  (230)         (50,382)           (4,264)            (161,763)        (457,794)        (5,252,647)             (147)        (5,927,227)
                                         Distributed offsetting receipts                                           —                 —                —                    —                —                  —             (11,560)           (11,560)
                                        Net Outlays                                                     $   3,143,639      $ 2,918,202       $    183,602       $     (158,604)   $     (14,367)   $ 4,669,905        $ 5,085,137       $ 15,827,514




Performance and Accountability Report
                                                  FINANCI AL RE SULTS




119
      OTHER INFORMATION



120
SUMMARY OF INSPECTOR GENERAL’S TOP MANAGEMENT CHALLENGES
The Reports Consolidation Act of 2000 requires the Inspector General (IG) to identify and report annually on the most serious
management and performance challenges that federal agencies face. The Department of Transportation (DOT) IG’s report, which
is issued soon after the beginning of the fiscal year, highlights urgent issues for the Department as a whole. On November 15,
2012, the IG issued the following memorandum identifying the Department-wide top management challenges for FY 2013:




                                                                    Memorandum
                        U.S. Department of
                        Transportation
                        Office of the Secretary
                        of Transportation
                        Office of Inspector General


             Subject:   INFORMATION: DOT’s Fiscal Year 2013                              Date:       November 15, 2012
                        Top Management Challenges
                        Department of Transportation
                        Report Number PT-2013-011

               From:    Calvin L. Scovel III                                          Reply to
                                                                                                     J-1
                                                                                      Attn. of:
                        Inspector General

                 To:    The Secretary
                        Deputy Secretary

                        As required by law, we have identified the Department of Transportation’s (DOT) top
                        management challenges for fiscal year 2013. A safe and well-managed transportation
                        system is key for the U.S. economy and the quality of life for the traveling public. To
                        maintain and modernize all modes of transportation, the Department spends over
                        $70 billion annually on a wide range of programs. Consequently, it is critical for the
                        Department to carry out its mission within a framework of rigorous stewardship of
                        taxpayer funds, and we continue to support the Department’s efforts through our
                        audits and investigations.

                        Global and domestic travel are projected to significantly increase the demand on our
                        transportation system, and the Department faces considerable challenges in improving
                        the Nation’s surface infrastructure and airspace. A key issue is the Next Generation
                        Air Transportation System—a multibillion-dollar effort to modernize the U.S. air
                        traffic control system. The Department is working diligently to address numerous
                        challenges we have identified over the years with this highly complex undertaking.
                        However, much work remains to move from planning to implementation, tighten cost
                        and schedule controls, and better define benefits and an end state for users.
                                                                                                                                                                          OTHER INF ORMATI ON


                        It is also critical that the Department take every opportunity to make efficient use of
                        funds through improved acquisition and grant management—an ongoing challenge
                        with multi-modal impact. This past year, our work also highlighted the need for the
                        Department to better safeguard its investments in key assets to support or expand
                        transportation. These challenges include enforcing reforms to business practices,
                        closely overseeing financing plans, and protecting critical information systems.


                        2013 Top Management Challenges, Department of Transportation




                                                                   Federal Aviation Administration    |    Fiscal Year 2013   |   Performance and Accountability Report   121
                               Improving air and surface safety continues to be the Department’s overarching
                               priority. This past year, the Department has made important progress toward meeting
                               new airline safety regulations to advance voluntary safety programs at air carriers and
                               improve pilot rest requirements. To maintain the Nation’s excellent aviation safety
                               record, the Department must address a number of challenges. These include
                               maximizing existing data to identify trends and root causes of safety issues, enhancing
                               risk-based oversight at carriers and repair stations, and mitigating air traffic controller
                               fatigue.

                               In terms of surface safety, fatalities on the Nation’s highways have generally declined
                               over the last several years; however, the safety of the Nation’s highways, railroads,
                               and pipelines remains an ongoing concern. The Department must implement a number
                               of safety requirements enacted in 2012 to identify defective vehicles, better protect
                               motor coach passengers, enhance mass transit safety, and develop a national tunnel
                               inspection program.

                               We continue to build a body of work to assist the Department with its critical mission;
                               improve the management and execution of programs; and protect the Department’s
                               resources from fraud, waste, abuse, and violations of law. We considered several
                               criteria in identifying the following nine challenges, including their impact on safety,
                               documented vulnerabilities, large dollar implications, and the ability of the
                               Department to effect change in these areas:

                                  • Ensuring the Next Generation Air Transportation System Advances Safety and Air
                                    Travel

                                  • Enhancing FAA’s Oversight and Use of Data To Identify and Mitigate Safety
                                    Risks

                                  • Overseeing Administration of Key Transportation Assets To Ensure Their Success
                                    and Sustainability

                                  • Strengthening Existing Surface Safety Programs and Effectively Implementing
                                    New Safety Requirements

                                  • Maximizing Surface Infrastructure Investments With Effective Program Oversight
                                    and Execution of New Legislative Requirements

                                  • Adequately Overseeing Administration of High Speed Intercity Passenger Rail
                                    Grant Funds

                                  • Strengthening Financial Management Over Grants To Better Use Funds, Create
                                    Jobs, and Improve Infrastructure



                               2013 Top Management Challenges, Department of Transportation                          ii




122   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
 • Ensuring Effective Management of DOT’s Acquisitions To Maximize Value and
   Program Performance

 • Managing and Securing Information Systems To Efficiently Modernize
   Technology Infrastructure and Protect Sensitive Data From Compromise

We are committed to keeping decision makers informed of issues identified through
our audits and investigations. We appreciate the Department’s commitment to taking
prompt corrective action in response to our findings and recommendations. This
report and the Department’s response will be included in the Department’s Annual
Financial Report, as required by law. The Department’s response is included in its
entirety in the appendix to this report. If you have any questions regarding this report,
please contact me at (202) 366-1959. You may also contact Lou E. Dixon, Principal
Assistant Inspector General for Audits and Evaluation, at (202) 366-1427.


                                                #

cc: DOT Audit Liaison, M-1




                                                                                                                                                    OTHER INF ORMATI ON




2013 Top Management Challenges, Department of Transportation                                                iii




                                               Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   123
      In FY 2013, the FAA was tasked by DOT with addressing three of                                  report identifying the IG Top Management Challenges for Fiscal
      the nine broad challenges identified by the IG. Those three broad                               Year 2013 are posted on FAA’s website at http://www.faa.gov/
      categories and eleven key subcomponent challenges within                                        about/plans_reports/ under the DOT IG Top Management
      them, are summarized below:                                                                     Challenges section.
       ¢¢   Ensuring the Next Generation Air Transportation
            System Advances Safety and Air Travel
                Realizing Benefits from NextGen Capabilities at
                                                                                                      ENSURING THE NEXT GENERATION AIR
                Congested Airports in the Near Term
                                                                                                      TRANSPORTATION SYSTEM ADVANCES
                Mitigating Risks that Delays with the En Route                                        SAFETY AND AIR TRAVEL
                Automation Modernization Program Pose to Critical
                NextGen Initiatives                                                                   KEY CHALLENGE:
                                                                                                      Realizing Benefits from NextGen Capabilities at Congested
                Making Decisions on Facility Consolidation and
                                                                                                      Airports in the Near Term
                Modernization
                Completing an Integrated Master Schedule for NextGen                                  ISSUE:
                Transformational Programs                                                             In response to recommendations from the 2009 NextGen
                                                                                                      Mid-Term Implementation Task Force report, the FAA
                Achieving Expected Outcomes from Reorganization to
                                                                                                      undertook an effort to pursue advances at the most congested
                Improve NextGen Management
                                                                                                      “metroplexes”—large metropolitan areas served by multiple
                Integrating Unmanned Aircraft Systems into the National                               airports, sharing the same congested airspace—that could be
                Airspace System                                                                       implemented within a few years. The Task Force recommended
                                                                                                      that the FAA implement airspace redesign and Performance
       ¢¢   Enhancing FAA’s Oversight and Use of Data to Identify
                                                                                                      Based Navigation (PBN) procedures which could be achieved
            and Mitigate Safety Risks
                                                                                                      quickly, without the need for extensive environmental review
                Identifying Trends in Operational Errors and Determining                              and without requiring costly new equipage. The FAA thus began
                Their Root Causes                                                                     in 2010 the Optimization of Airspace and Procedures in the
                Advancing Oversight by Implementing the Airline Safety                                Metroplex program (OAPM). The idea behind OAPM is that while
                Act of 2010                                                                           the FAA continues to pursue cutting-edge NextGen solutions,
                                                                                                      these OAPM improvements could be made quickly and with more
                Providing More Rigorous Risk-Based Oversight of Repair
                                                                                                      immediate benefits.
                Stations and Identifying Inspector Staffing Requirements
                Identifying the Effects of Air Traffic Controller Scheduling                          The IG states that there is concern among stakeholders that
                on Safety, Cost Efficiency, and Controller Performance                                OAPM may be late, and may not deliver all desired benefits,
                                                                                                      “since FAA has focused on limited airspace and procedure
       ¢¢   Strengthening Financial Management Over Grants                                            improvements rather than maximizing new technologies and
            to Better Use Funds, Create Jobs and Improve                                              advanced procedures.” FAA does not agree with IG’s assessment
            Infrastructure                                                                            of benefits since the original purpose of the task force
                Strengthening DOT’s Acquisition Planning, Oversight, and                              recommendations was to redesign navigation procedures without
                Workforce                                                                             an extensive process or need for equipage.

      Soon after the IG report was issued, the FAA developed an action                                ACTIONS TAKEN IN FY 2013:
      plan for each of the 11 key issues. Included in these action plans                              The enactment of the FY 2013 budget sequester and associated
      were detailed steps and timelines for addressing the challenge.                                 furlough in spring 2013 required the return of National Air Traffic
      At the end of FY 2013, the FAA submitted “actions taken” reports                                Controllers Association (NATCA) Article 48 local and national
      to DOT. These reports provided our progress made throughout FY                                  subject matter experts to their facilities. Although the actual
      2013 in addressing each of the key challenges. These year-end                                   FAA furlough was brief, these controllers had been integrated
      actions taken reports, our action plans and the comprehensive                                   into facility schedules and returning them to OAPM duties took




124   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
up to six weeks. Because the success of Metroplex depends on             KEY CHALLENGE:
collaboration, the OAPM projects were effectively on hold from           Mitigating Risks that Delays with the En Route Automation
mid-April through May.                                                   Modernization Program Pose to Critical NextGen Initiatives

This delay was compounded in August/September when                       ISSUE:
the implementation schedule for the En Route Automation                  Increasing airspace capacity and reducing flight delays depend on
Modernization (ERAM) system was readjusted, and again came               the successful implementation of ERAM—a $2.1 billion system
into conflict with the established OAPM Program Schedule at              to replace hardware and software at FAA’s facilities that manage
Ft. Worth, Washington, Charlotte, and Atlanta. OAPM originally           high-altitude traffic. FAA originally planned to complete ERAM
deconflicted its schedule from ERAM’s schedule in 2011. The              by the end of 2010. However, software problems have impacted
FAA deemed ERAM to be the higher priority program and OAPM               the system’s ability to safely manage and separate aircraft and
procedure implementation was delayed so as not to increase               raised questions as to what capabilities ERAM will ultimately
implementation risk for ERAM. This deconfliction of programs             deliver. FAA rebaselined the program in 2011, which pushed
resulted in the schedules at the Washington DC, North Texas,             its expected completion to 2014 and increased cost estimates
Charlotte, and Atlanta Metroplexes being delayed for up to 18            by $330 million. FAA is taking steps to get ERAM on track and
months.                                                                  is using the system on a full-time basis at several sites—a
                                                                         significant step forward given the extensive software problems
The Washington and North Texas Metroplexes were well into                during testing at the two initial sites. Recent progress at those
implementation phase activities when the schedules were                  two sites has allowed FAA to phase out their legacy air traffic
adjusted in September 2013. Washington procedures that                   control systems. However, other facilities continue to identify
were to begin implementation in December 2013 were delayed               software problems, and FAA will likely encounter these and other
until 2015 and implementation will not be complete until                 issues when it implements ERAM at some of the nation’s busiest
September 2015. North Texas will not complete implementation             facilities. If software problems persist, the program’s cost growth
until October 2014. The Houston Metroplex is also in the                 could exceed $500 million, and delays could stretch out to 2016.
implementation phase, with procedures to be implemented in               Prolonged delays with ERAM will directly impact the overall cost
May 2014. The Phoenix Metroplex completed the study phase.               and pace of NextGen. Without ERAM, the benefits of several
The Southern California Metroplex is mid-way through its design          other programs, such as a new satellite-based surveillance
phase. The Atlanta and Charlotte Metroplexes are concluding              system and data communications for controllers and pilots, will
the evaluation phase, but completion of the implementation               not be possible.
phase will be delayed until August 2016 due to Atlanta air
route traffic control center ERAM implementation. Northern               ACTIONS TAKEN IN FY 2013:
California Metroplex is mid-way through the evaluation phase.            The program office has implemented a deep-dive architecture
In Washington DC, user benefits are increasing through the               review of the system. This work focuses on areas of system
utilization of PBN procedures implemented as part of the                 stability, reliability, and interoperability with other NextGen
Metroplex Tri-Flow Project.                                              systems. The recommendations and monitoring data from the
                                                                         ERAM architecture review demonstrate the system is either
Metroplex initiated the deliberative process to address                  meeting or exceeding performance levels for availability in its
the NextGen Advisory Committee (NAC) June 2013                           system and sub-system components.
Recommendations for Increased Utilization of PBN in the
National Airspace System report. This process will also address          The program office continues to apply its processes and
issues regarding PBN field implementation that have been identi-         standards for packaging and deploying builds using a
                                                                                                                                                                      OTHER INF ORMATI ON


fied by interval FAA processes.                                          collaboratively-managed process between the program office,
                                                                         second level engineering, NATCA, and site teams to deploy
                                                                         software. This process ensures upstream planning beginning
                                                                         more than three months in advance of software test dates to
                                                                         ensure that the necessary plans, resources, and sites are aligned
                                                                         to ensure robust verification and validation of software in ‘like-
                                                                         operational’ conditions.




                                                                 Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   125
      The program office initiated recurring pre-operational review                                   quarter of FY 2015. This creates a seven month delay in the
      meetings with the sites that have not yet begun initial operations                              program. This increases the total cost to deliver ERAM because
      with ERAM. While this process is typical of any site that                                       of the overhead associated with the program office, Lockheed
      would be planning to transition to ERAM-based operations,                                       Martin Corporation, and service life extension, to deploy ERAM
      starting it this far in advance is not typical. This early start is                             at sites extends 7 months as well, on the order of approximately
      aimed at better understanding any potentially new and specific                                  $42 million.
      downstream needs and proactively addressing them.

      The ERAM program continues to use the standing work group
      within the construct of the contract between the FAA and                                        KEY CHALLENGE:
      NATCA, as well as Professional Aviation Safety Specialists                                      Making Decisions on Facility Consolidation and Modernization
      (PASS), to collaborate on program strategy, software content,
                                                                                                      ISSUE:
      site implementation needs, and a range of other activities. This
                                                                                                      FAA has not made key decisions on the number and locations of
      improves transparency and communication for developing buy-in
                                                                                                      air traffic facilities needed to support NextGen or on the level
      to the program, and has enhanced the ability of the program to
                                                                                                      of automation that can be realistically and safely achieved to
      successfully achieve key programmatic milestones.
                                                                                                      manage traffic. In November 2011, FAA formalized an initial plan
      The ERAM program has renegotiated the ERAM contract with the                                    for consolidating en route centers and Terminal Radar Approach
      prime vendor for FY 2012 efforts and beyond. This renegotiation                                 Control (TRACON) facilities into large, integrated facilities in six
      included a reexamination of multiple components including                                       geographic segments across the country. Since then, the Agency
      contractor incentive structure(s), the relationship between                                     has focused on plans in the New York area but has delayed a
      software milestones and the triggering of those incentive(s),                                   final decision until May 2013 on where to build the integrated
      and Agency controls to strengthen processes around software                                     facility. Ultimately, successfully implementing FAA’s plans will
      acceptance.                                                                                     require the Agency to address challenges with cost estimates,
                                                                                                      funding sources, and workforce issues.
      The initial analysis and recommendations stemming from the
      ERAM independent verification and validation project have                                       Consolidation will likely be a long-term challenge for FAA, as
      confirmed the adequacy and stability of the underlying code                                     its NextGen modernization plans were based on the traditional
      base to support the anticipated needs of NextGen programs.                                      facility set-up of en route centers and TRACONs—not integrated
      In addition, the analysis and recommendations from the ERAM                                     facilities. Integrating facilities will also require cost and
      software planning and issues analysis process improvement                                       schedule changes to modernization programs that already have
      project have yielded communication, data flow, and integration                                  established baselines. The Terminal Automation Modernization
      improvements to better ensure that the program’s software                                       and Replacement program alone involves about $1 billion through
      planning forums are efficiently and effectively aligned.                                        2018 to replace aging displays and processors that controllers
                                                                                                      rely on to manage takeoffs and landings, the most critical phases
      Finally, FY 2013 implementation plans were impacted by the                                      of flight. FAA recently approved plans to begin transitioning to a
      sequestration, especially at the five sites that achieved initial                               new terminal automation system at 11 large TRACON facilities
      operations immediately prior to sequestration (Cleveland, Boston,                               through 2017. However, the Agency has yet to determine
      Memphis, Washington, DC, and New York). At the three sites in                                   whether its consolidation efforts will impact these facilities.”
      continuous operational runs in FY 2013, the necessary re-training
      was started to support operational runs later in this fiscal year.                              ACTIONS TAKEN IN FY 2013:
      The Washington and New York Centers, whose re-training                                          FAA’s NY Integrated Control Facility (ICF) Initiative: The FAA
      requirements were more severe, could not begin any level of                                     established the goal to issue a land Request for Information (RFI)
      re-training prior to September of 2013 (a seven month delay from                                of properties in NY State for the NY ICF. The FAA issued an RFI
      their prior operational runs in March 2013). The remaining 4 sites                              for sites for the NY ICF in December 2012. The RFI closed Jan 31,
      (Fort Worth, Miami, Atlanta and Jacksonville) will now initiate                                 2013. The FAA is in the process of evaluating the offers received,
      operations later than originally planned. As a result, the program                              including low-cost and no-cost sites. While the long-term plan
      must be extended longer than was originally anticipated, with                                   is to proceed with a full ICF, due to financial constraints, the full
      a planned last-site operational readiness date in the second                                    ICF option is not viable at this time. In the near-term, the FAA




126   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
is conducting an Options Analysis to inform FAA leadership on            NextGen increments are currently being linked to their respective
possible NY facility solutions.                                          programs/systems. On September 30, 2013, the FAA completed
                                                                         linking for the Separation Management Portfolio: Advanced
FAA’s Section 804 Collaborative Workgroup: The FAA’s workgroup           Technologies and Oceanic Procedures and Data Comm.
finalized the process for evaluating facility realignments.
FAA leadership planned to brief Congress on the workgroup’s              Quarterly Portfolio Management Reviews (PfMRs) for each NSIP
progress and activities in the spring of 2013. However, due to           Portfolio were conducted starting the first month after the end of
sequestration, FAA leadership has not yet briefed Congress               the fiscal quarter: in January 2013 (1st QTR FY 2013); April 2013
on the process for facility realignments. Additionally, the              (2nd QTR FY 2013); and July 2013 (3rd QTR FY 2013). Milestone
workgroup activities are aligned with ATC facilities sustainment,        dates, key activities, accomplishments and challenges such as
replacement, and modernization efforts, as well as the Terminal          sequestration impacts were discussed and statused. Mitigation
Automation Modernization and Replacement program schedule.               strategies were identified/ implemented.



KEY CHALLENGE:                                                           KEY CHALLENGE:
Completing an Integrated Master Schedule for NextGen                     Achieving Expected Outcomes from Reorganization to Improve
Transformational Programs                                                NextGen Management

ISSUE:                                                                   ISSUE:
The FAA has not yet developed an Integrated Master Schedule              Many of FAA’s difficulties with implementing NextGen stem
for implementing NextGen transformational programs, or                   from underlying management challenges, such as assigning
established total program costs, schedules or performance                responsibility, accountability, and authority. In 2011, FAA
baselines. Decision makers in Congress and the Department                commissioned an internal study to examine how the Agency’s
lack sufficient information to assess progress as requirements           internal structure, processes, and management culture
evolve. Without a master schedule the FAA will continue to be            could be improved to support NextGen. Based on the study’s
challenged to assess progress with NextGen efforts, establish            recommendations, FAA announced a major reorganization in
priorities, and make necessary trade-offs between programs.              2011 to better position NextGen for success. FAA elevated the
                                                                         former NextGen office—creating an Assistant Administrator for
ACTIONS TAKEN IN FY 2013:                                                NextGen who reports directly to the FAA Deputy Administrator—
The FAA’s NextGen Management Board ratified the final version            and established a new Program Management Office. This
of the National Airspace System Segment Implementation Plan              new office will also work to bridge the gap between strategic
(NSIP), Version 5, on December 3, 2012. The updated version of           requirements and program implementation. FAA is still in the
NextGen Implementation Plan was published on June 13, 2013.              early stages of this reorganization, and work remains to establish
During 2013, the NSIP was virtualized and integrated into the            best practices and institutionalize changes.
national airspace system enterprise architecture enabling a              ACTIONS TAKEN IN FY 2013:
more efficient three phase update process that includes: Service         Program Management Office (PMO) Charter and Strategic Plan:
Roadmap revalidation; Infrastructure Roadmap revalidation; and           Both a charter and a strategic plan were developed in 2013. The
Portfolio Revalidation. With the completion of the service and           charter defines the PMO’s mission, responsibilities, supplemental
infrastructure roadmap reviews, the initial draft of NSIP 2014           relationships, and lines of succession within the PMO. The
(formerly NSIP 6.0) was completed on September 30, 2013. The             charter complements the PMO strategic plan which encompasses
                                                                                                                                                                      OTHER INF ORMATI ON


NSIP Portfolio Revalidation began on August 8, and resolution            four focus areas: organizational alignment and leadership,
and adjudication of comments started on September 9, 2013.               policies and processes, human capital, and information
The FAA continues to align the Integrated Master Schedule with           management and stewardship.
the NSIP. High level Segment Bravo schedules are currently being         Define Workplan for Future NSIP: NSIP workplans are now
incorporated.                                                            being integrated into the national airspace system enterprise
                                                                         architecture framework. In doing so, the NSIP was virtualized,




                                                                 Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   127
      making it accessible in a web-based environment. This resulted                                  airports, the city pairs recommended by the NextGen Advisory
      in the merger of three independent re-validation processes:                                     Committee, and on airspace such as the Gulf of Mexico.
      Infrastructure Roadmap, Service Roadmap, and NSIP.

      Institutionalizing Idea to In-service (i2i): The Idea to In-service
      (i2i) process defines the collaboration, structure, and coordination                            KEY CHALLENGE:
      required of FAA lines of business and staff offices to ensure the                               Integrating Unmanned Aircraft Systems (UAS) in the National
      successful implementation of NextGen, while simultaneously                                      Airspace System
      maintaining the current national airspace system. i2i was
                                                                                                      ISSUE:
      approved by the agency and its key components were integrated
                                                                                                      The application of UAS in the United States for research, law
      into the Acquisition Management System (AMS) to ensure that
                                                                                                      enforcement, private sector, and State government needs
      Operational Concepts are fully vetted before they are included in
                                                                                                      continues to grow. FAA predicts there will be roughly 10,000
      the national airspace system Concept of Operations.
                                                                                                      active commercial UAS in 5 years, with industry investing over
      PMO Program Reviews: The Air Traffic Organization (ATO)                                         $89.1 billion in UAS technology over the next 10 years. The FAA
      conducts bi-weekly program reviews to ensure critical                                           Modernization and Reform Act of 2012 (FMRA) requires the
      information relative to program status and related activities                                   Secretary of Transportation to develop a comprehensive plan
      are provided to program management executives, NextGen,                                         that will safely and fully integrate UAS into the national airspace
      Air Traffic Operations, and shared service stakeholders. The                                    system no later than September 30, 2015.
      review sessions cover topics such as, risks issues and mitigation
                                                                                                      The FMRA also requires FAA to establish a program to integrate
      strategies, program status, major accomplishments, key
                                                                                                      UAS into our nation’s airspace at six test ranges by late summer
      assumptions, goals, objectives, and interdependencies.
                                                                                                      2012. The selection for these test sites was scheduled to begin
      Portfolio Management Reviews (PfMRs): The PfMRs are a                                           in July 2012, but there have been delays due to privacy concerns.
      process the agency uses to help manage and implement the                                        The FAA has charted a path forward and the selection process
      contents of the NSIP. Significant changes in the content and                                    commenced on February 14. It is anticipated that the test site
      execution of the PfMRs over the course of the last year are                                     selection process will conclude by the end of 2013.
      as follows: inclusion of risk management material, assessing
                                                                                                      In addition, the FAA and DOT are currently coordinating language
      increment performance based on cost schedule and technical
                                                                                                      for the small UAS Notice of Proposed Rulemaking (NPRM) which
      assessments. These reviews also include pre-implementation
                                                                                                      is targeted for release later this year. There are significant
      work, such as, descriptions, schedules, funding, and linkage
                                                                                                      integration-related questions that must be answered through
      to portfolio increments resulting in a well-defined line of sight
                                                                                                      research and development. The FAA’s UAS research program
      between pre-implementation activities and implementation work
                                                                                                      is targeted at those specific integration-related issues, such as
      in progress.
                                                                                                      sense and avoid, and is aligned with partner agency (NASA)
      NextGen Management Board Reporting of NSIP Progress:                                            research efforts.
      NextGen Management Board reporting has evolved over the
                                                                                                      While the expanded use of UAS presents great opportunities,
      past year from being a quarterly report which focused solely on
                                                                                                      it also presents significant challenges (safety, privacy) as
      the status of targeted milestones to the most current format,
                                                                                                      unmanned aircraft are inherently different from manned aircraft.
      which is a monthly review of all milestones, planning activities,
                                                                                                      The impact of integrating UAS is similar to the integration of jet
      cross-cutting issues and implementation results.
                                                                                                      powered aircraft that occurred during the 1950’s and 1960’s. The
      NextGen Performance Snapshots Website: The NextGen                                              FAA will meet the challenge of UAS as we did the challenge of
      performance snapshots website was launched in March 2012.                                       jet powered aircraft. It is important to note that the integration
      It is a reporting tool designed to show performance at locations                                of UAS is not a destination but a continuous journey. As the
      where NextGen programs and initiatives have been implemented.                                   NextGen systems come on-line in the national airspace system,
      It is updated quarterly, with six releases published as of July                                 higher and higher levels of UAS integration will be possible. The
      2013. The website provides information on NextGen efforts and                                   airspace system is constantly evolving and changing and with
      accomplishments, as well as data on performance at the 30 Core




128   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
those changes aircraft will also evolve, allowing even greater             ENHANCING FAA’S OVERSIGHT AND USE OF
integration and utilization.                                               DATA TO IDENTIFY AND MITIGATE SAFETY
ACTIONS TAKEN IN FY 2013:                                                  RISKS
Publication of UAS Roadmap: This action has been completed.                KEY CHALLENGE:
The first edition of the UAS Roadmap was released and                      Identifying Trends in Operational Errors and Determining Their
published on November 7, 2013. The UAS Roadmap will                        Root Causes
provide (initial) necessary stakeholder guidance for the
path to UAS integration. The Roadmap will be updated and                   ISSUE:
published annually, and will include lessons learned, progress             The FAA must make better use of data on operational errors to
and accomplishments from the previous year. As part of the                 investigate incidents, identify trends and mitigate their risks.
development of the UAS Roadmap, the FAA received detailed
recommendations on integration related tasking from the UAS                To identify root causes of safety problems and mitigate their
Aviation Rulemaking Committee (ARC). The FAA considered                    risk, the FAA needs to fine tune its approach to how it collects,
these UAS ARC recommendations in the development of the UAS                verifies, and uses safety data.
Roadmap.
                                                                           To realize the full potential of hte Air Traffic Safety Action
Execution of Research Activities as Defined by the UAS                     Program (ATSAP), the FAA must close program gaps: such as a
Integration Office: This action is ongoing. The FAA has been               lack of a formal process to review committee decisions on errors
executing on planned research requirements and is coordinating             and enforce key ATSAP guidelines and requirements.
research activities with other Federal agencies, including
                                                                           FAA lacks an accurate baseline on the number of separation
National Aeronautics and Space Administration and the
                                                                           losses due to its limited use and review of the Traffic Analysis
Department of Defense. Research focus areas include Sense and
                                                                           and Review program data, gaps in ATSAP reporting, and
Avoid (SAA) and Command and Control (C2). In conjunction with
                                                                           inconsistent classification of separations losses.
RTCA Inc., the FAA launched a new Special Committee (SC-228)
which will focus on standards development for SAA and C2                   FAA’s new policies transfer the function of investigating
systems.                                                                   operational errors from the facilities where they occur to the air
                                                                           traffic service areas. Facility managers raised concerns about
Commencement of the six UAS Test Site selection process:
                                                                           whether the Service Areas have enough staff and knowledge of
This action has been completed. The solicitation (Screening
                                                                           local flight procedures to successfully carry out this responsibility.
Information Request) for the test site selection process was
publically released on February 14, 2013.                                  The mitigation strategy for operational errors included in the new
                                                                           policies lack a previously identified causal factors, trends, and
Actual selection of the six UAS Test Sites: This action is
                                                                           follow-up actions to address the—considered to be key elements
in progress. The selection of the six test sites by the FAA
                                                                           for mitigating the highest safety risks.
Administrator is expected by the end of 2013.
                                                                           ACTIONS TAKEN IN FY 2013:
Initial flight testing activities in support of the expansion of
                                                                           The FAA ATO is conducting its largest and most significant
small UAS in the Arctic: This action has been completed. Initial
                                                                           safety improvements regarding the way air traffic control risk,
flight tests were conducted in the Arctic using small UAS on
                                                                           safety performance, and analysis of safety risks are managed in
September 12, 2013.
                                                                           the United States. From implementation of voluntary reporting,
                                                                                                                                                                        OTHER INF ORMATI ON


Release of the small UAS Notice of Public Rulemaking: This                 to new electronic separation loss detection programs, the
action is pending. The FAA continued work with the Department              development of standardized risk assessment and validation
of Transportation on development of language to be included                processes and the establishment of a proactive safety
in the small UAS Rule. The release of the Small UAS Notice of              management system, the FAA has greatly enhanced its ability
Proposed Rulemaking (NPRM) for public comment is planned for               to identify precursors, root causes, and trends of safety risks
2014.                                                                      system-wide rather than reacting to single incidents. Following
                                                                           our Safety Management System which requires continuous
                                                                           improvement of our processes, the ATO is making improvements




                                                                   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   129
      to our safety programs, such as Quality Assurance (QA) and                                      to mitigation efforts as part of the ATO Top 5 initiatives
      Quality Control (QC), as well as sharing the ATO’s safety data                                  to improve overall safety in air traffic service delivery.
      with Aviation Safety Information Analysis and Sharing (ASIAS)
      for analysis of air traffic control and aircraft safety data.                                   Fair and objective principles, efficient processes, and logical/
      Combining air traffic and aircraft data offers opportunities, never                             timely responses to voluntary safety reports are emphasized
      available before, to improve aviation safety.                                                   in training for ATO employees. In April 2013, the ATSAP Office
                                                                                                      developed audit guidance and checklists to establish critical
      The ATO Quality Assurance Group has developed Standard                                          process checkpoints and evaluation steps. ATSAP will conduct
      Operations Procedures (SOP) and validation training for QA                                      internal audits and has realigned its workflows to facilitate
      Specialists who review Mandatory Occurrence Report /Electronic                                  quality reviews within the program, including the effectiveness
      Occurrence Report at the ATO Safety and Technical Training                                      of the Event Review Committee. This effort promotes continuous
      service area offices. The QA SOP became effective in January                                    improvement as part of implementing quality management
      2013 and was revised in May 2013. A QA SOP training course                                      systems.
      was developed to standardized methods for identifying high risk
      hazards, trends, and systemic issues within the national airspace
      system. The initial training course was delivered to the service
                                                                                                      KEY CHALLENGE:
      area leads and specialists between February 26 and March 29,
                                                                                                      Advancing Oversight by Implementing the Airline Safety Act of
      2013. Individual assessments and certification recommendations
                                                                                                      2010
      were completed by each service area manager and approved by
      the group manager during February and March. As a follow up, a                                  ISSUE:
      QA management team led onsite internal reviews to assess SOP                                    In August 2010, Congress passed the Airline Safety and Federal
      guidance effectiveness during April and May. An SOP revision                                    Aviation Administration Extension Act of 2010 (the Act), which
      was completed in May and subsequent training was held in June.                                  directed the FAA through legislation to change requirements to
                                                                                                      improve pilot rest requirements, establishing better processes for
      In order to comply with IG recommendations, the FAA fully
                                                                                                      managing safety risks and advancing voluntary safety programs.
      implemented the Traffic Analysis and Review Program which
                                                                                                      Although the IG acknowledges the progress that the FAA has
      electronically captures quantitative data relating to the vast
                                                                                                      made, it noted missed deadlines and overdue milestones.
      majority of occurrences involving losses of separation. The
                                                                                                      While the Act directed the FAA’s rulemaking activities, it did not
      program was fully implemented in terminal radar facilities in
                                                                                                      exempt it from the statutory requirements of rulemaking such as
      September 2012 and in en route facilities in May 2013. Full
                                                                                                      regulatory evaluation, economic analysis and approval by other
      program implementation has proven effective by generating
                                                                                                      federal agencies. The FAA is making steady progress towards
      a greater amount of separation data than previously
                                                                                                      completion and enhancement of safety through improved
      available and consolidating valuable safety information
                                                                                                      qualification standards and training for pilots in part 121.
      into a common database available to all facilities.
                                                                                                      The Act also directs FAA to establish a “FAA Pilot Records
      Standardized Safety Guidance (ATO–SG-12-05), dated
                                                                                                      Database” that must contain information collected by the
      January 7, 2013, clarified frequently asked questions
                                                                                                      FAA, air carriers and other employers of pilots, and the
      related to the implementation of new quality assurance,
                                                                                                      national driver register records. Air carriers will be required
      quality control, safety occurrence reporting, and Individual
                                                                                                      to access and evaluate a pilot’s record before allowing
      Performance Management processes. A collaborative Quality
                                                                                                      an individual to begin service as a pilot. This will improve
      Assurance Validation Board, which meets quarterly, was
                                                                                                      upon the timeliness of the existing paper based share data
      established to improve application of safety standards,
                                                                                                      instituted by the Pilot Records Improvement Act of 1996.
      risk analyses, and identification of root causes. The ATO
      continues to analyze aggregate data and identify significant                                    ACTIONS TAKEN IN FY 2013:
      and common hazards through its Risk Analysis Program (RAP).                                     The FAA has utilized multiple tools to accomplish several
      RAP identifies contributing factors where less than 2/3 of                                      requirements of the Act, including rulemaking and the publication
      standard separation was maintained. RAP findings contribute                                     of guidance to inspectors and operators in the form of Notices,




130   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
Information for Operators, Safety Alerts for Operators, and                inaccurate data. The IG has stated that FAA must further refine
Advisory Circulars (ACs).                                                  this tool so that it more effectively allocates inspector resources.

Specifically, the FAA published Advisory Circular 120-109,                 ACTIONS TAKEN IN FY 2013:
Stall and Stick Pusher Training, which details best practices              The FAA recognizes IG concerns and is taking action to rectify
and guidance for training, testing, and checking for pilots to             performance gaps that contributed to the issues identified in the
ensure correct and consistent responses to unexpected stall                IG report. In the interim of implementing the new certification
warnings and stick pusher activations; and a final rule on Pilot           and surveillance system called Safety Assurance System, FAA
Certification and Qualification Requirements which created                 established a team to review and focus on improvements to
new minimum requirements for pilots in air carrier operations;             the current FAA risk-based oversight system, and inspector
                                                                           guidance and training, based on the IG recommendations. In
Additionally the FAA continued to work on the final rule                   August 2013, FAA personnel conducted a briefing to the Flight
for Qualification, Service and Use of Crewmember and                       Standards Regional branch managers on IG concerns and each
Aircraft Dispatchers. The final rule entered executive                     recommendation detailed in their report. FAA’s oversight system
review in June 2013. This rule is designed to enhance                      and its application in FAA’s oversight of part 145 repair stations
training requirements for all air carrier pilots.                          was briefed to re-familiarize the use of FAA oversight system as
The FAA continues to make progress on the Pilot Records                    it was intended and to completely convey the expectations that
Database (PRD) despite the complexity associated with                      all international field offices are required to use the protocols.
this project (as noted in DOT IG Report AV-2013-037 dated                  The problems and causes of each issue along with the next
January 31, 2013). In March 2013, a Rulemaking Action                      steps to occur were discussed in the briefing. The regional
Plan was approved, which outlines key issues associated                    branch managers briefed all the field office managers and
with implementation of this rule. The PRD rulemaking                       inspectors in September 2013. The team began drafting revisions
team is currently drafting the NPRM document.                              to FAA Order 8900.1 and repair station course to include the
                                                                           changes necessary that will provide more comprehensive and
Current rulemaking projects are in various stages of the process.          standardized procedures for conducting inspections and reporting
The rulemaking process is complex and lengthy as the FAA                   findings. A recurrent training course is under development
considers all aspects of impact and the input of stakeholders.             requiring airworthiness inspectors to complete annually,
The FAA was challenged in completing the requirements of the               titled “Assessment and Planning Tools Transition Training for
Act by short timelines, requirements between sections, and the             Airworthiness Inspectors”. The course provides instructions on
need for coordination with industry and other agencies before              the use of the risk-based oversight system tools and processes
proposing a final rule.                                                    currently in place. It emphasizes the necessity to act upon
                                                                           identified risks until mitigation is complete. A standardized
                                                                           checklist has been developed for inspectors to use and ensure a
                                                                           complete inspection is performed.
KEY CHALLENGE:
Providing More Rigorous Risk-Based Oversight of Repair Stations
and Identifying Inspector Staffing Requirements
                                                                           KEY CHALLENGE:
ISSUE:                                                                     Identifying the Effects of Air Traffic Controller Scheduling on
Since 2003, the IG has issued reports critical of FAA’s                    Safety, Cost Efficiency, and Controller Performance
surveillance of aircraft repair stations. The most recent one,
                                                                                                                                                                        OTHER INF ORMATI ON


released in January 2013, states that FAA’s risk based oversight           ISSUE:
system to help inspectors target surveillance to areas of higher           A series of high-profile incidents in early 2011 involving
risk is ineffective. Also, it does not provide inspectors with             controllers who were sleeping on duty sparked public concern
comprehensive data needed for analytical reviews of a repair               about controller fatigue. In April 2011, FAA instituted a
station’s performance.                                                     series of policy changes including placing an additional air
                                                                           traffic controller on the midnight shift at certain facilities and
Also, the DOT’s IG does not think that FAA’s inspector staffing            mandating a minimum of 9 hours off between evening and day
model effectively projects staffing needs due to incomplete and            shifts.




                                                                   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   131
      ACTIONS TAKEN IN FY 2013:                                                                       of government, and the growing complexity of technology and
      ATO formally established a Fatigue Risk Management System                                       related system requirements all contribute to the challenge of
      to identify potential controller cognitive performance and                                      maintaining an adequately staffed, highly capable acquisition
      safety related effects due to human fatigue. The Fatigue Risk                                   workforce.
      Management Team provides fatigue research, comparative
      analyses, and other educational material to the Fatigue Safety                                  ACTIONS TAKEN IN FY 2013:
      Steering Committee, consisting of senior ATO, NATCA, and PASS                                   The agency published the FY 2013 update to the Acquisition
      representatives, on a quarterly basis for their consideration.                                  Workforce Plan. The plan is the primary tool for identifying,
                                                                                                      implementing and report the initiatives and accomplishments
      In mid-2012, FAA implemented quality controls to ensure                                         FAA has taken and made to address this management challenge.
      a minimum of 9 hours between the evening and day shift:
      (1) periodic quality control checks to identify facilities and                                  FAA collected and tracked information about the professionals
      individuals that are not in compliance; (2) facility management                                 who comprise the acquisition workforce, including gains and
      follow-up to ensure compliance; and, (3) any obstacles to                                       losses. FAA uses this information to develop and maintain
      compliance are briefed to senior ATO leadership for resolution.                                 profession-specific competency models and track progress
      The quality control checks implemented were effective and                                       toward the achievement of mandatory and voluntary certification
      remained in place through FY 2013. FAA continued to track                                       levels. We collected this information on an ongoing basis.
      compliance with periodic compliance checks accomplished                                         FAA initiated two new certification programs—for Test
      quarterly during FY 2013. ATO reached total compliance by the                                   & Evaluation professionals and for Systems Engineering
      end of FY 2013.                                                                                 professionals—in FY 2013.

                                                                                                      FAA met all of its business plan goals for the certification of
                                                                                                      professionals in the workforce, including program managers,
      STRENGTHENING FINANCIAL                                                                         contracting officer/specialists and contracting officer’s
      MANAGEMENT OVER GRANTS TO BETTER                                                                representatives.
      USE FUNDS, CREATE JOBS AND IMPROVE
      INFRASTRUCTURE
      KEY CHALLENGE:
      Strengthening DOT’s Acquisition Planning, Oversight, and
      Workforce

      ISSUE:
      Modernizing the complex, highly sophisticated national airspace
      system depends on FAA’s acquisition workforce professionals
      and requires that they be of the highest caliber. FAA’s 2012
      acquisition workforce plan provides the blueprint for developing
      a high-performing acquisition workforce capable of successfully
      managing the FAA’s major systems acquisitions, including the
      Systems Engineering 2020 contracts and the ERAM program.
      The 2012 plan emphasizes the need for and the specific steps
      being taken to train and develop the existing workforce,
      reflecting the realities of a federal budget climate that constrains
      the agency’s ability to hire additional resources. Looming
      retirements, competition for acquisition talent inside and outside




132   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
SUMMARY OF FINANCIAL STATEMENT AUDIT AND MANAGEMENT ASSURANCES
Financial Audit Summary
Table 1 is a summary of the results of the independent audit of the FAA’s consolidated financial statements by the agency’s auditors in
connection with the FY 2013 audit.

 TABLE 1: SUMMARY OF FINANCIAL STATEMENT AUDIT
 Audit Opinion                        FY 2013-unmodified*

                                      FY 2012-unqualified

 Restatement                          No

 Material Weakness                      Beginning Balance                 New                    Resolved                      Consolidated                  Ending Balance
                                                   0                        0                         0                                  0                              0
 Total Material Weaknesses                         0                        0                         0                                  0                              0
 * Beginning in FY 2013, terminology was changed from “unqualified” to “unmodified.”



Management Assurances Summary
Table 2 is a summary of management assurances related to the effectiveness of internal control over the FAA’s financial reporting and
operations, and its conformance with financial management system requirements under Sections 2 and 4, respectively, of the Federal
Managers’ Financial Integrity Act (FMFIA) of 1982. The last portion of Table 2 summarizes the FAA’s compliance with the Federal
Financial Management Improvement Act (FFMIA).

 TABLE 2: SUMMARY OF MANAGEMENT ASSURANCES
 Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
 Statement of Assurance                                                Unqualified statement of assurance
                                                                        Beginning                                                                                            Ending
                                                                         Balance           New             Resolved            Consolidated          Reassessed             Balance
                                                                            0                0                    0                  0                   0                     0
  Total Material Weaknesses                                                 0                0                    0                  0                   0                     0

 Effectiveness of Internal Control over Operations (FMFIA § 2)
 Statement of Assurance                                                Unqualified statement of assurance
                                                                        Beginning                                                                                            Ending
 Material Weakness                                                       Balance           New             Resolved            Consolidated          Reassessed             Balance
                                                                            0                0                    0                  0                   0                     0
  Total Material Weaknesses                                                 0                0                    0                  0                   0                     0

 Conformance with financial management system requirements (FMFIA § 4)
 Statement of Assurance                                                Systems conformance to financial management system requirements
                                                                                                                                                                                      OTHER INF ORMATI ON


                                                                        Beginning                                                                                           Ending
 NonConformances                                                         Balance           New             Resolved            Consolidated          Reassessed             Balance
  Conformance of the FAA’s core financial management system, Delphi,        0                0                    0                  0                   0                     0
  is assessed and reported by the Department of Transportation.

 Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                                                          Agency                                  Auditor
 Overall Substantial Compliance                                                                                            Yes                                    Yes
  1. System Requirements                                                                                                                       Yes
  2. Accounting Standards                                                                                                                      Yes
  3. USSGL at Transaction Level                                                                                                                Yes



                                                                            Federal Aviation Administration   |       Fiscal Year 2013   |   Performance and Accountability Report    133
      SUMMARY OF IMPROPER PAYMENTS
      The Improper Payments Information Act (IPIA) of 2002 requires agencies to review their programs and activities to identify those
      susceptible to significant improper payments. IPIA was amended on July 22, 2010, by the Improper Payments Elimination and Recovery
      Act (IPERA) of 2010. IPERA strengthens the requirements for government agencies to carry out cost-effective programs for identifying
      and recovering overpayments, also known as “recapture auditing.”

      The Office of Management and Budget (OMB) Circular A-123, Appendix C, Requirements for Effective Measurement and Remediation
      of Improper Payments provides guidance on the implementation of IPERA. OMB A-123, Appendix C defines an improper payment as any
      payment that should not have been made or that was made in an incorrect amount under statutory, contractual, administrative, or other
      legally applicable requirements. Incorrect amounts are overpayments or underpayments that are made to eligible recipients (including
      inappropriate denials of payment or service, any payment that does not account for credit for applicable discounts, payments that are
      for the incorrect amount, and duplicate payments). An improper payment also includes any payment that was made to an ineligible
      recipient or for an ineligible good or service, or payments for goods or services not received (except for such payments authorized by
      law). In addition, when an agency’s review is unable to discern whether a payment was proper as a result of insufficient or lack of
      documentation, this payment must also be considered an improper payment.



      FEDERAL AVIATION ADMINISTRATION (FAA) PROCESS
      The FAA’s process for complying with IPERA and OMB Circular A-123, Appendix C, consists of the following steps:
      1)	 Review program and activities to identify those susceptible to significant improper payments
      2)	 Obtain a statistically valid estimate of the annual amount of improper payments in programs and activities for those programs
          identified as susceptible to significant improper payments
      3)	 Implement a plan to reduce erroneous payments
      4)	 Report estimates of the annual amounts of improper payments in programs and activities and progress in reducing them

      For FY 2013 reporting, the FAA conducted the above four-step process for the 12-month period of April 1, 2012 to March 31, 2013.
      For FY 2013, we also developed a Do Not Pay Implementation Plan to be in compliance with the Improper Payments Elimination and
      Recovery Improvement Act (IPERIA) of 2012 and provided a high-dollar quarterly report to the U.S. Department of Transportation (DOT)
      Office of the Inspector General (OIG), OMB, and displayed on DOT website.


      I. Risk Assessment
      The FAA’s Programmatic Improper Payment Risk Assessment leverages the Assessable Units (AU) Risk Profiles compiled as part of the
      ongoing compliance with the FMFIA. This assessment identified the Airport Improvement Program (AIP) as high-risk for FY 2013 due
      to the volume of payments made annually, approximately $3.5 billion for AIP, coupled with the fact that federal funds within these
      programs are further administrated outside the agency by local governments or airport sponsors. The FAA’s programmatic improper
      payment risk assessment leverages the AU risk profiles compiled as part of ongoing compliance with the FMFIA of 1982.

      Table 1 lists the high-risk program name and the disbursements population selected for FY 2013 testing.

       TABLE 1. HIGH-RISK PROGRAM SELECTED FOR TESTING
       Operating Administration                           Program Name                                     FY 2013 Disbursements (Based on Actual Data)

       FAA                                                Airport Improvement Program (AIP)                                   $3,517,553,509.73




134   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
The DOT is in the process of completing a revised Department-wide risk assessment for reporting in FY 2014, which will include
FAA programs and funding activities. Based on the results of this risk assessment, the FAA will determine if AIP is still considered
a high-risk program or if there are additional programs that should also be included in the reporting. In FY 2014, under OMB Circular
A-123, Appendix C, the threshold for determining whether a program is at high risk for improper payments is reduced from 2.5 percent
to 1.5 percent and $10 million or $100 million in improper payments (regardless of the error rate). The susceptibility of programs making
significant improper payments will be determined by qualitative and quantitative factors.


II. Statistical Sampling
The AIP sampling approach has not changed from the prior year. The FAA obtained the data extracts from a single source, the DOT’s
financial system of record, Delphi. Additionally, to verify both sample integrity and the accuracy of extrapolated programmatic improper
payment estimates, we collaborated closely with the OIG’s IPERA statistician to develop sampling and extrapolation methodologies
mutually agreed upon by both parties.

Sample results provided an overall improper payment point estimate of the percentage of improper payment dollars at the 90 percent
confidence level within precision requirement of 2.5 percent.

Table 2 lists the results of the testing.

 TABLE 2. SAMPLE TEST RESULTS
                           FY 2013 Payment      FY 2013 Sample Size –       FY 2013 Sample Size –               FY 2013 Estimated              FY 2013 Estimated
 Program                      Population               Stage 1                     Stage 2                        Error Amount                      Error %

 AIP                      $3,517,553,509.73         $118,049,087.84               $17,827,397.54                    $2,417,895.87                           .07%




III. Corrective Actions
The following table lists corrective actions for the AIP program. These corrective actions are targeted at addressing the root causes
behind administrative and documentation errors caused by processing the payments incorrectly by the grantees.

Table 3 lists the corrective actions.

 TABLE 3. CORRECTIVE ACTIONS
 Risk Factor                                   Corrective Action                                                                        Target Completion Date

 Application of the Incorrect Federal          The FAA will provide additional guidance to grantees regarding grant                            May 31, 2014
 Share: The FAA identified three occurrences   drawdowns at the correct federal share. In addition, as part of FY 2014
 from one grantee applying the incorrect       grant offers, the FAA will highlight the importance of sponsors’
 federal share. The grantee agreement for      reimbursement requests at the proper federal share over the life of the
 the project indicated a reimbursement of 90   grant.
 percent. However, the grantee applied a 95    The FAA management will continue to conduct invoice reviews under its
 percent reimbursement rate.                   current grant payment policy.                                                                                              OTHER INF ORMATI ON




                                                                     Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   135
      IV. Fund Stewardship
      The FAA stresses the importance of proper fund stewardship with its grant recipients via various grantee review programs and receives
      reports for each grant to assess sponsor performance. On a broader level, the FAA utilizes a risk-based approach that increases the level
      of review of sponsor documentation depending on the calculated risk level and prior performance of the grantee.


      V. Improper Payment Reporting
      Table 4A summarizes improper payment amounts for the FAA’s high-risk program, AIP. Improper payment percent (IP%) and improper
      dollar (IP$) results are provided from last year’s and this year’s testing of payments. Data for projected future year improvements are
      based on the timing and significance of completing corrective actions.

       TABLE 4A. IMPROPER PAYMENT REDUCTION OUTLOOK
                                  PY Outlays ($M)




                                                                                            CY Outlays ($M)




                                                                                                                                                                         CY+1 IP$ ($M)




                                                                                                                                                                                                                       CY+2 IP$ ($M)




                                                                                                                                                                                                                                                                     CY+3 IP$ ($M)
                                                                                                                                           Outlays ($M)




                                                                                                                                                                                         Outlays ($M)




                                                                                                                                                                                                                                       Outlays ($M)
                                                                      PY IP$ ($M)




                                                                                                                           CY IP$ ($M)




                                                                                                                                                            CY+1 IP%




                                                                                                                                                                                                          CY+2 IP%




                                                                                                                                                                                                                                                        CY+3 IP%
                                                                                                                                           CY+1 Est.




                                                                                                                                                                                         CY+2 Est.




                                                                                                                                                                                                                                       CY+3 Est.
                                                           PY IP%




                                                                                                                 CY IP%


       Program

       FAA Airport            $3,459                    0.065%      $2.2                $3,520                0.070%      $2.4            $3,485          0.50%        $17.4             $3,179         0.50%        $15.9             $2,988         0.50%        $14.9
       Improvement
       Program

                     Key:    PY = Prior Year
                             CY = Current Year
                             IP = Improper Payment



      Overpayments and Underpayments Details
      Table 4B provides overpayment and underpayment breakout for FAA’s high-risk program AIP.

       TABLE 4B. EXTRAPOLATED FAA OVERPAYMENT UNDERPAYMENT PROGRAMMATIC ESTIMATE
                                                                                                               Improper Payment Dollar Amount                                                             Improper Payment Percent

       FAA Overpayment Estimate                                                                                                          $2,417,895.87                                                                                      0.07%

       FAA Underpayment Estimate                                                                                                                          N/A                                                                                    N/A




      VI. Recapture of Improper Payments Reporting
      The DOT’s contract recovery auditors worked to recover any FAA overpayments and identify payment process weaknesses. The recovery
      auditors did not, however, identify any systemic payment process weaknesses. The overpayments were of such immaterial amounts that
      it was not considered cost-effective to break them down by agency and therefore they were reported at the departmental level (in the
      DOT’s Performance and Accountability Report).




136   Federal Aviation Administration               |   Fiscal Year 2013            |   Performance and Accountability Report
VII. Ensuring Management Accountability
The FAA’s goals and requirements of IPERA were communicated to personnel at all levels of the organization that are held responsible
and accountable for reducing and recovering improper payments.
 ¢¢   The FAA has an existing control process with the OMB Circular A-123, Management’s Responsibility for Internal Control, Appendix
      A, which requires the FAA to review internal control over financial reporting and systems. This review includes determining if the
      systems are well documented, sufficiently tested, and properly assessed. The scope of these reviews includes reviewing and testing
      the key internal controls surrounding the payment disbursements for grant and contractual payments.
 ¢¢   The FAA uses a vast network of regional offices to ensure that the FAA maintains regular communication with grantees as well as
      state and local officials. The FAA ensures that grantees understand the purpose of grant reviews during each step of the review
      process. This constant communication, along with the aid of grantee staff, has allowed the FAA to not only maintain a low rate of
      improper payments, but also achieve success in recapturing payments identified as both improper and recoverable.

VIII. Agency Information Systems and Other Infrastructure
The FAA currently possesses the internal controls, human capital, and information systems necessary to maintain improper payments
levels at the targeted programmatic rates.


IX. Statutory or Regulatory Barriers
None.


X. Overall Agency Efforts
The FAA is implementing lessons learned from the past five years of testing AIP improper payments. For example, we continue to
communicate and train grantees on areas of improvement to prevent improper payments. These efforts have resulted in a lower
improper payment percentage rate and dollar amount for the current year. The FAA will continue to put into place preventive measures
on an ongoing basis.




                                                                                                                                                                      OTHER INF ORMATI ON




                                                                 Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   137
      ADMINISTRATIVE SERVICES FRANCHISE FUND
      BACKGROUND
      Public Law 104-205, “Department of Transportation and Related Agencies Appropriation Act, 1997,” authorized the FAA to establish
      an Administrative Services Franchise Fund (Franchise Fund). The Franchise Fund is designed to create competition within the public
      sector in the performance of a wide variety of support services. It allows for the establishment of an environment to maximize the use
      of internal resources through the consolidation and joint-use of like functions and the recognition of economies of scale and efficiencies
      associated with the competitive offering of services to other government agencies.

      The FAA’s Franchise Fund is composed of several programs, within which it offers a wide variety of services. These services include
      accounting, travel, duplicating, multi-media, information technology, logistics and material management, aircraft maintenance,
      international training and management training. The Franchise Fund’s major customers are the FAA lines of business programs. Other
      customers include Department of Transportation (DOT) entities, non-DOT government agencies, and international government entities.



      DESCRIPTION OF PROGRAMS AND SERVICES
      Several programs within the Franchise Fund are organized around an Enterprise Services Center (ESC) concept, designed to integrate
      the key components necessary to be a full service financial management provider. The efficiencies and economies of scale created by
      this integration offer the opportunity to compete for customers seeking a provider of financial management services. As new customers
      come on board, this further reduces the cost of providing the services by spreading the fixed cost of operations over a larger customer
      base. There are three components of the ESC, all falling within the single Franchise Fund:
       ¢¢   Enterprise System-configuration and support of application software and databases
       ¢¢   Financial Operations-transaction processing, financial reporting, and analysis services
       ¢¢   Information Technology-hosting, telecommunications, information system security, and end user support services

      During FY 2005, the OMB selected ESC as a Financial Management Center of Excellence (COE). As a COE, the ESC has the ability to
      compete to provide financial management services for other government agencies. The ESC currently provides financial management
      services to all the DOT agencies, and a number of other non-DOT Executive Branch agencies, including the Securities Exchange
      Commission, the National Endowment for the Arts, the Commodity Futures Trading Commission, the Institute of Museum and Library
      Services, and the United States Government Accountability Office (Legislative Branch). The ESC continues to forward proposals to other
      agencies.

      In addition to being selected as a COE, the ESC was chosen by the FAA Administrator to serve as the consolidated provider of all
      financial management services for all the FAA organizations. The ESC committed to providing an improved level of service, meeting all
      Joint Financial Management Improvement Program (JFMIP) requirements.

      The Franchise Fund also includes the following program areas:

      The FAA Logistics Center is located at the Mike Monroney Aeronautical Center (Aeronautical Center) in Oklahoma City, Oklahoma,
      and provides comprehensive logistics support and a highly sophisticated level of maintenance and repair services to ensure the safety
      of the flying public and to satisfy the critical needs of the national airspace system and related requirements. Services include materiel
      management (e.g., provisioning, cataloging, acquisition, inventory management, inventory supply), reliable and cost-effective depot-
      level repair of line replaceable units, life cycle and performance cost analysis, logistics automation, distribution services, disposal of
      items no longer required, and technical support in the repair and maintenance of national airspace and related equipment. The Logistics
      Center also maintains the Department of Homeland Security’s Customs and Border Patrol border surveillance systems, including more




138   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
than 80 mobile surveillance systems and fixed towers. It provides supply chain support, depot maintenance support, engineering, and
other systems support.

The Aircraft Maintenance and Engineering Group in the office of Aviation System Standards is also located at the Aeronautical
Center. It provides total aircraft support including maintenance, quality assurance, and overall program management for the FAA’s
uniquely equipped flight inspection aircraft fleet as well as other customer aircraft, including the U.S. Marshals Service and U.S. Army.
This service includes preventative as well as repair/overhaul and/or modification requirements and reliability and maintainability
studies. The Aircraft Maintenance and Engineering Group can provide full or partial support depending on customer requirements,
from short-term preventative maintenance or one time engineering tasks to more involved activities such as a full complement of
maintenance services with quality assurance and engineering support.

The International Training Division (ITD), an element of the FAA Academy, at the Aeronautical Center in Oklahoma City, OK,
delivers technical assistance and training to enhance international aviation safety and security while promoting U.S. aviation system
technologies, products, and services overseas. The products and services of the ITD include training program management, instructional
services, training design/development/revision, technical training evaluations, and consulting services tailored to meet specifically
defined needs of the FAA and its international customers.




                                                                                                                                                                      OTHER INF ORMATI ON




                                                                 Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   139
                                                                            U. S. Department of Transportation
                                                                     FEDERAL AVIATION ADMINISTRATION
                                                                                  FRANCHISE FUND
                                                                                   Condensed Information
                                                          ASSETS, LIABILITIES, AND NET POSITION
                                                                                    (Dollars in Thousands)
                                                                                           Unaudited


                                                                                                                     As of September 30
                                                                                                                   2013                     2012
                   Assets
                       Fund balance with Treasury                                                            $   267,335              $   271,519
                       Accounts receivable, net                                                                       81                      316
                       Inventory and related property, net                                                       596,658                  568,077
                       General property, plant, and equipment, net                                                22,891                   22,950
                       Other                                                                                       1,394                    1,477
                       Total assets                                                                          $   888,359              $   864,339
                   Liabilities
                        Accounts payable                                                                     $    19,597              $    30,478
                        Advances from others                                                                     151,459                  155,770
                        Employee related                                                                          21,590                   20,785
                        Other                                                                                      1,458                    1,294
                        Total liabilities                                                                        194,104                  208,327
                   Net position
                        Cumulative results of operations                                                         694,255                  656,012
                        Total net position                                                                       694,255                  656,012
                   Total liabilities and net position                                                        $   888,359              $   864,339




140   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
                                    U. S. Department of Transportation
                               FEDERAL AVIATION ADMINISTRATION
                                         FRANCHISE FUND
                                       Condensed Information
                                   REVENUES AND EXPENSES
                                             (Dollars in Thousands)
                                                    Unaudited


                                                                               For the years ended September 30
                                                                                      2013                      2012
Enterprise Services Center
      Revenues                                                          $             149,108                         $           147,323
      Expenses                                                                        169,059                                     169,353
      Profit (loss)                                                                   (19,951)                                    (22,030)

Corp Services
      Revenues                                                                             1,302                                     1,634
      Expenses                                                                             1,555                                     1,490
      Profit (loss)                                                                         (253)                                      144

Aircraft Maintenance and Engineering Group
      Revenues                                                                            52,413                                    53,288
      Expenses                                                                            57,908                                    57,939
      Profit (loss)                                                                       (5,495)                                   (4,651)

FAA University
     Revenues                                                                              4,011                                     9,227
     Expenses                                                                              5,680                                    11,037
     Profit (loss)                                                                        (1,669)                                   (1,810)

International
      Revenues                                                                             4,077                                     4,087
      Expenses                                                                             4,614                                     4,429
      Profit (loss)                                                                         (537)                                     (342)

FAA Logistics Center
     Revenues                                                                         279,695                                     289,570
       Expenses                                                                       257,839                                     273,458
       Profit (loss)                                                                   21,856                                      16,112

Acquisitions
     Revenues                                                                              8,393                                     8,063
     Expenses                                                                             12,205                                    11,704
                                                                                                                                                          OTHER INF ORMATI ON


     Profit (loss)                                                                        (3,812)                                   (3,641)

Total Consolidated
       Revenues                                                                       498,999                                     513,192
       Expenses                                                                       508,860                                     529,410
       Profit (loss)                                                    $              (9,861)                        $           (16,218)




                                                    Federal Aviation Administration   |    Fiscal Year 2013   |   Performance and Accountability Report   141
                                                                            U.S. Department of Transportation
                                                                     FEDERAL AVIATION ADMINISTRATION
                                                                                  FRANCHISE FUND
                                                                                Condensed Information
                                                         FINANCING SOURCES AND NET POSITION
                                                                                    (Dollars in Thousands)
                                                                                           Unaudited



                                                                                                                Cumulative results of operations
                                                                                                                   2013                             2012


               Beginning balance, net position                                                             $    656,012              $         620,946

               Financing sources
                        Transfers-in/out without reimbursement                                                   (13,552)                      (11,850)
                        Imputed financing from costs absorbed by others                                          61,656                            63,134

                        Total financing sources                                                                  48,104                            51,284

               Profit (loss)                                                                                      (9,861)                      (16,218)

               Ending balance, net position                                                                $    694,255              $         656,012




142   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
OTHER INFORMATION
The Schedule of Spending presents an overview of the FAA’s major spending categories during FY 2013. The data used to populate this
schedule are the same underlying data reported in the Statement of Budgetary Resources.


                                                   U.S. Department of Transportation
                                             FEDERAL AVIATION ADMINISTRATION
                                                    OTHER INFORMATION
                                                   SCHEDULE OF SPENDING
                                                       As of September 30, 2013
                                                              Unaudited




           Total resources available to spend                                                                                  $       24,986,911
               Less amount available but not agreed to be spent                                                                          1,388,704
               Less amount not available to be spent                                                                                     2,218,098
           Total amounts agreed to be spent                                                                                    $       21,380,109


           Major spending categories
               Personnel compensation and benefits                                                                             $         7,499,645
               Contractual services and supplies                                                                                         5,338,487
               Acquisition of assets                                                                                                       350,852
               Grants and fixed charges                                                                                                  3,124,681
               Other                                                                                                                     5,066,444
           Total amounts agreed to be spent                                                                                    $       21,380,109




                                                                                                                                                                       OTHER INF ORMATI ON




                                                                  Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   143
      GLOSSARY
       ACRONYM          NAME                                                                        ACRONYM    NAME
       AAE              Audit and Evaluation (FAA staff office)                                     AU         Assessable Unit
       AATF             Airport and Airway Trust Fund                                               AVS        Aviation Safety (FAA line of business)
       ACAT             Acquisition categories                                                      BPTW       Best Places to Work
       ACR              Civil Rights (FAA staff office)                                             C2         Command and Control
       ADS-B            Automatic Dependent Surveillance-Broadcast                                  CAST       Commercial Aviation Safety Team
       AESA             Aviation Safety and Security Agency (Spanish)                               CFO        Chief Financial Officer
       AFN              Finance and Management Staff Office                                         CFO Act    Chief Financial Officers Act of 1990
                         (FAA staff office)
                                                                                                    CIP        Construction in Progress, Current Icing Products
       AGA              Association of Government Accountants
                                                                                                    CLEEN      Continuous Lower Energy, Emissions and Noise
       AGC              Chief Counsel (FAA staff office)
                                                                                                    COE        Center of Excellence
       AGI              Government and Industry Affairs (FAA staff office)
                                                                                                    COTS       Commercial off-the-shelf
       AHR              Human Resource Management (FAA staff office)
                                                                                                    CSRS       Civil Service Retirement System
       AIP              Airport Improvement Program
                                                                                                    Data Comm Data Communications
       AMS              Acquisition Management System
                                                                                                    DOL        U.S. Department of Labor
       ANG              NextGen Staff Office (FAA staff office)
                                                                                                    DOT        U.S. Department of Transportation
       AOC              Communications (FAA staff office)
                                                                                                    EASA       European Union Aviation Safety Agreement
       APL              Policy, International Affairs, and Environment
                                                                                                    ELSO       Equivalent Lateral Spacing Operations
                        (FAA staff office)
       AR                                                                                           EMAS       Engineering Material Arresting Systems
                        Authorization Required
       ARC                                                                                          ERAM       En Route Automation Modernization
                        Aviation Rulemaking Committee
       ARP                                                                                          ESC        Enterprise Services Center
                        Airports (FAA line of business)
       ARTCC                                                                                        F&E        Facilities and Equipment
                        Air Route Traffic Control Center
       ASAP                                                                                         FAA        Federal Aviation Administration
                        Aviation Safety Action Partnership
       ASH                                                                                          FASAB      Federal Accounting Standards Advisory Board
                        Security and Hazardous Materials Safety
                        (FAA staff office)                                                          FBWT       Fund Balance with Treasury
       ASIAS            Aviation Safety Information Analysis and Sharing                            FEA        Federal Enterprise Architecture
       ASDE             Airport Surface Detection Equipment                                         FECA       Federal Employees’ Compensation Act
       ASDE-X           ASDE including Model X                                                      FedView    Federal Employee Viewpoint Survey
       AST              Commercial Space Transportation                                             FERS       Federal Employees Retirement System
                        (FAA line of business)
                                                                                                    FFMIA      Federal Financial Management Improvement Act
       ATO              Air Traffic Organization (FAA line of business)
                                                                                                    FIP        Forecast Icing Products
       ATP              Airline Transport Pilot
                                                                                                    FISB       Flight Information System-Broadcast
       ATSAP            Air Traffic Safety Action Program




144   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
ACRONYM   NAME                                                      ACRONYM           NAME
FMFIA     Federal Managers’ Financial Integrity Act of 1982         NASA              National Aeronautics and Space Administration
FMRA      Flight Modernization and Reform Act                       NATCA             National Air Traffic Controllers Association
FMS       Flight Management System                                  NextGen           Next Generation Air Transportation System
FOQA      Flight Operations Quality Assurance                       NOAA              National Oceanic and Atmospheric Administration
FY        Fiscal Year                                               NPRM              Notice of Proposed Rulemaking
GA        General Aviation                                          NSIP              National Airspace System Segment Implementation
                                                                                      Plan
GAJSC     General Aviation Joint Steering Committee
                                                                    NTSB              National Transportation Safety Board
GAO       Government Accountability Office
                                                                    OAPM              Optimization of Airspace and Procedures in the
GPS       Global Positioning System                                                   Metroplex
GSA       General Services Administration                           OIG               Office of the Inspector General
i2i       Institutionalizing Idea to In-Service                     OMB               Office of Management and Budget
ICAO      International Civil Aviation Organization                 OPD               Optimized Profile Descents
ICF       Integrated Control Facility                               OPM               Office of Personnel Management
IG        Inspector General                                         OTA               Office of Tax Analysis
ILS       Instrument Landing System                                 PAR               Performance and Accountability Report
IOC       Initial Operating Capability                              PASS              Professional Aviation Safety Specialists
IP$       Improper dollar                                           PBN               Performance-Based Navigation
IP%       Improper payment percent                                  PfMR              Portfolio Management Review
IPERA     Improper Payments Elimination and Recovery Act            PMO               Program Management Office
IPERIA    Improper Payments Elimination and Recovery                PP&E              Property, Plant, and Equipment
          Improvement Act
                                                                    PRD               Pilot Records Database
IPIA      Improper Payments Information Act
                                                                    QA                Quality Assurance
IRS       Internal Revenue Service
                                                                    QC                Quality Control
ISCP      Information Security Contingency Plan
                                                                    R&D               Research and Development
ISS       International Space Station
                                                                    R,E,&D            Research, Engineering, and Development
IT        Information Technology
                                                                    RFI               Request for Information
ITD       International Training Division
                                                                                                                                                                   OTHER INF ORMATI ON


                                                                    RADS              Report Analysis and Distribution System
JFMIP     Joint Financial Management Improvement Program
                                                                    RAP               Risk Analysis Process, Risk Analysis Program
LP        Localizer Performance
                                                                    RAPT              Route Availability Planning Tool
LPV       Localizer Performance with Vertical Navigation
                                                                    RECAT             Recategorization
MMAC      Mike Monroney Aeronautical Center
                                                                    RF                Radius-to-Fix




                                                              Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report   145
        ACRONYM          NAME                                                                       ACRONYM   NAME
       RNAV              Area Navigation                                                            SpaceX    Space Exploration Technologies
       RNP               Required Navigation Performance                                            SRER      System Risk Event Rate
       RNP AR            Area Navigation Procedures with Authorization                              SWIM      System Wide Information Management
                         Required
                                                                                                    TBFM      Time-Based Flow Management
       RSAT              Runway Safety Action Teams
                                                                                                    T-SAP     Technical Operations Safety Action Program
       RSSI              Required Supplementary Stewardship Information
                                                                                                    TRACON    Terminal Radar Approach Control
       RWSL              Runway Status Lights
                                                                                                    TBD       To Be Determined
       SAA               Sense and Avoid
                                                                                                    UAS       Unmanned Aircraft Systems
       SASO              System Approach to Safety Oversight
                                                                                                    WAAS      Wide-Area Augmentation System
       SBP               Strategy, Budget and Performance
                                                                                                    WJHTC     William J. Hughes Technical Center
       SAVES             Strategic Sourcing for the Acquisition of Various
                                                                                                    WTIC      Weather Technology in the Cockpit
                         Equipment and Supplies
       SFFAS             Statement of Federal Financial Accounting Standards
       SOP               Standard Operations Procedures




146   Federal Aviation Administration   |   Fiscal Year 2013   |   Performance and Accountability Report
WE WELCOME YOUR COMMENTS
Thank you for your interest in the FAA’s FY 2013 Performance and Accountability Report.
We welcome your comments on how we can make this report more informative for our readers.

Please send your comments to
Mail:	 Office of Financial Reporting and Accountability     Phone:	202-267-3018
       Federal Aviation Administration                      Email:	 Allison.Ritman@faa.gov
       800 Independence Avenue, SW, Room 612                Fax:	202-493-4191
       Washington, DC 20591

This report and reports from prior years are available on the FAA website at
www.faa.gov/about/plans_reports.
800 Independence Avenue, SW
   Washington, DC 20591




   WWW.FAA.GOV
